APPENDIX

1a

APPENDIX A

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT
Argued: October 8, 2020

Decided: January 19, 2021

No. 19-1140
AMERICAN LUNG ASSOCIATION AND AMERICAN PUBLIC
HEALTH ASSOCIATION,
PETITIONERS
v.
ENVIRONMENTAL PROTECTION AGENCY AND ANDREW
WHEELER, ADMINISTRATOR,
RESPONDENTS
AEP GENERATING COMPANY, ET AL.,
INTERVENORS
Consolidated with 19-1165, 19-1166, 19-1173,
19-1175, 19-1176, 19-1177, 19-1179, 19-1185,
19-1186, 19-1187, 19-1188
On Petitions for Review of a Final Action
of the Environmental Protection Agency

2a
Steven C. Wu, Deputy Solicitor General, Office of the
Attorney General for the State of New York, argued
the cause for the State and Municipal petitioners and
intervenor Nevada. With him on the briefs were
Letitia James, Attorney General, Barbara D.
Underwood, Solicitor General, Matthew W. Grieco,
Assistant Solicitor General, Michael J. Myers, Senior
Counsel, Andrew G. Frank, Assistant Attorney
General of Counsel, Xavier Becerra, Attorney General,
Office of the Attorney General for the State of
California, Robert W. Byrne, Senior Assistant Attorney
General, David A. Zonana, Supervising Deputy
Attorney General, Jonathan A. Wiener, M. Elaine
Meckenstock, Timothy E. Sullivan, Elizabeth B.
Rumsey, and Theodore A.B. McCombs, Deputy
Attorneys General, William Tong, Attorney General,
Office of the Attorney General for the State of
Connecticut, Matthew I. Levine and Scott N.
Koschwitz, Assistant Attorneys General, Kathleen
Jennings, Attorney General, Office of the Attorney
General for the State of Delaware, Valerie S. Edge,
Deputy Attorney General, Philip J. Weiser, Attorney
General, Office of the Attorney General for the State
of Colorado, Eric R. Olson, Solicitor General, Robyn L.
Wille, Senior Assistant Attorney General, Clare E.
Connors, Attorney General, Office of the Attorney
General for the State of Hawaii, William F. Cooper,
Deputy Attorney General, Aaron M. Frey, Attorney
General, Office of the Attorney General for the State
of Maine, Laura E. Jensen, Assistant Attorney
General, Brian E. Frosh, Attorney General, Office of
the Attorney General for the State of Maryland, John
B. Howard, Jr., Joshua M. Segal, and Steven J.
Goldstein, Special Assistant Attorneys General,

3a
Maura Healey, Attorney General, Office of the
Attorney General for the Commonwealth of
Massachusetts, Melissa A. Hoffer and Christophe
Courchesne, Assistant Attorneys General, Megan M.
Herzog and David S. Frankel, Special Assistant
Attorneys General, Dana Nessel, Attorney General,
Office of the Attorney General for the State of
Michigan, Gillian E. Wener, Assistant Attorney
General, Keith Ellison, Attorney General, Office of the
Attorney General for the State of Minnesota, Peter N.
Surdo, Special Assistant Attorney General, Aaron D.
Ford, Attorney General, Office of the Attorney General
for the State of Nevada, Heidi Parry Stern, Solicitor
General, Gurbir S. Grewal, Attorney General, Office of
the Attorney General for the State of New Jersey, Lisa
J. Morelli, Deputy Attorney General, Hector Balderas,
Attorney General, Office of the Attorney General for
the State of New Mexico, Tania Maestas, Chief Deputy
Attorney General, Joshua H. Stein, Attorney General,
Office of the Attorney General for the State of North
Carolina, Asher Spiller, Assistant Attorney General,
Ellen F. Rosenblum, Attorney General, Office of the
Attorney General for the State of Oregon, Paul
Garrahan, Attorney-in-Charge, Steve Novick, Special
Assistant Attorney General, Josh Shapiro, Attorney
General, Office of the Attorney General for the
Commonwealth of Pennsylvania, Ann R. Johnston,
Senior Deputy Attorney General, Aimee D. Thomson,
Deputy Attorney General, Peter F. Neronha, Attorney
General, Office of the Attorney General for the State
of Rhode Island, Gregory S. Schultz, Special Assistant
Attorney General, Thomas J. Donovan, Jr., Attorney
General, Office of the Attorney General for the State
of Vermont, Nicholas F. Persampieri, Assistant

4a
Attorney General, Mark Herring, Attorney General,
Office of the Attorney General for the Commonwealth
of Virginia, Donald D. Anderson, Deputy Attorney
General, Paul Kugelman, Jr., Senior Assistant
Attorney General and Chief, Environmental Section,
Caitlin Colleen Graham O’Dwyer, Assistant Attorney
General, Robert W. Ferguson, Attorney General, Office
of the Attorney General for the State of Washington,
Christopher H. Reitz and Emily C. Nelson, Assistant
Attorneys General, Joshua L. Kaul, Attorney General,
Office of the Attorney General for the State of
Wisconsin, Gabe Johnson-Karp, Assistant Attorney
General, Karl A. Racine, Attorney General, Office of
the Attorney General for the District of Columbia,
Loren L. AliKhan, Solicitor General, Tom Carr, City
Attorney, Office of the City Attorney for the City of
Boulder, Debra S. Kalish, Senior Counsel, Mark A.
Flessner, Corporation Counsel, Office of the
Corporation Counsel for the City of Chicago, Benna
Ruth Solomon, Deputy Corporation Counsel, Jared
Policicchio, Supervising Assistant Corporation
Counsel, Kristin M. Bronson, City Attorney, Office of
the City Attorney for the City and County of Denver,
Lindsay S. Carder and Edward J. Gorman, Assistant
City Attorneys, Michael N. Feuer, City Attorney,
Office of the City Attorney for the City of Los Angeles,
Michael J. Bostrom, Assistant City Attorney, James E.
Johnson, Corporation Counsel, New York City Law
Department, Christopher G. King, Senior Counsel,
Marcel S. Pratt, City Solicitor, City of Philadelphia
Law Department, Scott J. Schwarz and Patrick K.
O’Neill, Divisional Deputy City Solicitors, and Thomas
F. Pepe, City Attorney, City of South Miami. Morgan
A. Costello and Brian M. Lusignan, Assistant

5a
Attorneys General, Office of the Attorney General for
the State of New York, Gavin G. McGabe, Deputy
Attorney General, Anne Minard, Special Assistant
Attorney General, Office of the Attorney General for
the State of New Mexico, Cynthia M. Weisz, Assistant
Attorney General, Office of the Attorney General for
the State of Maryland, entered appearances.
Kevin Poloncarz argued the cause for Power
Company Petitioners. With him on the briefs were
Donald L. Ristow and Jake Levine.
Mark W. DeLaquil argued the cause for Coal
Industry Petitioners. With him on the briefs were
Shay Dvoretzky, Charles T. Wehland, Jeffery D.
Ubersax, Robert D. Cheren, and Andrew Grossman.
Theodore Hadzi-Antich argued the cause for
Robinson Enterprises Petitioners. With him on the
briefs were Robert Henneke and Ryan D. Walters.
Sean H. Donahue and Michael J. Myers argued the
causes for Public Health and Environmental
Petitioners. On the briefs were Ann Brewster Weeks,
James P. Duffy, Susannah L. Weaver, Joanne
Spalding, Andres Restrepo, Vera Pardee, Clare
Lakewood, Howard M. Crystal, Elizabeth Jones,
Brittany E. Wright, Jon A. Mueller, David Doniger,
Benjamin Longstreth, Melissa J. Lynch, Lucas May,
Vickie L. Patton, Tomas Carbonell, Benjamin Levitan,
Howard Learner, and Scott Strand. Alejandra Nunez
entered an appearance.
David M. Williamson argued the cause and filed the
briefs for Biogenic Petitioners.
Gene Grace, Jeff Dennis, and Rick Umoff were on
the brief for petitioners American Wind Energy
Association, et al.

6a
Theodore E. Lamm and Sean B. Hecht were on the
brief for amicus curiae Thomas C. Jorling in support
of petitioners.
Gabriel Pacyniak, Brent Chapman, and Graciela
Esquivel were on the brief for amici curiae the
Coalition to Protect America’s National Parks and the
National Parks Conservation Association in support of
petitioners.
Deborah A. Sivas and Matthew J. Sanders were on
the brief for amici curiae Administrative Law
Professors in support of petitioners.
Hope M. Babcock was on the brief for amici curiae
the American Thoracic Society, et al. in support of
petitioners.
Richard L. Revesz and Jack Lienke were on the brief
for amicus curiae the Institute for Policy Integrity at
New York University School of Law in support of
petitioners.
Steph Tai was on the brief for amici curiae Climate
Scientists in support of petitioners.
Michael Burger and Collyn Peddie were on the brief
for amici curiae the National League of Cities, et al. in
support of petitioners.
Keri R. Steffes was on the brief for amici curiae
Faith Organizations in support of petitioners.
Shaun A. Goho was on the brief for amici curiae
Maximilian Auffhammer, et al. in support of
petitioners.
Ethan G. Shenkman and Stephen K. Wirth were on
the brief for amici curiae Patagonia Works and
Columbia Sportswear Company in support of
petitioners.

7a
Mark Norman Templeton, Robert Adam Weinstock,
Alexander Valdes, and Benjamin Nickerson were on
the brief for amicus curiae Professor Michael
Greenstone in support of petitioners.
Nicole G. Berner and Renee M. Gerni were on the
brief for amicus curiae the Service Employees
International Union in support of petitioners.
Elizabeth B. Wydra, and Brianne J. Gorod were on
the brief for amici curiae Members of Congress in
support of petitioners.
Jonas J. Monast was on the brief for amici curiae
Energy Modelers in support of petitioners.
Katherine Konschnik was on the brief for amici
curiae Former Commissioners of the Federal Energy
Regulatory Commission in support of petitioners.
Michael Landis, Elizabeth S. Merritt, and Wyatt G.
Sassman were on the brief for amici curiae
Environment America and National Trust for Historic
Preservation in support of petitioners.
Cara A. Horowitz was on the brief for amici curiae
Grid Experts in support of petitioners.
Eric Alan Isaacson was on the brief for amici curiae
U.S. Senators in support of petitioners.
Jonathan D. Brightbill, Principal Deputy Assistant
Attorney General, U.S. Department of Justice, and
Meghan E. Greenfield and Benjamin Carlisle,
Attorneys, argued the causes for respondents. With
them on the brief was Jeffrey Bossert Clark, Assistant
Attorney General.
Lindsay S. See, Solicitor General, Office of the
Attorney General for the State of West Virginia,
argued the cause for State and Industry intervenors in

8a
support of respondents regarding Affordable Clean
Energy Rule. With her on the brief were Patrick
Morrisey, Attorney General, Thomas T. Lampman,
Assistant Solicitors General, Thomas A. Lorenzen,
Elizabeth B. Dawson, Rae Cronmiller, Kevin G.
Clarkson, Attorney General at the time the brief was
filed, Office of the Attorney General for the State of
Alaska, Clyde Sniffen Jr., Attorney General, Leslie
Rutledge, Attorney General, Office of the Attorney
General for the State of Arkansas, Nicholas J. Bronni,
Solicitor General, Vincent M. Wagner, Deputy Solicitor
General, Dylan L. Jacobs, Assistant Solicitor General,
Steve Marshall, Attorney General, Office of the
Attorney General for the State of Alabama, Edmund
G. LaCour, Jr., Solicitor General, Christopher M.
Carr, Attorney General, Office of the Attorney General
for the State of Georgia, Andrew A. Pinson, Solicitor
General, Derek Schmidt, Attorney General, Office of
the Attorney General for the State of Kansas, Jeffrey
A. Chanay, Chief Deputy Attorney General, Curtis T.
Hill, Jr., Attorney General, Office of the Attorney
General of Indiana, Thomas M. Fisher, Solicitor
General, Andrew Beshear, Governor, Office of the
Governor for the Commonwealth of Kentucky, S.
Travis Mayo, Chief Deputy General Counsel, Taylor
Payne, Deputy General Counsel, Joseph A. Newberg,
Deputy General Counsel and Deputy Executive
Director, Jeff Landry, Attorney General, Office of the
Attorney General for the State of Louisiana, Elizabeth
B. Murrill, Solicitor General, Harry J. Vorhoff,
Assistant Attorney General, Eric S. Schmitt, Attorney
General, Office of the Attorney General for the State
of Missouri, D. John Sauer, Solicitor General, Julie
Marie Blake, Deputy Solicitor General, Timothy C.

9a
Fox, Attorney General at the time the brief was filed,
Office of the Attorney General for the State of
Montana, Matthew T. Cochenour, Deputy Solicitor
General, Wayne Stenehjem, Attorney General, Office
of the Attorney General for the State of North Dakota,
Paul M. Seby, Special Assistant Attorney General,
Douglas J. Peterson, Attorney General, Office of the
Attorney General for the State of Nebraska, Justin D.
Lavene, Assistant Attorney General, Dave Yost,
Attorney General, Office of the Attorney General of
the State of Ohio, Benjamin M. Flowers, Solicitor
General, Cameron F. Simmons, Principal Assistant
Attorney General, Mike Hunter, Attorney General,
Office of the Attorney General for the State of
Oklahoma, Mithun Mansinghani, Solicitor General,
Jason R. Ravnsborg, Attorney General, Office of the
Attorney General for the State of South Dakota,
Steven R. Blair, Assistant Attorney General, Alan
Wilson, Attorney General, Office of the Attorney
General for the State of South Carolina, James Emory
Smith, Jr., Deputy Solicitor General, Ken Paxton,
Attorney General, Office of the Attorney General for
the State of Texas, Kyle D. Hawkins, Solicitor General,
Sean Reyes, Attorney General, Office of the Attorney
General for the State of Utah, Tyler R. Green, Solicitor
General, Bridget Hill, Attorney General, Office of the
Attorney General for the State of Wyoming, James
Kaste, Deputy Attorney General, Todd E. Palmer,
William D. Booth, Obianuju Okasi, Carroll W.
McGuffey, III, Misha Tseytlin, C. Grady Moore, III,
Julia Barber, F. William Brownell, Elbert Lin, Allison
D. Wood, Scott A. Keller, Jeffrey H. Wood, Jeremy Evan
Maltz, Steven P. Lehotsky, Michael B. Schon, Emily
Church Schilling, Kristina R. Van Bockern, David M.

10a
Flannery, Kathy G. Beckett, Edward L. Kropp, Amy M.
Smith, Janet J. Henry, Melissa Horne, Angela Jean
Levin, Eugene M. Trisko, John A. Rego, Reed W. Sirak,
Michael A. Zody, Jacob Santini, Robert D. Cheren,
Mark W. DeLaquil, and Andrew M. Grossman. C.
Frederick Beckner, III, James R. Bedell, Margaret C.
Campbell, Erik D. Lange, and John D. Lazzaretti
entered an appearance.
James P. Duffy argued the cause for Public Health
and Environmental Intervenors in support of
respondents. With him on the brief were Ann Brewster
Weeks, Sean H. Donahue, Susannah L. Weaver,
Joanne Spalding, Andres Restrepo, Vera Pardee, Clare
Lakewood, Elizabeth Jones, Brittany E. Wright, Jon A.
Mueller, David Doniger, Benjamin Longstreth, Melissa
J. Lynch, Lucas May, Vickie L. Patton, Tomas
Carbonell, Benjamin Levitan, Howard Learner, and
Scott Strand.
Letitia James, Attorney General, Office of the
Attorney General for the State of New York, Michael
J. Myers, Senior Counsel, Brian Lusignan, Assistant
Attorney General of Counsel, Barbara D. Underwood,
Solicitor General, Steven C. Wu, Deputy Solicitor
General, Matthew W. Grieco, Assistant Solicitor
General, Xavier Becerra, Attorney General, Office of
the Attorney General for the State of California,
Robert W. Byrne, Senior Assistant Attorney General,
David A. Zonana, Supervising Deputy Attorney
General, Jonathan A. Wiener, M. Elaine Meckenstock,
Timothy E. Sullivan, Elizabeth B. Rumsey, and
Theodore A.B. McCombs, Deputy Attorneys General,
William Tong, Attorney General, Office of the
Attorney General for the State of Connecticut,
Matthew I. Levine and Scott N. Koschwitz, Assistant

11a
Attorneys General, Kathleen Jennings, Attorney
General, Office of the Attorney General for the State
of Delaware, Valerie S. Edge, Deputy Attorney
General, Philip J. Weiser, Attorney General, Office of
the Attorney General for the State of Colorado, Eric R.
Olson, Solicitor General, Robyn L. Wille, Senior
Assistant Attorney General, Clare E. Connors,
Attorney General, Office of the Attorney General for
the State of Hawaii, William F. Cooper, Deputy
Attorney General, Aaron M. Frey, Attorney General,
Office of the Attorney General for the State of Maine,
Laura E. Jensen, Assistant Attorney General, Brian
E. Frosh, Attorney General, Office of the Attorney
General for the State of Maryland, John B. Howard,
Jr., Joshua M. Segal, and Steven J. Goldstein, Special
Assistant Attorneys General, Maura Healey, Attorney
General, Office of the Attorney General for the
Commonwealth of Massachusetts, Melissa A. Hoffer
and Christophe Courchesne, Assistant Attorneys
General, Megan M. Herzog and David S. Frankel,
Special Assistant Attorneys General, Dana Nessel,
Attorney General, Office of the Attorney General for
the State of Michigan, Gillian E. Wener, Assistant
Attorney General, Keith Ellison, Attorney General,
Office of the Attorney General for the State of
Minnesota, Peter N. Surdo, Special Assistant Attorney
General, Aaron D. Ford, Attorney General, Office of
the Attorney General for the State of Nevada, Heidi
Parry Stern, Solicitor General, Gurbir S. Grewal,
Attorney General, Office of the Attorney General for
the State of New Jersey, Lisa J. Morelli, Deputy
Attorney General, Hector Balderas, Attorney General,
Office of the Attorney General for the State of New
Mexico, Tania Maestas, Chief Deputy Attorney

12a
General, Joshua H. Stein, Attorney General, Office of
the Attorney General for the State of North Carolina,
Asher Spiller, Assistant Attorney General, Ellen F.
Rosenblum, Attorney General, Office of the Attorney
General for the State of Oregon, Paul Garrahan,
Attorney-in-Charge, Steve Novick, Special Assistant
Attorney General, Josh Shapiro, Attorney General,
Office of the Attorney General for the Commonwealth
of Pennsylvania, Ann R. Johnston, Senior Deputy
Attorney General, Aimee D. Thomson, Deputy
Attorney General, Peter F. Neronha, Attorney
General, Office of the Attorney General for the State
of Rhode Island, Gregory S. Schultz, Special Assistant
Attorney General, Thomas J. Donovan, Jr., Attorney
General, Office of the Attorney General for the State
of Vermont, Nicholas F. Persampieri, Assistant
Attorney General, Mark Herring, Attorney General,
Office of the Attorney General for the Commonwealth
of Virginia, Donald D. Anderson, Deputy Attorney
General, Paul Kugelman, Jr., Senior Assistant
Attorney General and Chief, Environmental Section,
Caitlin Colleen Graham O’Dwyer, Assistant Attorney
General, Robert W. Ferguson, Attorney General, Office
of the Attorney General for the State of Washington,
Christopher H. Reitz and Emily C. Nelson, Assistant
Attorneys General, Karl A. Racine, Attorney General,
Office of the Attorney General for the District of
Columbia, Loren L. AliKhan, Solicitor General, Tom
Carr, City Attorney, Office of the City Attorney for the
City of Boulder, Debra S. Kalish, Senior Counsel,
Mark A. Flessner, Corporation Counsel, Office of the
Corporation Counsel for the City of Chicago, Benna
Ruth Solomon, Deputy Corporation Counsel, Jared
Policicchio, Supervising Assistant Corporation

13a
Counsel, Kristin M. Bronson, City Attorney, Office of
the City Attorney for the City and County of Denver,
Lindsay S. Carder and Edward J. Gorman, Assistant
City Attorneys, Michael N. Feuer, City Attorney,
Office of the City Attorney for the City of Los Angeles,
Michael J. Bostrom, Assistant City Attorney, James E.
Johnson, Corporation Counsel, New York City Law
Department, Christopher G. King, Senior Counsel,
Marcel S. Pratt, City Solicitor, City of Philadelphia
Law Department, Scott J. Schwarz and Patrick K.
O’Neill, Divisional Deputy City Solicitors, and Thomas
F. Pepe, City Attorney, City of South Miami were on
the brief for the State and Municipal Intervenors in
support of respondents. Jeremiah Langston, Assistant
Attorney General, Office of the Attorney General for
the State of Montana, Stephen C. Meredith, Solicitor,
Office of the Attorney General for the Commonwealth
of Kentucky, Margaret I. Olson, Assistant Attorney
General, Office of the Attorney General for the State
of North Dakota, and Erik E. Petersen, Assistant
Attorney General, Office of the Attorney General for
the State of Wyoming, and Robert A. Wolf entered
appearances.
Patrick Morrisey, Attorney General, Office of the
Attorney General for the State of West Virginia,
Lindsay S. See, Solicitor General, Thomas T.
Lampman, Assistant Solicitor General, Scott A. Keller,
Jeffrey H. Wood, Jeremy Evan Maltz, Steven P.
Lehotsky, Michael B. Schon, Thomas A. Lorenzen,
Elizabeth B. Dawson, Rae Cronmiller, Steve Marshall,
Attorney General, Office of the Attorney General for
the State of Alabama, Edmund G. LaCour, Jr.,
Solicitor General, Kevin G. Clarkson, Attorney
General, Office of the Attorney General for the State

14a
of Alaska at the time the brief was filed, Clyde Sniffen,
Jr., Attorney General, Leslie Rutledge, Attorney
General, Office of the Attorney General for the State
of Arkansas, Nicholas J. Bronni, Solicitor General,
Vincent M. Wagner, Deputy Solicitor General, Dylan
L. Jacobs, Assistant Solicitor General, Christopher M.
Carr, Attorney General, Office of the Attorney General
for the State of Georgia, Andrew A. Pinson, Solicitor
General, Derek Schmidt, Attorney General, Office of
the Attorney General for the State of Kansas, Jeffrey
A. Chanay, Chief Deputy Attorney General, Curtis T.
Hill, Jr., Attorney General, Office of the Attorney
General of Indiana, Thomas M. Fisher, Solicitor
General, Andrew Beshear, Governor, Office of the
Governor for the Commonwealth of Kentucky, S.
Travis Mayo, Chief Deputy General Counsel, Taylor
Payne, Deputy General Counsel, Joseph A. Newberg,
Deputy General Counsel and Deputy Executive
Director, Jeff Landry, Attorney General, Office of the
Attorney General for the State of Louisiana, Elizabeth
B. Murrill, Solicitor General, Harry J. Vorhoff,
Assistant Attorney General, Eric S. Schmitt, Attorney
General, Office of the Attorney General for the State
of Missouri, D. John Sauer, Solicitor General, Julie
Marie Blake, Deputy Solicitor General, Timothy C.
Fox, Attorney General at the time the brief was filed,
Office of the Attorney General for the State of
Montana, Matthew T. Cochenour, Deputy Solicitor
General, Wayne Stenehjem, Attorney General, Office
of the Attorney General for the State of North Dakota,
Paul M. Seby, Special Assistant Attorney General,
Douglas J. Peterson, Attorney General, Office of the
Attorney General for the State of Nebraska, Justin D.
Lavene, Assistant Attorney General, Dave Yost,

15a
Attorney General, Office of the Attorney General of
the State of Ohio, Benjamin M. Flowers, Solicitor
General, Cameron F. Simmons, Principal Assistant
Attorney General, Mike Hunter, Attorney General,
Office of the Attorney General for the State of
Oklahoma, Mithun Mansinghani, Solicitor General,
Jason R. Ravnsborg, Attorney General, Office of the
Attorney General for the State of South Dakota,
Steven R. Blair, Assistant Attorney General, Alan
Wilson, Attorney General, Office of the Attorney
General for the State of South Carolina, James Emory
Smith, Jr., Deputy Solicitor General, Ken Paxton,
Attorney General, Office of the Attorney General for
the State of Texas, Kyle D. Hawkins, Solicitor General,
Sean Reyes, Attorney General, Office of the Attorney
General for the State of Utah, Tyler R. Green, Solicitor
General, Bridget Hill, Attorney General, Office of the
Attorney General for the State of Wyoming, James
Kaste, Deputy Attorney General, Todd E. Palmer,
William D. Booth, Obianuju Okasi, Carroll W.
McGuffey, III, Misha Tseytlin, C. Grady Moore, III,
Julia Barber, F. William Brownell, Elbert Lin, Allison
D. Wood, Emily Church Schilling, Kristina R. Van
Bockern, David M. Flannery, Kathy G. Beckett,
Edward L. Kropp, Amy M. Smith, Janet J. Henry,
Melissa Horne, Angela Jean Levin, Eugene M. Trisko,
John A. Rego, Reed W. Sirak, Michael A. Zody, Jacob
Santini, Robert D. Cheren, Mark W. DeLaquil, and
Andrew M. Grossman were on the brief for State and
Industry Intervenors in support of respondents
regarding Clean Power Plan Repeal.
Wayne Stenehjem, Attorney General, Office of the
Attorney General for the State of North Dakota, and
Paul M. Seby, Special Assistant Attorney General,

16a
were on the brief for intervenor State of North Dakota
in support of the respondents. Jerry Stouck entered an
appearance.
Thomas J. Ward, Megan H. Berge, and Jared R.
Wigginton were on the brief for amicus curiae National
Association of Builders in support of respondents.
Before: MILLET, PILLARD, and WALKER, Circuit
Judges.
Opinion for the Court filed PER CURIAM.
Opinion concurring in part, concurring in the
judgment in part, and dissenting in part filed by
Circuit Judge WALKER.

17a
TABLE OF CONTENTS
I.

II.

Background ..................................................... 17
A.

The Clean Air Act ...................................... 17

B.

Electricity and Climate Change................ 21
1.

Electricity ......................................... 21

2.

Climate Change and the
Federal Government ........................ 24

C.

The Clean Power Plan ............................... 29

D.

The ACE Rule ............................................ 32
1.

Repeal of the Clean Power Plan ....... 32

2.

Best System of Emission
Reduction ........................................... 33

3.

Degree of Emission
Limitation Achievable ....................... 36

4.

Implementing Regulations ................ 38

E.

Petitions for Review .................................. 38

F.

Jurisdiction and Standard of Review ....... 39

Section 7411 ..................................................... 40
A.

B.

C.

Statutory Context ...................................... 40
1.

Text .................................................... 46

2.

Statutory History, Structure,
and Purpose ....................................... 59

3.

Compliance Measures ....................... 71

The Major Questions Doctrine .................. 74
1.

The EPA’s Regulatory Mandate ....... 75

2.

Best System of Emission
Reduction ........................................... 80

Federalism ................................................. 92

18a
III. The EPA’s Authority to Regulate Carbon
Dioxide Emissions Under Section 7411 ..... 98
A.

B.

The Coal Petitioners’ Challenges .............. 98
1.

Endangerment Finding ..................... 99

2.

Section 7411 and Section 7412’s
Parallel Operation ........................... 111

The Robinson Petitioners’ Challenges .... 132

IV. Amendments to the Implementing
Regulations ................................................... 138
V.

Vacatur and Remand .................................. 146

VI. Conclusion ..................................................... 147

19a
As the Supreme Court recognized nearly fourteen
years ago, climate change has been called “the most
pressing environmental challenge of our time.”
Massachusetts v. EPA, 549 U.S. 497, 505 (2007)
(formatting modified). Soon thereafter, the United
States government determined that greenhouse gas
emissions are polluting our atmosphere and causing
significant and harmful effects on the human
environment. Endangerment and Cause or Contribute
Findings for Greenhouse Gases Under Section 202(a)
of the Clean Air Act (2009 Endangerment Finding), 74
Fed. Reg. 66,496, 66,497–66,499 (Dec. 15, 2009). And
both Republican and Democratic administrations have
agreed: Power plants burning fossil fuels like coal “are
far and away” the largest stationary source of
greenhouse gases and, indeed, their role in greenhouse
gas emissions “dwarf[s] other categories[.]” EPA Br.
169; see also Standards of Performance for
Greenhouse Gas Emissions from New, Modified, and
Reconstructed Stationary Sources: Electric Utility
Generating Units (New Source Rule), 80 Fed. Reg.
64,510, 64,522 (Oct. 23, 2015) (fossil-fuel-fired power
plants are “by far the largest emitters” of greenhouse
gases).
The question in this case is whether the
Environmental Protection Agency (EPA) acted
lawfully in adopting the 2019 Affordable Clean Energy
Rule (ACE Rule), 84 Fed. Reg. 32,520 (July 8, 2019),
as a means of regulating power plants’ emissions of
greenhouse gases. It did not. Although the EPA has
the legal authority to adopt rules regulating those
emissions, the central operative terms of the ACE Rule
and the repeal of its predecessor rule, the Clean Power
Plan, 80 Fed. Reg. 64,662 (Oct. 23, 2015), hinged on a

20a
fundamental misconstruction of Section 7411(d) of the
Clean Air Act. In addition, the ACE Rule’s amendment
of the regulatory framework to slow the process for
reduction of emissions is arbitrary and capricious. For
those reasons, the ACE Rule is vacated, and the record
is remanded to the EPA for further proceedings
consistent with this opinion.
I. BACKGROUND
A. THE CLEAN AIR ACT
In 1963, Congress passed the Clean Air Act, 42
U.S.C. § 7401 et seq., “to protect and enhance the
quality of the Nation’s air resources so as to promote
the public health and welfare and the productive
capacity of its population[,]” id. § 7401(b)(1).
Animating the Act was Congress’ finding that “growth
in the amount and complexity of air pollution brought
about by urbanization, industrial development, and
the increasing use of motor vehicles[] has resulted in
mounting dangers to the public health and welfare[.]”
Id. § 7401(a)(2).
Section 111 of the Clean Air Act, which was added
in 1970 and codified at 42 U.S.C. § 7411, directs the
EPA to regulate any new and existing stationary
sources of air pollutants that “cause[], or contribute[]
significantly to, air pollution” and that “may
reasonably be anticipated to endanger public health or
welfare.” 42 U.S.C. § 7411(b)(1)(A); see id. § 7411(d), (f)
(providing that the EPA Administrator “shall”
regulate existing and new sources of air pollution). A
“stationary source” is a source of air pollution that
cannot move, such as a power plant. See id.
§ 7411(a)(3) (defining “stationary source” as “any
building, structure, facility, or installation which

21a
emits or may emit any air pollutant[]”). An example of
a common non-stationary source of air pollution is a
gas-powered motor vehicle. See Utility Air Regulatory
Group v. EPA (UARG), 573 U.S. 302, 308 (2014).
Within 90 days of the enactment of Section 7411, the
EPA Administrator was to promulgate a list of
stationary source categories that “cause[], or
contribute[] significantly to, air pollution[.]” 42 U.S.C.
§ 7411(b)(1)(A). In 1971, the Administrator included
fossil-fuel-fired steam-generating power plants on
that list. Air Pollution Prevention and Control: List of
Categories of Stationary Sources, 36 Fed. Reg. 5,931
(March 31, 1971); see also New Source Rule, 80 Fed.
Reg. at 64,527–64,528. Today’s power plants fall in
that same category. ACE Rule, 84 Fed. Reg. at 32,557
n.250.
Once a stationary source category is listed, the
Administrator must promulgate federal “standards of
performance” for all newly constructed sources in the
category. 42 U.S.C. § 7411(b)(1)(B). The Act defines a
“standard of performance” as
a standard for emissions of air pollutants which
reflects the degree of emission limitation
achievable through the application of the best
system of emission reduction which (taking into
account the cost of achieving such reduction and
any nonair quality health and environmental
impact
and
energy
requirements)
the
Administrator determines has been adequately
demonstrated.
Id. § 7411(a)(1).
Once such a new source regulation is promulgated,
the Administrator also must issue emission guidelines

22a
for already-existing stationary sources within that
same source category. 42 U.S.C. § 7411(d)(1)(A)(ii); see
also American Elec. Power Co., Inc. v. Connecticut
(AEP), 564 U.S. 410, 424 (2011).
While the new source standards are promulgated
and enforced entirely by the EPA, the Clean Air Act
prescribes a process of cooperative federalism for the
regulation of existing sources. Under that structure,
the statute delineates three distinct regulatory steps
involving three sets of actors—the EPA, the States,
and regulated industry—each of which has a flexible
role in choosing how to comply. See 42 U.S.C.
§ 7411(a)(1), (d). This allows each State to work with
the stationary sources within its jurisdiction to devise
a plan for meeting the federally promulgated
quantitative guideline for emissions. See id. § 7411(d).
The process starts with the EPA first applying its
expertise to determine “the degree of emission
limitation achievable through the application of the
best system of emission reduction” that “has been
adequately demonstrated.” 42 U.S.C. § 7411(a)(1); see
40 C.F.R. § 60.22a. That system must “tak[e] into
account the cost of achieving such reduction and any
nonair quality health and environmental impact and
energy requirements[.]” 42 U.S.C. § 7411(a)(1). Once
the Administrator identifies the best system of
emission reduction, she then determines the amount
of emission reduction that existing sources should be
able to achieve based on the application of that system
and adopts corresponding emission guidelines. Id.; see
also, e.g., ACE Rule, 84 Fed. Reg. at 32,523; Clean
Power Plan, 80 Fed. Reg. at 64,719.

23a
Each State then submits to the EPA a plan that (i)
establishes standards of performance for that State’s
existing stationary sources’ air pollutants (excepting
pollutants already subject to separate federal
emissions standards), and (ii) “provides for the
implementation and enforcement of such standards of
performance[]” by the State. 42 U.S.C. § 7411(d)(1); see
40 C.F.R. § 60.23a. The standards of performance
must “reflect[]” the emission targets that the EPA has
determined are achievable. 42 U.S.C. § 7411(a)(1). In
this context, a state standard need not adopt the best
system identified by the EPA to “reflect[]” it. Id.; see
40 C.F.R. § 60.24a(c). Instead, the Clean Air Act
affords States significant flexibility in designing and
enforcing standards that employ other approaches so
long as they meet the emission guidelines prescribed
by the Agency.
If a State fails to submit a satisfactory plan, the
EPA may prescribe a plan for that State. 42 U.S.C.
§ 7411(d)(2)(A); see 40 C.F.R. § 60.27a(c)–(e).
Similarly, if the State submits a plan but fails to
enforce it, the EPA itself may enforce the plan’s terms.
Id. § 7411(d)(2)(B).
The third and final set of relevant actors are the
regulated entities themselves, to which, under the Act,
the States may afford leeway in crafting compliance
measures. See Clean Power Plan, 80 Fed. Reg. at
64,666; ACE Rule, 84 Fed. Reg. at 32,555.
The EPA has exercised its authority under Section
7411 over the years to set emission limitations for
different types of air pollution from various categories
of existing sources. See 42 Fed. Reg. 12,022 (March 1,
1977) (fluorides from phosphate fertilizer plants); 42

24a
Fed. Reg. 55,796 (Oct. 18, 1977) (acid mist from
sulfuric acid plants); 44 Fed. Reg. 29,828 (May 22,
1979) (total reduced sulfur from kraft pulp plants); 45
Fed. Reg. 26,294 (April 17, 1980) (fluorides from
primary aluminum plants); 60 Fed. Reg. 65,387 (Dec.
19, 1995) (various pollutants from municipal waste
combustors); 61 Fed. Reg. 9905 (March 12, 1996)
(landfill gases from municipal solid waste landfills); 70
Fed. Reg. 28,606 (May 18, 2005) (mercury from coalfired power plants).
The Clean Air Act is a comprehensive statute that
includes a variety of regulatory programs for tackling
air pollution in addition to Section 7411. Regulated
parties may be subject to one or more programs. As
relevant here, the National Ambient Air Quality
Standards (NAAQS) provisions, 42 U.S.C. §§ 7408–
7410, govern the levels of specified air pollutants that
may be present in the atmosphere to protect air
quality and the public health and welfare. The
Hazardous Air Pollutants program, id. § 7412, directs
the EPA to establish strict emission limitations for the
most dangerous air pollutants emitted from major
sources. Section 7411’s cooperative federalism
program for existing sources operates as a gap-filler,
requiring the EPA to regulate harmful emissions not
controlled under those other two programs. Id.
§ 7411(d)(1)(i).
B. ELECTRICITY AND CLIMATE CHANGE
1. Electricity
Electricity powers the world. Chances are that you
are reading this opinion on a device that consumes
electricity. Yet two distinct characteristics of
electricity make its production and delivery in the

25a
massive quantities demanded by consumers an
exceptionally complex process. First, unlike most
products, electricity is a perfectly fungible commodity.
Grid Experts Amicus Br. 6. A watt of electricity is a
watt of electricity, no matter who makes it, how they
make it, or where it is purchased. Second, at least as
of now, this highly demanded product cannot be
effectively stored at scale after it is created. Paul L.
Joskow, Creating a Smarter U.S. Electricity Grid, 26
J. Econ. Persp. 29, 31–33 (2012).1 Instead, electricity
must constantly be produced, and is almost
instantaneously consumed. See Clean Power Plan, 80
Fed. Reg. at 64,677, 64,692; Grid Experts Amicus Br.
8.
Those unique attributes led to the creation of the
American electrical grid.2 The grid has been called the
Change in storage capacity is picking up speed. See
generally Richard L. Revesz & Burcin Unel, Managing the Future
of the Electricity Grid: Energy Storage and Greenhouse Gas
Emissions, 42 HARV. ENV’T L. REV. 139, 140–141 (2018)
(describing ongoing declines in cost of storage); LAZARD, LAZARD’S
LEVELIZED COST OF STORAGE ANALYSIS—VERSION 6.0 (2020)
(noting “storage costs have declined across most use cases and
technologies, particularly for shorter-duration applications, in
part driven by evolving preferences in the industry”).
Nevertheless, the grid’s production capacity still far exceeds its
present storage capacity. Univ. of Mich. Ctr. for Sustainable Sys.,
GRID
ENERGY
STORAGE
(Sept.
2020),
U.S.
http://css.umich.edu/sites/default/files/US%20Grid%20Energy%
20Storage_CSS15-17_e2020.pdf (last visited Jan. 11, 2021)
(United States has 1,100 gigawatts of installed generation
capacity and just 23 gigawatts of storage capacity).
1

Technically, “grids.” There are three regional grids in the
contiguous United States: Eastern, Western, and Texas. Grid
Experts Amicus Br. 9; see also United States Dep’t of Energy,
North
American
Electric
Reliability
Corporation
2

26a
“supreme engineering achievement of the 20th
century,” MASS. INST. OF TECH., THE FUTURE OF THE
ELECTRIC GRID 1 (2011) (formatting modified), and it
is an exceptionally complex, interconnected system.
“[A]ny electricity that enters the grid immediately
becomes a part of a vast pool of energy that is
constantly moving[.]” New York v. FERC, 535 U.S. 1,
7 (2002). That means that units of electricity as
delivered to the user are identical, no matter their
source. On the grid, there is no coal-generated
electricity or renewable-generated electricity; there is
just electricity. See Clean Power Plan, 80 Fed. Reg. at
64,692; Grid Experts Amicus Br. 7–8. Also, because
storing electricity for any length of time remains
technically challenging and often costly, the
components of the grid must operate as a perfectly
calibrated machine to deliver the amount of electricity
that all consumers across the United States need at
the moment they need it. Grid Experts Amicus Br. 8,
10–11; see also 80 Fed. Reg. at 64,677. “If [someone] in
Atlanta on the Georgia [leg of the] system turns on a
light, every generator on Florida’s system almost
instantly is caused to produce some quantity of
additional electric energy which serves to maintain
the balance in the interconnected system[.]” Federal
Power Comm’n v. Florida Power & Light Co., 404 U.S.
453, 460 (1972) (citation omitted). “Like orchestra
conductors signaling entrances and cut-offs, grid
operators use automated systems to signal particular
generators to dispatch more or less power to the grid
as needed over the course of the day, thus ensuring
Interconnections,
https://www.energy.gov/oe/downloads/northamerican-electric-reliability-corporation-interconnections (last
visited Jan. 11, 2021).

27a
that power pooled on the grid rises and falls to meet
changing demand.” Grid Experts Amicus Br. 11.
Most generators of electricity on the American grid
create power by burning fossil fuels like coal, oil, and
natural gas. See United States Energy Information
Administration (EIA), Frequently Asked Questions:
What Is U.S. Electricity Generation by Energy Source?
(Nov.
2,
2020),
https://www.eia.gov/tools/faqs/faq.php?id=427&t=3
(last visited Jan. 11, 2021) (fossil fuels represented
62.6 percent of electricity generation in 2019). Some of
those power plants take a fossil fuel (usually coal) and
burn it in a water boiler to make steam. Other power
plants take a different fossil fuel (usually natural gas),
mix it with highly compressed air, and ignite it to
release a combination of super-hot gases. Either way,
that steam or superheated mixture is piped into giant
turbines that catch the gases and rotate at extreme
speeds. Those turbines turn generators, which spin
magnets within wire coils to produce electricity. EIA,
Electricity
Explained
(Nov.
9,
2020),
https://www.eia.gov/energyexplained/electricity/howelectricity-is-generated.php (last visited Jan 11, 2021).
2. Climate Change and the Federal
Government
Electrical power has become virtually as
indispensable to modern life as air itself. But
electricity generation has come into conflict with air
quality in ways that threaten human health and wellbeing when power generated by burning fossil fuels
emits carbon dioxide and other polluting greenhouse
gases into the air.

28a
Since the late 1970s, the federal government has
focused “serious attention” on the effects of carbon
dioxide pollution on the climate. Massachusetts v.
EPA, 549 U.S. at 507. In 1978, Congress adopted the
National Climate Program Act, Pub. L. No. 95-367, 92
Stat. 601, which directed the President to study and
devise an appropriate response to “man-induced
climate processes and their implications[,]” id. § 3; see
Massachusetts v. EPA, 549 U.S. at 507–508. In
response, the National Academy of Sciences’ National
Research Council reported “no reason to doubt that
climate changes will result” if “carbon dioxide
continues to increase,” and “[a] wait-and-see policy
may mean waiting until it is too late.” Massachusetts
v. EPA, 549 U.S. at 508 (quoting CLIMATE RESEARCH
BOARD, CARBON DIOXIDE & CLIMATE: A SCIENTIFIC
ASSESSMENT, at viii (1979)).
In 1987, Congress passed the Global Climate
Protection Act, which found that “manmade
pollution[,]” including “the release of carbon dioxide,
* * * may be producing a long-term and substantial
increase in the average temperature on Earth[.]” Pub.
L. No. 100-204, Title XI, § 1102(1), 101 Stat. 1407,
1408 (codified at 15 U.S.C. § 2901 note). The Climate
Protection Act directed the EPA to formulate a
“coordinated national policy on global climate change.”
Id. § 1103(b), 101 Stat. at 1408; see Massachusetts v.
EPA, 549 U.S. at 508.
It was no until the Supreme Court’s 2007 decision
in Massachusetts v. EPA, however, that the Court
confirmed that carbon dioxide and other greenhouse
gas emissions constituted “air pollutant[s]” covered by
the Clean Air Act. See 549 U.S. at 528. The Supreme
Court explained that the Clean Air Act’s “sweeping

29a
definition of ‘air pollutant’ includes ‘any air pollution
agent or combination of such agents, including any
physical, chemical . . . substance or matter which is
emitted into or otherwise enters the ambient air[.]’” Id.
at 528–529 (quoting 42 U.S.C. § 7602(g)). The Act, the
Supreme Court held, “is unambiguous” in that regard.
Id. at 529. “On its face, the definition embraces all
airborne compounds of whatever stripe, and
underscores that intent through the repeated use of
the word ‘any.’” Id. And “[c]arbon dioxide” and other
common greenhouse gases are “without a doubt”
chemical substances that are “emitted into . . . the
ambient air.” Id. (quoting 42 U.S.C. § 7602(g)).
Given that statutory command, the Supreme Court
ruled that the EPA “can avoid taking further action”
to regulate such pollution “only if it determines that
greenhouse gases do not contribute to climate change”
or offers some reasonable explanation for not resolving
that question. Massachusetts v. EPA, 549 U.S. at 533.
Taking up the mantle, the EPA in 2009 found
“compelling[]” evidence that emissions of greenhouse
gases are polluting the atmosphere and are
endangering human health and welfare by causing
significant damage to the environment. 2009
Endangerment Finding, 74 Fed. Reg. at 66,497; see id.
(“[T]he Administrator finds that greenhouse gases in
the atmosphere may reasonably be anticipated both to
endanger public health and to endanger public
welfare. * * * The Administrator has determined that
the body of scientific evidence compellingly supports
this finding.”); id. at 66,497–66,499. The EPA
concluded that “‘compelling’ evidence supported the
‘attribution of observed climate change to
anthropogenic’ [that is, human-influenced] emissions

30a
of greenhouse gases[.]” AEP, 564 U.S. at 417 (quoting
74 Fed. Reg. at 66,518). The “[c]onsequent dangers of
greenhouse gas emissions,” the EPA determined,
include
increases in heat-related deaths; coastal
inundation and erosion caused by melting icecaps
and rising sea levels; more frequent and intense
hurricanes, floods, and other “extreme weather
events” that cause death and destroy
infrastructure; drought due to reductions in
mountain snowpack and shifting precipitation
patterns; destruction of ecosystems supporting
animals and plants; and potentially “significant
disruptions” of food production.
Id. (quoting 74 Fed. Reg. at 66,524–66,535).
Not long thereafter, the Supreme Court ruled that
the significant greenhouse gas pollution caused by
fossil-fuel-fired power plants is subject to regulation
under Section 7411 of the Clean Air Act. AEP, 564 U.S.
at 424 (holding that Section 7411 “speaks directly to
emissions of carbon dioxide from [fossil-fuel-fired]
plants[]”) (internal quotation marks omitted). The
Court concluded that the EPA’s expertise made it “best
suited to serve as primary regulator of greenhouse gas
emissions.” Id. at 428.
In 2015, with the 2009 carbon dioxide
endangerment finding continuing in effect, the EPA
reaffirmed that greenhouse gases “endanger public
health, now and in the future.” New Source Rule, 80
Fed. Reg. at 64,518. The EPA explained that, “[b]y
raising average temperatures, climate change
increases the likelihood of heat waves, which are
associated with increased deaths and illnesses[,]”

31a
particularly among “[c]hildren, the elderly, and the
poor[.]” Id. at 64,517. In addition, the EPA found that
“[c]limate change impacts touch nearly every aspect of
public welfare.” Id. Among the “multiple threats
caused by human emissions of [greenhouse gases],”
the EPA pointed to climate changes that “are expected
to place large areas of the country at serious risk of
reduced water supplies, increased water pollution, and
increased occurrence of extreme events such as floods
and droughts.” Id. The EPA “emphasize[d] the urgency
of reducing [greenhouse gas] emissions due to * * *
projections that show [greenhouse gas] concentrations
climbing to ever-increasing levels in the absence of
mitigation[,]” citing independent assessments finding
that, “without a reduction in emissions, CO2
concentrations by the end of the century would
increase to levels that the Earth has not experienced
for more than 30 million years.” Id. at 64,518.
The federal government’s consistent recognition of
the danger to public health and welfare caused by
climate change, and the signal contribution of
greenhouse gas emissions from power plants to global
warming, continues to the present. In 2018, President
Trump’s administration concluded that “Earth’s
climate is now changing faster than at any point in the
history of modern civilization, primarily as a result of
human activities.” U.S. GLOBAL CHANGE RESEARCH
PROGRAM, FOURTH NATIONAL CLIMATE ASSESSMENT,
VOLUME II: IMPACTS, RISKS, AND ADAPTATION IN THE
UNITED STATES (REPORT-IN-BRIEF) 24 (2018). The
administration added that “the evidence of humancaused climate change is overwhelming and continues
to strengthen,” and “the impacts of climate change are
intensifying across the country[.]” Id. at 26 (emphasis

32a
omitted). “Climate-related changes in weather
patterns and associated changes in air, water, food,
and the environment are affecting the health and wellbeing of the American people, causing injuries,
illnesses, and death.” Id. at 102. The administration’s
report concluded that urgent action is needed to
mitigate these dangers because “[f]uture risks from
climate change depend primarily on decisions made
today.” Id. at 13.
In preparing the ACE Rule, the EPA expressly
acknowledged its continued adherence to the 2015
endangerment finding. 84 Fed. Reg. at 32,533 (The
2015 New Source Rule “continues to provide the
requisite predicate for applicability of [Clean Air Act]
section 111(d).”); id. at 32,557 n.250; see also Emission
Guidelines for Greenhouse Gas Emissions from
Existing Electric Utility Generating Units; Revisions
to Emission Guideline Implementing Regulations;
Revisions to New Source Review Program: Proposed
Rule, 83 Fed. Reg. 44,746, 44,751 (Aug. 31, 2018)
(confirming that the 2015 New Source Rule “remains
on the books[]”); EPA Br. 217.
That endangerment finding provided the essential
factual foundation—and triggered a statutory
mandate—for the EPA to regulate greenhouse gas
emissions from both new and existing power plants.
See New Source Rule, 80 Fed. Reg. at 64,527, 64,529–
64,532; Clean Power Plan, 80 Fed. Reg. at 64,683–
64,690; see also 42 U.S.C. §§ 7411(b)(1)(A)–(B) (duty to
regulate new stationary sources that contribute
significantly to dangerous pollution identified in
endangerment finding), 7411(d)(1)(A)(ii) (duty to
regulate existing stationary sources that would be
regulated under § 7411(b) if they were new stationary

33a
sources). Recall, Section 7411(b)(1)(A) provides that
the EPA Administrator “shall” regulate any category
of sources that, “in his judgment * * * causes, or
contributes significantly to, air pollution which may
reasonably be anticipated to endanger public health or
welfare.” The EPA endangerment findings reflect such
well-established risks.
C. THE CLEAN POWER PLAN
In the last decade, the EPA has heavily focused its
regulation of greenhouse gases on the power sector
because “power plants are far and away the largest
stationary-category source of greenhouse gases[,]” and
“power plants’ contributions to CO2 pollution * * *
dwarf[] other categories[.]” EPA Br. 169.
In October 2015, the EPA issued greenhouse gas
emission standards for new and modified power
plants. See New Source Rule, 80 Fed. Reg. at 64,510.
In so doing, the EPA found that, “[a]ll told, these fossil
fuel-fired [power plants] emit almost one-third of all
U.S. [greenhouse gas] emissions, and are responsible
for almost three times as much as the emissions from
the next ten stationary source categories combined.”
Id. at 64,531. That rule and finding remain in effect
and are not challenged in this litigation.
The EPA then turned to the regulation of existing
power plants. The EPA began, as the Clean Air Act
requires, by determining the best system of emission
reduction that has been adequately demonstrated for
existing fossil-fuel-fired power plants. See 42 U.S.C.
§ 7411(a)(1); Clean Power Plan, 80 Fed. Reg. at 64,718.
In identifying that system, the EPA chose to build on
the established grid system and methods of operation
already adopted by and familiar to the power sector.

34a
See 80 Fed. Reg. at 64,725, 64,727–64,728. The
regulations and standards that the EPA formulated
came to be known as the Clean Power Plan. Id. at
64,663.
In the Clean Power Plan, the EPA determined that
a combination of three existing methods of emission
reduction—which the Plan referred to as building
blocks, 80 Fed. Reg. at 64,667—formed the “best
system of emission reduction,” 42 U.S.C. § 7411(a)(1).
First,
the
system
incorporated
heat-rate
improvements—that is, technological measures that
improve efficiency at coal-fired steam power plants
and, in that way, reduce the amount of coal that must
be burned to produce each watt of electricity to the
grid. 80 Fed. Reg. at 64,667.
Second, the system added the “substitut[ion of]
increased generation from lower-emitting existing
natural gas combined cycle units for generation from
higher-emitting affected steam generating” power
plants, which are mostly coal-fired. 80 Fed. Reg. at
64,667.
Third, the system prioritized the use of electricity
generated from zero-emitting renewable-energy
sources over electricity from the heavily greenhousegas-polluting fossil-fuel-fired power plants. 80 Fed.
Reg. at 64,667.
Those second and third methods of emission control
are often referred to as “generation shifting” because
the reductions occur when the source of power
generation shifts from higher-emission power plants
to less-polluting sources of energy. See Clean Power
Plan, 80 Fed. Reg. at 64,728–64,729. As the EPA
observed, such shifts in generation already occur all

35a
the time as a matter of grid mechanics. That is, within
the grid’s “Constrained Least-Cost Dispatch” system,
production from “generators with the lowest variable
costs” will be dispatched “first, as system operational
limits allow, until all demand is satisfied.” Grid
Experts Amicus Br. 12. “[R]enewable energy
generators typically receive dispatch priority because
they have lower variable costs than fossil-fuel-fired
generators, which must purchase fuel.” Id. at 13
(citing 80 Fed. Reg. at 64,693). The EPA found that
most electricity is generated by diversified utilities
that could achieve most or all of the shift to lower- or
no-emission generation by reassessing the dispatch
priority of their own assets. See 80 Fed. Reg. at 64,796,
64,804.
As required by Section 7411(a)(1), the EPA then
quantified the degree of emission reduction achievable
under that three-tier best system for the relevant
fossil-fuel-fired power plants and translated it into
state-specific emissions goals for 2030. Clean Power
Plan, 80 Fed. Reg. at 64,824–64,825. To permit
additional flexibility, the Plan actually provided two
alternative types of targets: rate-based goals,
reflecting the rate of emission per certain amount of
generation, and mass-based goals, reflecting the total
emission from a State’s sources. Id. at 64,820, 64,824–
64,825 Tables 12, 13. The alternative metrics were an
added source of flexibility for States in choosing how
they would meet the federal limits.
Under the Clean Air Act, States could then propose
plans that set standards of performance for their
existing power plants that would meet those emission
goals. Clean Power Plan, 80 Fed. Reg. at 64,664. In
doing so, the States and their power plants were under

36a
no obligation to use the three specific methods that the
EPA had identified in determining the best system of
emission reduction. Rather, consistent with Section
7411(d)’s cooperative federalism approach, States
were free to choose any measures, approaches, or
technologies that they deemed appropriate to meet the
federal guidelines. For example, they could adopt
technological controls already in use by some power
plants like carbon capture and sequestration (by
which carbon dioxide is captured from the plant’s flue
gas before it is emitted and then securely stored so it
cannot reach the atmosphere) or co-firing (where fuels
that release less carbon dioxide are burned alongside
fuels that release more to reduce the amount of the
latter used). See id. at 64,883. The EPA also suggested
that States might rely on emissions-trading programs
(often referred to as cap-and-trade) and other potential
compliance strategies. Id. at 64,887.
The EPA found that its proposed approach was
“consistent with, and in some ways mirrors, the
interconnected, interdependent and highly regulated
nature of the utility power sector[]” and its grid, as
well as “the daily operation of affected [power plants]
within this framework, and the critical role of utilities
in providing reliable, affordable electricity at all times
and in all places within this complex, regulated
system.” Clean Power Plan, 80 Fed. Reg. at 64,678.
The Clean Power Plan was challenged in this court.
West Virginia v. EPA, No. 15-1363 (and consolidated
cases) (D.C. Cir. Oct. 23, 2015). After we heard
argument en banc, but before we issued a decision,
that litigation was held in abeyance and ultimately
dismissed as the EPA reassessed its position. No. 151363, Docs. 1673071, 1806952.

37a
D. THE ACE RULE
In 2019, the EPA issued a new rule that repealed
and replaced the Clean Power Plan: The Affordable
Clean Energy (ACE) Rule. See Repeal of the Clean
Power Plan; Emission Guidelines for Greenhouse Gas
Emissions from Existing Electric Utility Generating
Units;
Revisions
to
Emission
Guidelines
Implementing Regulations, 84 Fed. Reg. 32,520 (July
8, 2019). That Rule is the subject of this litigation.
1. Repeal of the Clean Power Plan
At the outset, the ACE Rule repealed the Clean
Power Plan. The EPA explained that it felt itself
statutorily compelled to do so because, in its view, “the
plain meaning” of Section 7411(d) “unambiguously”
limits the best system of emission reduction to only
those measures “that can be put into operation at a
building, structure, facility, or installation.” ACE
Rule, 84 Fed. Reg. at 32,523–32,524. Because the
Clean Power Plan’s best system was determined by
using some emission control measures that the EPA
characterized as physically operating off the site of
coal-fired power plants—such as some forms of
generation shifting and emissions trading—the EPA
concluded that it had no choice but to repeal the Plan.
Id. The EPA emphasized “that [its] action is based on
the only permissible reading of the statute and [it]
would reach that conclusion even without
consideration of the major question doctrine,” while
adding that application of that latter doctrine
“confirms the unambiguously expressed intent” of
Section 7411. Id. at 32,529.

38a
2. Best System of Emission Reduction
Considering its authority under Section 7411 to be
confined to physical changes to the power plants
themselves, the EPA’s ACE Rule determined a new
best system of emission reduction for coal-fired power
plants only. The EPA left unaddressed in this
rulemaking (or elsewhere) greenhouse gas emissions
from other types of fossil-fuel-fired power plants, such
as those fired by natural gas or oil. ACE Rule, 84 Fed.
Reg. at 32,533.
The EPA’s proposed system relied solely on heatrate improvement technologies and practices that
could be applied at and to existing coal-fired power
plants. ACE Rule, 84 Fed. Reg. at 32,525, 32,537. The
EPA selected only seven heat-rate improvement
techniques as components of its best system. Id. at
32,537. Six of those measures were new-to-the-plant
technologies or “equipment upgrades.” Id. at 32,536–
32,537 (naming as part of the best system (1) adding
or upgrading neural networks and intelligent
sootblowers; (2) upgrading boiler feed pumps; (3)
replacing or upgrading air heater and duct leakage
control devices; (4) adding variable frequency drives in
feed pumps and induced-draft fans; (5) blade path
upgrades; and (6) redesigning or replacing
economizers). The seventh measure was the use of
“best operating and maintenance practices”
implementing heat-rate improvement techniques. Id.
at 32,537, 32,540. The EPA limited itself to techniques
that could be “applied broadly” to the Nation’s coalfired plants, which primarily amounted to upgrades to
existing equipment. Id. at 32,536.

39a
The EPA explained that only five of the seven listed
techniques directly reduce the heat rate of power
plants. See ACE Rule, 84 Fed. Reg. at 32,538–32,540.
The other two techniques—replacing or upgrading the
boiler feed pump and installing variable frequency
drives—serve to reduce the amount of energy that a
power plant must use to run its own general
operations. Id. at 32,538–32,539.3 So those two
techniques do not make a power plant more efficient
in turning coal into power, but instead allow power
plants to dispatch more of the power they produce to
the grid rather than using it internally. Id.
The EPA identified two of its other chosen
techniques—blade path and economizer upgrades—as
the measures that, of all the considered technologies,
were “expected to offer some of the largest [heat-rate]
improvements.” ACE Rule, 84 Fed. Reg. at 32,537
(showing
table
predicting
highest
heat-rate
improvement range in economizer redesign or
replacements and blade path upgrades).4
The boiler feed pump is a device that is used to pump water
into the boiler. 84 Fed. Reg. at 32,538. It consumes a “large
fraction” of the power used to run the plant. Id. Because the boiler
feed pump requires so much energy, the EPA suggested that
“maintenance on these pumps should be rigorous to ensure both
reliability and high-efficiency operation.” Id. Variable frequency
drives “enable[] very precise and accurate speed control” of both
boiler feed pumps and “induced draft (ID) fans,” which “maintain
proper flue gas flow through downstream air pollutant control
equipment[.]” Id. at 32,539. This precise control would reduce the
excess use of fans and pumps, requiring less energy. See id.
3

“Blade path upgrades” consist of upgrades to the steam
turbine. Economizers are heat-exchange devices that “capture
waste heat from boiler flue gas” and use that captured heat to
help heat the boiler feedwater. Id. at 32,540.
4

40a
But the EPA then stated that it expected some
power plants would not adopt those two technologies
because their use could trigger additional regulation
that the companies would find burdensome. 84 Fed.
Reg. at 32,537 (“[B]ased on public comments * * *,
[blade path upgrades and economizer redesign or
replacement]
are
[heat-rate
improvement]
technologies that have the most potential to trigger
[New Source Review] requirements.”). In fact, the EPA
did not model those two techniques in its regulatory
impact analysis precisely because it was unlikely that
they would be adopted. J.A. 1656–1657.
Finally, the EPA acknowledged that the proposed
technologies could create a “rebound effect.” ACE
Rule, 84 Fed. Reg. at 32,542. A rebound effect means
that net carbon dioxide emissions actually increase as
a result of the efficiency improvements made by power
plants. Id. This happens because, as the efficiency
upgrades make coal-based energy cheaper to produce,
coal-fired power plants will have an incentive to run
more often, thereby increasing their overall emissions.
Id. The EPA found that risk of increased emissions
irrelevant because its best system of emission
reduction “is aimed at improving a source’s emissions
rate performance at the unit-level,” rather than
reducing the overall volume of emissions by individual
sources. Id. at 32,543.
In choosing its seven proposed power-plant-based
heat-rate improvement technologies, the EPA
excluded from its best system several other suggested
methods of reducing emissions, including (1) natural
gas co-firing, repowering, and refueling; (2) biomass
co-firing; and (3) carbon capture and storage
technologies. ACE Rule, 84 Fed. Reg. at 32,543–

41a
32,547. The EPA rejected biomass co-firing primarily
because “any potential net reductions in emissions
from biomass use occur outside of the regulated
source,” and so do not fall within the EPA’s reading of
Section 7411(d) as confined to emission limits imposed
at and to individual plants. Id. at 32,546. The EPA
excluded natural gas co-firing and carbon capture and
storage from its own best system, citing cost,
geographical, and operational concerns. Id. at 32,544–
32,545, 32,547–32,548. The EPA provided that sources
could choose to use natural gas co-firing or carbon
capture—but not biomass co-firing—to meet stateestablished standards of performance. Id. at 32,555.
3. Degree of Emission Limitation Achievable
Having determined its best system of emission
reduction, the EPA then purported to prescribe the
“degree of emission limitation achievable,” which
States could use to create their own standards of
performance. 42 U.S.C. § 7411(a)(1). What the EPA
produced as its emission guidelines was a chart that
prescribed heat-rate improvement “ranges” for each of
the EPA’s chosen heat-rate improvement technologies,
organized by power plants of differing sizes. ACE Rule,
84 Fed. Reg. at 32,537. The ranges show how much
heat-rate improvement can be “expected” from use of
each of the identified technologies. Id.
The EPA was explicit, though, that the “potential”
range of heat-rate reduction was only illustrative and
that the actual reduction for each of the EPA’s chosen
technologies would be “unit-specific” and would
“depend upon a range of unit-specific factors.” ACE
Rule, 84 Fed. Reg. at 32,537–32,538. In that way, the
ACE Rule made States responsible for evaluating

42a
“[heat-rate
improvement]
potential,
technical
feasibility, and applicability for each of the [best
system of emission reduction] candidate technologies”
on a power-plant-by-power-plant basis. Id. at 32,538.
The ACE Rule expressly left States free to establish
their own standards of performance for their power
plants that “reflect a value of [heat-rate improvement]
that falls outside” the ranges provided in the EPA’s
chart. Id. (emphasis added). In other words, the
minimums listed in the EPA’s emission-reduction
chart were only suggestions.
The EPA explained that its non-mandatory ranges
of efficiency reduction were valid because the
applicability of the heat-rate improvement techniques
to different plants and the effectiveness of each power
plant’s existing technology may vary. See ACE Rule,
84 Fed. Reg. at 32,538 (stating that “not all” of the
technologies would be “applicable or warranted at the
level of a particular facility due to source-specific
factors such as the site-specific operational and
maintenance history, the design and configuration,
[or] the expected operating plans”).
The EPA predicted that its ACE Rule would reduce
carbon dioxide emissions by less than 1% from
baseline emission projections by 2035. J.A. 1651. That
calculation did not reflect emission increases that
could result from the rebound effect.
4. Implementing Regulations
The ACE Rule included some new regulations under
Section 7411(d). ACE Rule, 84 Fed. Reg. at 32,575–
32,584 (codified at 40 C.F.R. pt. 60, subpart Ba). As
relevant here, the regulations significantly extend the
States’ deadlines for the development and submittal of

43a
their plans for emission reduction from nine months to
three years. See 40 C.F.R. § 60.23a(a)(1). Similarly,
the new regulations extend the EPA’s deadline to act
on those plans from four months to one year. 40 C.F.R.
§ 60.27a(b). The new regulations also extend the
EPA’s deadline to substitute its own plan for a noncompliant State’s plan from six months after the
submission deadline to two years after a finding that
the plan was incomplete, disapproved, or
unsubmitted. Seeb40 C.F.R. § 60.27a(c). Finally, the
requirement that States demonstrate compliance
progress is now triggered only where a State’s
compliance schedule stretches more than two years
from when its plan was originally due, as opposed to
the one-year period in the prior regulations. See 40
C.F.R. § 60.24a(d).
E. PETITIONS FOR REVIEW
Twelve petitions for review of the ACE Rule were
timely filed in this court and consolidated in this case.
Nos. 19-1140 (lead case), 19-1165, 19-1166, 19-1173,
19-1175, 19-1176, 19-1177, 19-1179, 19-1185, 19-1186,
19-1187, 19-1188. The petitioners fall into three
groups.
The first grouping consists of petitioners who seek
review of the ACE Rule’s conclusion that Section 7411
only permits emission reduction measures that can be
implemented at and applied to the source. Those
petitioners include (i) a coalition of State and
municipal governments; (ii) power utilities; (iii) trade
associations from the renewable energy industry; and

44a
(iv) several public health and environmental advocacy
groups.5
The second grouping is petitioners who challenge
the ACE Rule’s imposition of any emission limits as
unlawful because, in their view, (i) the EPA failed to
make a specific endangerment finding for carbon
dioxide emitted from existing power plants; (ii) the
EPA’s regulation of mercury emissions from coal-fired
power plants under Section 7412 precludes the
regulation of greenhouse gas emissions under Section
7411; and (iii) the EPA should have regulated carbon
dioxide from stationary sources, including power
plants, under the NAAQS program, 42 U.S.C.
§§ 7408–7410.
The third petitioner group is the Biogenic CO2
Coalition. They object only to the ACE Rule’s
determination that States may not count biomass cofiring as a method of complying with numerical
emission limits.
F. JURISDICTION AND STANDARD OF REVIEW
This court has jurisdiction to review these petitions
under the Clean Air Act. 42 U.S.C. § 7607(b)(1); see
also Sierra Club v. EPA, 955 F.3d 56, 61 (D.C. Cir.
2020).
We may set aside the ACE Rule if it is “arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law.” 42 U.S.C. § 7607(d)(1)(C),
(d)(9)(A); see also Maryland v. EPA, 958 F.3d 1185,
1196 (D.C. Cir. 2020) (“[W]e apply the same standard
The public health and environmental advocacy groups also
challenge the third prong of the ACE Rule—the new
implementing regulations—as arbitrary and capricious.
5

45a
of review under the Clean Air Act as we do under the
Administrative Procedure Act.”) (quoting Allied Local
& Reg’l Mfrs. Caucus v. EPA, 215 F.3d 61, 68 (D.C. Cir.
2000)).
II. SECTION 7411
A. STATUTORY CONTEXT
In enacting the Clean Air Act, “Congress delegated
to EPA the decision whether and how to regulate
carbon-dioxide
emissions
from
powerplants.”
American Elec. Power Co. v. Connecticut (AEP), 564
U.S. 410, 426 (2011). As the Supreme Court has
observed, 42 U.S.C. § 7411 “speaks directly to” and
outlines the framework for that regulation. Id. at 424
(internal quotation marks omitted). Specifically,
Section 7411 marks out a pair of distinct regulatory
tracks for stationary sources of air pollutants. See 42
U.S.C. § 7411(a)(2), (6). The first track applies to new
sources, id. § 7411(b), and the second to existing
sources, id. § 7411(d). The statute calls for federalstate cooperation in regulating existing sources,
affording distinct roles to the federal and state
agencies in arriving at what Section 7411 calls
“standards of performance” for the emission of air
pollutants. Id. § 7411(a)(1), (c), (d)(1).
The regulatory regimes for new and existing sources
differ in the process by which such standards are
established—and the roles played by the respective
regulatory actors. The Act assigns the EPA the main
regulatory role in specifying the new-source pollution
controls: After the EPA determines that a particular
“category of sources * * * causes, or contributes
significantly to, air pollution which may reasonably be
anticipated to endanger public health or welfare,” it

46a
publishes regulations establishing standards of
performance for new sources in that category. Id.
§ 7411(b)(1).
The process for regulating existing sources—which
raise distinct concerns about sunk costs and the health
and environmental effects of older processes—involves
more actors and steps. Regulation of a given category
of existing sources is triggered by the same EPA airpollution determination as for new sources. But for
existing sources the Act adopts a cooperativefederalism approach that leaves the States discretion
in determining how their State and industry can best
meet quantitative emissions guidelines established by
the EPA. See AEP, 564 U.S. at 424. Under Section
7411(d), the EPA and the States thus have distinct but
complementary roles subject to different procedures
and limitations. See 42 U.S.C. § 7411 (a)(1), (d)(1).
This case concerns the mechanics of that cooperative
framework for existing sources and, specifically,
restrictions the Agency now claims the statute
imposes on regulation of the air pollutants those
sources emit.
Two provisions of Section 7411 shape the existingsource framework. Subsection (a)(1) defines a
standard of performance, by reference to the “degree
of emission limitation” that the EPA determines is
“achievable,” as:
a standard for emissions of air pollutants which
reflects the degree of emission limitation
achievable through the application of the best
system of emission reduction which (taking into
account the cost of achieving such reduction and
any nonair quality health and environmental

47a
impact
and
energy
requirements)
the
Administrator determines has been adequately
demonstrated.
42 U.S.C. § 7411(a)(1).
Subsection (d)(1), in turn, requires the
Administrator to set up a system by which willing
States can submit to the EPA “a plan which []
establishes standards of performance for any existing
source.” Id. § 7411(d)(1). Only “where [a] State fails to
submit a satisfactory plan” may the EPA step in and
directly promulgate standards of performance for
existing sources. Id. § 7411(d)(2).
Putting these two provisions together results in
what are best understood as three distinct steps
involving three sets of actors, each exercising a degree
of leeway in choice of control measures. See ACE Rule,
84 Fed. Reg. at 32,533, 32,549–32,550; Clean Power
Plan, 80 Fed. Reg. at 64,665–64,666.
First, under subsection (a)(1), the EPA determines
the “best system of emission reduction” that is
“adequately demonstrated,” taking into consideration
certain enumerated statutory criteria: cost, any nonair
quality health and environmental impacts, and energy
requirements. 42 U.S.C. § 7411(a)(1). The Agency then
issues emission guidelines that quantify the “degree of
emission
limitation
achievable
through
the
application of the best system” it has identified. Id.; 40
C.F.R. § 60.22a; see AEP, 564 U.S. at 424; EPA Br. 21–
22; ACE Rule, 84 Fed. Reg. at 32,523, 32,551.
Second, under subsection (d)(1), States issue
standards of performance for existing sources that
comply with the EPA’s emission guidelines and
“reflect” the achievable degree of emission limitation

48a
set in those guidelines. AEP, 564 U.S. at 424; 42 U.S.C.
§ 7411(d)(1); 40 C.F.R. § 60.23a; see also Clean Power
Plan, 80 Fed. Reg. at 64,666. That the standards must
“reflect” the emission guidelines does not mean that
they must embody the methods EPA contemplated in
identifying the best system; rather, the States have
flexibility in determining the specifics of the standards
they issue so long as they accomplish the “degree of
emission limitation” the EPA calculated based on its
“best system.”
Third, the operators of regulated stationary sources
implement measures to ensure they will in practice
comply with the standards of performance their state
agency has established for them. See ACE Rule, 84
Fed. Reg. at 32,555. States often grant regulated
entities some discretion in how they meet those
standards. See, e.g., N.Y. COMP. CODES R. & REGS. TIT.
6 § 201-6.4(f) (2013) (describing the “operational
flexibility” afforded to Title V facility owners in New
York State to “propose a range of operating conditions
that will allow flexibility [for a facility] to operate
under more than one operating scenario”).
The issue before us arises at the first step—the
EPA’s determination of the best system of emission
reduction. In the Clean Power Plan, the Agency
determined that the best system was one that both
improved the heat rate at power plants and prioritized
generation from lower-emitting plants ahead of highemitting plants. Clean Power Plan, 80 Fed. Reg. at
64,707. The EPA then calculated specific emission
reductions achievable through application of that best
system that it published as emission guidelines for
States. Id. Had the Clean Power Plan gone into effect,
States would then have submitted to the EPA plans

49a
based on the Agency’s guidelines that established
standards of performance for sources in their
jurisdictions, as provided for in subsection (d)(1). The
Clean Power Plan left States flexibility in the
measures they included in their plans, so long as they
achieved a reduction in emissions at least as great as
that achieved by EPA-established quantitative
guidelines. See, e.g., id. at 64,665, 64,756–64,757,
64,734–64,737, 64,832–64,837. And it further allowed
States, at their option, to give leeway to sources to
select alternate compliance measures to make the
requisite reductions. See id. at 64,834–64,835.
Based on what it now perceives to be an express and
unambiguous textual limitation in Section 7411 that
it says the Clean Power Plan overlooked, the EPA
repealed that Plan and replaced it with the ACE Rule.
The EPA’s new reading of the statute requires the
Agency, in modeling its “best system of emission
reduction,” to consider only emission-reduction
measures that “can be applied at and to a stationary
source.” ACE Rule, 84 Fed. Reg. at 32,534; see also id.
at 32,526–32,532.
We address below the EPA’s arguments regarding
how the text and structure of Section 7411 purportedly
support this limitation. That discussion is necessarily
somewhat abstract and technical. So, for starters, it is
worth bringing the matter more concretely into view.
Consider the effect the EPA’s new statutory
interpretation had on its resulting Rule. First, because
generation shifting is not, in the EPA’s view, a
measure that can be applied “at and to” any one
individual source, the ACE Rule limits the best system
of emission reduction to heat-rate improvements

50a
alone. 84 Fed. Reg. at 32,534–32,535. Then, instead of
publishing emission guidelines quantifying emission
reductions achievable through application of the best
system, the ACE Rule identifies what the Agency has
determined are the most effective heat-rate
technologies available and a potential range of heatrate improvements achievable through application of
each of those technologies. Id. 32,535–32,537.
As under the Clean Power Plan, the ACE Rule
grants States flexibility in establishing standards of
performance for sources pursuant to the Agency’s
emission guidelines. Unlike the Clean Power Plan,
however, the ACE Rule does not require that the
States reach any specified minimum emission
reduction. Instead, States must merely “evaluate the
applicability of each of the candidate technologies” to
sources within their jurisdiction and report their
conclusions back to the Agency. ACE Rule, 84 Fed.
Reg. at 32,550, 32,538–32,561.
The Rule recites that regulated entities have “broad
discretion” in meeting state-established standards,
ACE Rule, 84 Fed. Reg. at 32,555, yet at the same time
the Rule deems impermissible any compliance
measure that cannot be applied at and to the source,
id. The ACE Rule thereby disqualifies compliance by,
for example, burning biofuel, id. at 32,557–32,558,
which emits recently captured carbon dioxide, in
contrast to fossil fuels’ release of carbon dioxide stored
away millions of years ago. See generally Center for
Biological Diversity v. EPA, 722 F.3d 401, 405–06
(D.C. Cir. 2013).
The question here is a relatively discrete one. We
are not called upon to decide whether the approach of

51a
the ACE Rule is a permissible reading of the statute
as a matter of agency discretion. Instead, the sole
ground on which the EPA defends its abandonment of
the Clean Power Plan in favor of the ACE Rule is that
the text of Section 7411 is clear and unambiguous in
constraining the EPA to use only improvements at and
to existing sources in its best system of emission
reduction.
The EPA contends that its current interpretation is
“the only permissible interpretation of the scope of the
EPA’s authority.” ACE Rule, 84 Fed. Reg. at 32,535.
Our task is to assess whether Section 7411 in fact
compels the EPA’s new interpretation. And because
“deference to an agency’s interpretation of a statute is
not appropriate when the agency wrongly believes
that interpretation is compelled by Congress,” Peter
Pan Bus Lines, Inc. v. Fed. Motor Carrier Safety
Admin., 471 F.3d 1350, 1354 (D.C. Cir. 2006) (quoting
PDK Labs., Inc. v. DEA, 362 F.3d 786, 798 (D.C. Cir.
2004) (internal quotation marks omitted)), we may not
defer to the EPA’s reading if it is but one of several
permissible interpretations of the statutory language,
see Negusie v. Holder, 555 U.S. 511, 521 (2009). That
is, the “regulation must be declared invalid, even
though the agency might be able to adopt the
regulation in the exercise of its discretion, if it ‘was not
based on the agency’s own judgment but rather on the
unjustified assumption that it was Congress’
judgment that such a regulation is desirable” or
required. Prill v. NLRB, 755 F.2d 941, 948 (D.C. Cir.
1985) (quoting FCC v. RCA Commc’ns, 346 U.S. 86, 96,
(1953) (formatting modified)); accord Arizona v.
Thompson, 281 F.3d 248, 259 (D.C. Cir. 2002) (quoting
Prill, 755 F.2d at 948).

52a
For the reasons explained below, Section 7411 does
not, as the EPA claims, constrain the Agency to
identifying a best system of emission reduction
consisting only of controls “that can be applied at and
to a stationary source.” ACE Rule, 84 Fed. Reg. at
32,534. The EPA here “failed to rely on its own
judgment and expertise, and instead based its decision
on an erroneous view of the law.” Prill, 755 F.2d at
956. We accordingly must vacate and remand to the
Agency “to interpret the statutory language anew.”
Peter Pan Bus Lines, 471 F.3d at 1354.
1. Text
As just noted, Section 7411 contemplates distinct
roles for the EPA and the States in regulating existing
stationary sources. See 42 U.S.C. § 7411(a)(1)
(granting authority to the EPA to designate the best
system and determine achievable degree of emissions
reduction); id. § 7411(d)(1) (outlining the States’ role
in setting standards of performance for their sources).
Nevertheless, the EPA now contends that language in
Section 7411(a)(1) and (d)(1) “unambiguously limits
the [best system of emission reduction] to those
systems that can be put into operation at a building,
structure, facility, or installation.” ACE Rule, 84 Fed.
Reg. at 32,524 (emphasis in original); see id. at 32,528;
EPA Br. 70.
In the Agency’s current view, the only pollutioncontrol methods the Administrator can consider in
selecting the “best system of emission reduction”
within the meaning of Section 7411(a) are add-ons or
retrofits confined to the level of the individual fossilfuel-fired power plant. ACE Rule, 84 Fed. Reg. at
32,524. That is so even though the record before the

53a
EPA shows that generation shifting to prioritize use of
the cleanest sources of power is one of the most costeffective means of reducing emissions that plants have
already adopted and that have been demonstrated to
work, and that generation shifting is capable of
achieving far more emission reduction than controls
physically confined to the source. See, e.g., Clean
Power Plan, 80 Fed. Reg. at 64,693, 64,728–64,729; 2
J.A. 598; Grid Experts Amicus Br. 13–16. In other
words, the EPA reads the statute to require the
Agency to turn its back on major elements of the
systems that the power sector is actually and
successfully using to efficiently and cost-effectively
achieve the greatest emission reductions. See Grid
Experts Amicus Br. 22 (observing that the ACE Rule
“imposes greater abatement costs on industry than
other approaches would to achieve the same effect”).
The Clean Power Plan could not stand, the EPA now
concludes, because its consideration of generation
shifting exceeded the Agency’s narrow authority under
Section 7411’s plain text. ACE Rule, 84 Fed. Reg. at
32,526–32,527. In promulgating the Clean Power
Plan, the EPA read “system of emission reduction” to
mean “a set of measures that work together to reduce
emissions and that are implementable by the sources
themselves.” Clean Power Plan, 80 Fed. Reg. at
64,762. And it concluded that both heat-rate
improvements
and
generation
shifting
“are
components of a best system of emission reduction for
the affected [electricity generating units] because they
entail actions that the affected [units] may themselves
undertake that have the effect of reducing their
emissions.” Id. at 64,709 (internal quotation marks
omitted).

54a
All of that is wrong, the EPA has since decided.
“[T]he Agency now recognizes that Congress ‘spoke to
the precise question’ of the scope of [42 U.S.C.
§ 7411](a)(1) and clearly precluded the unsupportable
reading of that provision asserted in the [Clean Power
Plan].” ACE Rule, 84 Fed. Reg. at 32,527. The EPA
insists that its current reading is mandated by the
statutory text.
It is the EPA’s current position that is wrong.
Nothing in Section 7411(a)(1) itself dictates the “at
and to the source” constraint on permissible
ingredients of a “best system” that the Agency now
endorses. For the EPA to prevail, its reading must be
required by the statutory text. Peter Pan Bus Lines,
471 F.3d at 1354. It fails for at least three reasons, any
of which is alone fatal.
First, the plain language of Section 7411(a)(1), the
root of the EPA’s authority to determine the best
system, announces its own limitations. Those
limitations simply do not include the source-specific
caveat that the EPA now interposes and casts as
unambiguous.
Second, there is no basis—grammatical, contextual,
or otherwise—for the EPA’s assertion that the sourcespecific language of subsection (d)(1) must be read
upstream into subsection (a)(1) to equate the EPA’s
“application of the best system” with the controls
States eventually will apply “at and to” an individual
source. As the EPA at times acknowledges, the two
subsections address distinct steps in the regulatory
process, one focused on the EPA’s role and the other
focused on the States’. Any question as to which
limitations pertain to each regulatory actor cannot

55a
reasonably be said to have been resolved by Congress
in favor of the unambiguous meaning the EPA now
advocates.
Third, even if subsections (a)(1) and (d)(1) were read
together in the way the EPA proposes, they would not
confine the EPA to designating a best system
consisting of at-the-source controls. The EPA’s entire
theory hinges on the Agency’s unexplained
replacement of the preposition “for” in “standards of
performance for any existing source” with the
prepositions “at” and “to.” Yet the statutory text calls
for standards of performance “for” existing sources.
Emission-reduction measures “for” sources may
readily be understood to go beyond those that apply
physically “at” and “to” the individual source.
Emissions trading, for example, might be a way “for”
a source to meet a standard of performance.
The shortcomings of its statutory interpretation are
more than enough to doom the Agency’s claim that
Section 7411 announces an unambiguous limit on the
best system of emission reduction. The issue is not
whether the EPA’s counterarguments to each of these
points might show its interpretation to be permissible
as an exercise of discretion. Again, the EPA has not
claimed to be exercising any such discretion here. It
insists instead that the unambiguous terms of the
statute tie its hands.
After reviewing what Section 7411 clearly says
about the nature and limits of the “best system of
emission reduction” that Congress called on the EPA
to determine, we take up each of the EPA’s arguments
to show why Section 7411 does not unambiguously
support its at-the-source restriction.

56a
a. Section 7411(a) Defines the Best System
The EPA acknowledges, as it must, that Section
7411(a) is the source of the EPA’s authority and
responsibility to determine the best system of
emission reduction for existing sources and set
corresponding emission guidelines. See, e.g., ACE
Rule, 84 Fed Reg. at 32,534. Indeed, that is the only
subsection in which the term “best system of emission
reduction” appears. But the EPA offers no reading of
subsection (a)(1) itself.
Section 7411(a)(1) expresses Congress’ expectation
that the EPA will study all “adequately demonstrated”
means of emission reduction. And it directs the EPA to
draw on “adequately demonstrated” methods to
determine the “best” system to reduce emissions.
Congress imposed no limits on the types of measures
the EPA may consider beyond three additional
criteria: cost, any nonair quality health and
environmental impacts, and energy requirements. 42
U.S.C. § 7411(a)(1). Congress largely called on the
expert judgment of the EPA to determine for a
particular source category and pollutant which
already-demonstrated methods compose the “best
system.”
Because it did not set out separate definitions for
either “system” or “best,” those words take their
ordinary meanings. See Sandifer v. United States Steel
Corp., 571 U.S. 220, 227 (2014). Webster’s Dictionary
offers a representative definition of “system”
contemporaneous with the Act’s adoption: “[A]
complex unity formed of many often diverse parts
subject to a common plan or serving a common
THIRD
NEW
purpose.”
System,
WEBSTER’S

57a
INTERNATIONAL DICTIONARY OF THE ENGLISH
LANGUAGE UNABRIDGED 2322 (2d ed. 1968). The
superlative “best” as applied to a “system of emission
reduction” plainly places a high priority on efficiently
and effectively reducing emissions. See Best, MerriamWebster,
https://www.merriamwebster.com/dictionary/best (last visited Jan. 11,
2021) (“excelling all others,” “offering or producing the
greatest advantage, utility, or satisfaction”).
The ordinary meanings of these terms “reflect[] an
intentional effort to confer the flexibility necessary”
for effective regulation appropriate to the context.
Massachusetts v. EPA, 549 U.S. 497, 532 (2007). As the
Supreme Court has acknowledged, “the degree of
agency discretion that is acceptable varies according
to the scope of the power congressionally conferred.”
Whitman v. American Trucking Ass’n, 531 U.S. 457,
475 (2001); see Gaughf Props., L.P. v. Commissioner,
738 F.3d 415, 424–425 (D.C. Cir. 2013); Sabre, Inc. v.
Department of Transp., 429 F.3d 1113, 1122, 1124–
1125 (D.C. Cir. 2005). Congress in Section 7411
deliberately charged the EPA with identifying the best
system of emission reduction to keep pace with
escalating threats to air quality, and, within expressed
limits, empowered it to make the judgments how best
to do so.
The Agency simply ignores how the statutory text
defines the “best system of emission reduction,”
asserting instead that definitional language does not
confer regulatory authority. See, e.g., EPA Br. 58–59
(“[I]t is not Section 7411(a) (‘Definitions’) that grants
the agency authority to act.”). Section 7411(a)(1)’s
designation as a definitional provision deprives it of
standalone meaning, the EPA contends. The EPA

58a
instead reads it as “subsidiary” to Section 7411(d),
regarding state standards of performance for existing
sources. EPA Br. 58. But Congress does indeed use
definitional provisions to confer regulatory authority.
See, e.g., Weinberger v. Bentex Pharm., Inc., 412 U.S.
645, 652–653 (1973) (holding that the statutory
definition of “new drug” confers authority upon the
FDA). That is precisely what it did in Section
7411(a)(1). See Sierra Club v. Costle, 657 F.2d 298, 321
(D.C. Cir. 1981) (describing Section 7411(a)(1) as
authorizing the EPA to determine the best system of
emission reduction and regulate accordingly); 40
C.F.R. 60.22a.
The EPA offers no support—apart from its own
newfound version of “statutory interpretation 101,”
EPA Br. 65—for ignoring how the Act itself defines
and limits the “best system” determination. Nor does
it offer any sound justification for importing language
from a different provision governing States’
“standards of performance.” The EPA’s “at and to the
source” limitation on “best system” finds no footing in
the text of Section 7411(a)(1).
b. Section 7411(d)(1) Does Not Change
the Definition
Even taking the EPA’s argument on its own terms
does not work because Section 7411(d)(1)’s text and
statutory context get it no further. To support its
narrow reading of the EPA’s authority to determine
the “best system,” the Agency focuses on the phrase
“through the application of” in Section 7411(a)(1).
That provision defines a “standard of performance” as
an emission standard that “reflects the degree of
emission
limitation
achievable
through
the

59a
application of the best system of emission reduction[.]”
The EPA says the “application” phrase “requires both
a direct object and an indirect object.” ACE Rule, 84
Fed. Reg. at 32,524; accord EPA Br. 66–68. And, it
continues, Congress cannot have meant to leave its
indirect object undefined. The EPA says that,
grammatically speaking, someone must apply
something (the direct object) to something else (the
indirect object). EPA Br. 115–116, 118–119. It then
picks its preferred, narrow indirect object from a
different statutory subsection and casts that object as
the only statutorily permissible choice. See 84 Fed
Reg. at 32,524.
The EPA locates an indirect object in Section
7411(d). Unlike subsection (a)(1), subsection (d)—
entitled “Standards of performance for existing
sources”—explicates an indirect object. 42 U.S.C.
§ 7411(d). Borrowing from subsection (d), then, the
EPA imports into subsection (a)(1) a limitation of the
“best system of emission reduction” to measures that
can be applied “to and at an individual existing
source—i.e., any building or facility subject to
regulation.” EPA Br. 58 (emphasis added); see also
ACE Rule, 84 Fed. Reg. at 32,534.
But the language to which the EPA points supplies
the indirect object only of “standards of performance”
adopted by States pursuant to Section 7411(d)(1), not
of the EPA’s “best system of emission reduction”
determined pursuant to Section 7411(a)(1). The latter
phrase does not even appear in Section 7411(d)(1). To
reach its preferred result, the Agency invokes surmise
rather than statutory text. It insists that the
limitations on States’ standards of performance in
Section 7411(d)(1)—the second step in the regulatory

60a
process—must be read upstream to limit the EPA’s
“best system of emission reduction” in subsection
(a)(1). Nothing in the statute so requires.
In the text, States’ standards of performance need
only “reflect” the emission guidelines (or “degree of
emission limitation achievable”) the EPA calculates
based on the “best system of emission reduction” it
determines. As laid out in the statute and explained
above,
those
state-developed
“standards
of
performance” follow on but are legally and
functionally distinct from the “best system” that the
EPA develops. The EPA is simply wrong that the
statute clearly and unambiguously requires that the
unstated indirect object of “application of the best
system of emission reduction” under Section
7411(a)(1) must be the same as the indirect object of
States’ standards of performance as stated in Section
7411(d)(1).
Neither does the grammatical rule the EPA invokes
to bridge the gap between these subsections hold up.
The crux of the EPA’s textual argument is that “the
verb ‘to apply,’ requires both a direct object and an
indirect object.” ACE Rule, 84 Fed. Reg. at 32,524;
EPA Br. 66–68. The first obvious problem is that, in
the relevant passage of Section 7411(a)(1), Congress
did not use the verb “apply,” but rather the noun
“application.” The EPA acknowledges this distinction
in passing in the ACE Rule, but dismisses it without
discussion, offering only that “‘application’ is derived
from the verb ‘to apply[.]’” 84 Fed. Reg. at 32,524. That
is, of course, true, as far as it goes. The phrase
“application of the best system of emission reduction”
is what is called a nominalization, a “result of forming
a noun or noun phrase from a clause or a verb.”

61a
Nominalization,
Merriam-Webster
Dictionary
https://www.merriamwebster.com/dictionary/nominalization (last visited
Jan. 11, 2021). Grammar assigns direct or indirect
objects only to verbs—not nouns. No objects are
needed to grammatically complete the actual
statutory phrase. So much for the grammatical
imperative.
Even if we were to take the EPA’s leap to the verb
“apply” from the noun “application” that actually
appears in the statute, the Agency comes up short. The
EPA is incorrect to insist that the verb “apply”
requires an indirect object. There is nothing
ungrammatical about the sentence “In its effort to
reduce emissions, the EPA applied the best system of
emission reduction.” The verb “apply,” like its
nominalization, may properly be used in a sentence
with or without an explicit indirect object. See Apply,
THOMAS HERBST ET AL., A VALENCY DICTIONARY OF
ENGLISH 41–42 (Ian F. Roe et al. eds., 2004) (listing
examples of grammatically correct uses with and
without direct and indirect objects).6
The EPA’s shift from nominalization to verb does
not, in any event, accomplish much. Either way, the
6
Take, for instance, the following sentences: “It appears to
violate GATT regulations, but the rules for applying the
regulations are vague and the Netherlands has so far escaped
censure”; “This information may not apply in Scotland, which has
a different legal system.” Apply, THOMAS HERBST ET AL., A
VALENCY DICTIONARY OF ENGLISH 41–42 (examples from sections
D1 and D5). Additional examples abound. See, e.g., Apply,
OXFORD ENGLISH DICTIONARY (3d ed. 2008) (def. I.9) (“Crest
bought the firm[,] and, by applying its marketing and distribution
muscle, has turned it into a $200 million category killer.”).

62a
lack of an explicit indirect object in Section 7411(a)(1)
does not require that one be borrowed from Section
7411(d)(1). Equally logical indirect objects include, for
example, the entire category of stationary sources, or
the air pollutant to be limited. In any event, the best
system cannot reasonably be said to be unambiguously
applicable only to the indirect object the EPA suggests.
The EPA faults the Clean Power Plan for reading
“application of” to be functionally equivalent to
“implementation of,” because “implement” “does not
require an indirect object.” EPA Br. 73. But neither
does “application.” So “application” textually supports
adoption of the Clean Power Plan just as well as
“implementation.” Again, so much for grammar
mandating the EPA’s result.
The argument fails either way, but the fact is that
Congress used the nominalization “application of” the
best system of emission reduction. A nominalization
enables the drafter to leave certain information
unspecified—namely, who is acting and where their
action is directed. See, e.g., George D. Gopen, Who
Done It? Controlling Agency in Legal Writing, Part II,
39 LITIG. 12, 12–13 (Spring 2013) (describing how
nominalizations create ambiguity). Legal writers,
including Congress, employ nominalizations all the
time. And they do so with the full awareness that their
use preserves flexibility.
Congress reasonably built in leeway for the EPA to
exercise technical expertise in applying Section 7411,
given the variety of pollution problems that it covers
and the importance of allowing States maneuvering
room under the cooperative federalism scheme.
Congress may avoid specifying subjects, objects, or

63a
other grammatical information because a degree of
adaptability suits the statutory role and purpose. One
way Congress can denote that it has delegated to an
agency’s judgment the task of filling in the on-theground details of a statutorily defined program is by
declining
to
dictate
grammatically
optional
information, see Lehrfeld v. Richardson, 132 F.3d
1463, 1465–1466 (D.C. Cir. 1998); Appalachian Power
Co. v. EPA, 135 F.3d 791, 808–810 (D.C. Cir. 1998),
including an indirect object that the rules of grammar
do not require be explicitly stated, see, e.g., Peter Pan
Bus Lines, 471 F.3d at 1353–1354.
Even if an implicit indirect object can be surmised,
there is more than one plausible candidate here, and
the statute does not unambiguously dictate the object.
There certainly is no rule—grammatical or
otherwise—that the specific indirect object must be
the one to which the EPA now points. At the least,
other contextually appropriate indirect objects of the
“best system” include the source category or the
emissions. The EPA has failed to establish that the
sole and unambiguous indirect object must be the
individual source. The EPA, of course, “may fill the
gap[s] the Congress left,” and any such “regulation is
entitled to deference.” Gaughf Props., 738 F.3d at 424;
see also Appalachian Power, 135 F.3d at 811–812. But
in the ACE Rule and in its briefing here, the EPA has
assiduously denied the existence of any gap at all.
That was error.
c. EPA’s Reading Itself Falls Short
The third and equally fatal flaw in the EPA’s textual
analysis is its unexplained substitution of the
prepositions “at” and “to” where the text it would have

64a
us borrow from subsection (d)(1) actually says “for” in
referencing “standards of performance for any existing
source.” See, e.g., ACE Rule, 84 Fed. Reg. at 32,534. As
we do with any words enacted by Congress, we must
give effect to the preposition it chose. Cf.
Telecommunications Res. & Action Ctr. v. FCC, 801
F.2d 501, 517–518 (D.C. Cir. 1986) (finding decisive
Congress’ use of the preposition “under” instead of
“by”). The word Congress actually used—“for” the
source—lacks the site-specific connotation on which
the EPA’s case depends.
In its brief, the EPA presents the compound
construction it says inexorably follows from reading
text from subsection (a)(1) together with text from
subsection (d)(1), and says it is restricted to
determining a “best system of emission reduction for
any building, structure, facility, or installation.” EPA
Br. 56 (formatting modified) (quoting 42 U.S.C.
§ 7411(a)(1), (a)(3), (a)(6), (d)(1)). The Agency then
asserts that “the natural reading” of its proffered
construction is that “the methods planned would be
‘for’ and act at the level of the singular, individual
source.” Id. at 62 (emphasis added).
In the preamble to the ACE Rule, the EPA went
further, fully substituting the prepositions “at” and
“to” in place of the preposition “for” that actually
appears in the text the Agency says must be borrowed
from subsection (d)(1). ACE Rule, 84 Fed. Reg. at
32,534. It relies on that further substitution to insist
that the best system of emission reduction designated
by the EPA must be limited to controls “that can be
applied at and to,” not “for,” “a stationary source.” Id.;
see also id. at 32,524 (“at”); id. at 32,532, 32,534,
32,556 (“at and to”); id. at 32,555, 32,529 (“to and at”);

65a
id. at 32,543 (“at or to”); id. at 32,526 n.65 (“to or at”);
EPA Br. 4, 58, 74. But nowhere in the ACE Rule does
the EPA explain this swap of one preposition for two
meaningfully more restrictive ones. See, e.g., 84 Fed.
Reg. at 32,523–32,524, 32,534–32,535.
The EPA rewrites rather than reads the plain
statutory text. Section 7411(a)(1), even if crossreferenced to subsection (d)(1) in the way the EPA says
it must be, calls for the Agency to determine “the
degree of emission limitation achievable through the
application of the best system of emission reduction for
any existing source”—not the application of the best
system “at” and “to” such a source. And the word “for”
lacks the physical on-site connotation that is so critical
to the EPA’s reading of the statutory text. Indeed, a
standard of performance or system of emission
reduction “for” a source just means that the system is
“with regard or respect to” or “concerning” the source.
See For, OXFORD ENGLISH DICTIONARY (2d ed. 1989)
(def. 26). In contrast, “at” and “to” tend to connote
direct physical proximity or contact. See At, OXFORD
ENGLISH DICTIONARY (3d ed. 2008) (def. 1.a) (“usually
determining a point or object with which a thing or
attribute is practically in contact”); To, OXFORD
ENGLISH DICTIONARY (3d. ed 2008) (def. 5.a) (“Into (or
in) contact with; on, against”). A best system “for” a
source thus might entail a broader array of controls
that concern but are not immediately physically
proximate to the source—such as, for instance,
generation shifting.
***
In sum, the straitened vision of the EPA’s best
system that the Agency espies in Section 7411 is

66a
simply not supported by the text, let alone plainly and
unambiguously required by it. The Act calls on the
EPA to determine the degree of emission limitation
achievable through “application of the best system of
emission reduction” without specifying the system’s
indirect object, and uses the preposition “for” when it
calls on the States to develop “standards of
performance for existing sources.” 42 U.S.C. § 7411(a),
(d). It simply does not unambiguously bar a system of
emission reduction that includes generation shifting.
The EPA’s position depends critically on words that
are not there. It erroneously treats a nominalization of
a verb as requiring an indirect object, collapses two
separate functions and provisions of the Act in order
to supply a borrowed indirect object, does so without
any evidence that the borrowed indirect object was
what Congress necessarily intended, and narrowly
focuses the Agency’s authority on that indirect object
by using a different preposition from the one that
actually appears in the borrowed text. Each of those
interpretive moves was a misstep. Read faithfully,
Section 7411(a)(1) lacks the straitjacket that the EPA
imposes.
Policy
priorities
may
change
from
one
administration to the next, but statutory text changes
only when it is amended. The EPA’s tortured series of
misreadings of Section 7411 cannot unambiguously
foreclose the authority Congress conferred. The EPA
has ample discretion in carrying out its mandate. But
it may not shirk its responsibility by imagining new
limitations that the plain language of the statute does
not clearly require.

67a
2. Statutory History, Structure, and Purpose
Even looking beyond the text does nothing to
substantiate the EPA’s proposed reading of Section
7411. See Kiewit Power Constructors Co. v. Secretary
of Labor, 959 F.3d 381, 395 (D.C. Cir. 2020)
(Henderson, J.) (“To discern the Congress’s intent, we
generally examine the statutory text, structure,
purpose and its legislative history.”) (quoting Lindeen
v. SEC, 825 F.3d 646, 653 (D.C. Cir. 2016)). These
other tools of statutory interpretation underscore the
flexibility of Section 7411(a)’s text, not the cabined
reading the EPA proposes.
We begin by acknowledging Section 7411’s role
within the Clean Air Act. It is a catch-all, intended to
ensure that the Act achieves comprehensive pollution
control by guaranteeing that there are “no gaps in
control activities pertaining to stationary source
emissions that pose any significant danger to public
health or welfare.” S. REP. NO. 91-1196, at 20 (1970).
In other words, Section 7411 is intended to reach
pollutants that do not fit squarely within the ambit of
the Act’s other regulatory provisions. It authorizes
regulation of pollutants not controlled by the other
programs under the Act. The EPA does not contest
that greenhouse gases emitted by powerplants fit that
description.
The Agency points to statutory structure and
history for evidence that Congress restricted the “best
system of emission reduction” under Section 7411(a) to
physical controls that are applied “at and to” an
existing source. But the history and structure only
confirm what the text shows: Nothing the EPA has
identified suggests that Congress in Section 7411

68a
meant to so constrict what might be part of a “best
system of emission reduction.”
The Congress that enacted Section 7411 was well
aware that what a “best system” might comprise is
necessarily dynamic and evolving. Congress’ main
limitation was that the “best system” selected by the
EPA must be “adequately demonstrated.” 42 U.S.C.
§ 7411(a)(1). And it stated three other key criteria—
cost, nonair quality health and environmental impact,
and energy requirements—as factors the EPA must
take into account. See id. With those parameters in
place, Congress largely left the identification of the
best system of emission reduction to the Agency’s
expert scientific judgment.
Consider cues from the Clean Air Act as a whole. In
contrast to other systemic benchmarks in the Act,
Section 7411(a)(1)’s prescription of the “best system of
emission reduction” is striking for its paucity of
restrictive language. References to more specific
categories of emission-reduction tools appear
elsewhere in the Act. A provision governing the
Nitrogen Oxides Emissions Reduction Program, for
example, directs the Administrator to establish limits
based on the “degree of reduction achievable through
the retrofit application of the best system of
continuous emission reduction, taking into account
available technology[.]” 42 U.S.C. § 7651f(b)(2)
(emphasis added). The Act’s regional haze program is
likewise specific in its call for use of the “best available
retrofit technology.” Id. § 7491(b)(2)(A), (g)(2). The
specificity of those other provisions highlights the
comparative generality of Section 7411(a)’s reference
to the “best system of emission reduction.”

69a
The sole provision the EPA highlights to shore up
its at-the-source theory only further undermines it.
The EPA points to the Act’s Prevention of Significant
Deterioration (PSD) program, 42 U.S.C. § 7475, and
its requirement of controls at least as stringent as
limits set under Section 7411, see id. § 7479(3), to
argue that that “the interrelationship between the two
types of standards”—the best system of emission
reduction and the best available control technology—
“is only intelligible if the standards are in pari
materia.” EPA Br. 85. But the distinct roles of the two
provisions make clear that the limits in Section 7475
have no place in Section 7411(a)(1).
To qualify for a permit under the PSD program
before a source may be built or modified, an applicant
must affirm that it will apply to each source the “best
available control technology,” or BACT, to limit its
emissions. 42 U.S.C. § 7475(a)(4). The statute defines
BACT as the degree of control that the permitting
agency “determines is achievable for such [major
emitting] facility through application of production
processes and available methods, systems, and
techniques, including fuel cleaning, clean fuels, or
treatment or innovative fuel combustion techniques[.]”
Id. § 7479(3). The statute further provides that BACT
cannot “result in emissions of any pollutants which
will exceed the emissions allowed by any applicable
standard established pursuant to [S]ection 7411 or
7412 of this title.” Id. § 7479(3). The listed BACT
options, EPA observes, are all physically applicable to
the source unit. EPA Br. 85.
But the EPA ignores a critical detail: The BACT
requirement applies only to newly constructed or
modified sources. See Alaska Dep’t of Env’t

70a
Conservation v. EPA, 540 U.S. 461, 472 (2004)
(describing 42 U.S.C. § 7475). Any standard
established under Section 7411 and also “applicable,”
per the statutory cross-reference, to a facility
regulated for prevention of significant deterioration
under Section 7475 would be a standard for new or
modified sources established pursuant to Section
7411(b). The BACT requirement does not apply to the
existing sources covered by the provision at issue here,
Section 7411(d). See New York v. EPA, 413 F.3d 3, 13
(D.C. Cir. 2005). Even if Section 7475 tracks Section
7411(b), there is simply no conflict between, on one
hand, requiring new source construction to employ the
newest and best at-the-source control technologies
and, on the other, empowering the EPA to look to a
wider range of ways to reduce emissions when it
regulates older, existing sources.
The anomaly of looking to Section 7475(a)(4) to
confine Section 7411 is highlighted by the fact that
BACT permits are required only in so-called
“attainment” areas of the country. See 42 U.S.C.
§§ 7407, 7472, 7474. We are unpersuaded that
Congress buried a limit on the EPA’s Section 7411
authority to address pollution from existing sources
throughout the Nation by making reference to a floor
for certain new facilities in certain parts of the
country.
The statutory history of the BACT requirement
further demonstrates that Congress did not intend
that it weaken Section 7411(d). Sections 7475 and
7479 were enacted in the 1977 Clean Air
Amendments, Pub. L. No. 95-95, §§ 165, 169, 91 Stat.
685, 735–742 (Aug. 7, 1977). In the very same
legislation, Congress restricted the best system of

71a
emission reduction for new sources to technological
methods while explicitly allowing the best system for
existing sources to include non-technological methods.
§ 109(c)(1)(A), 91 Stat. at 700. If Congress wanted to
confine Section 7411 to at-the-source technologies, it
would have done so directly rather than hiding such a
substantial limitation in an implicit inference from a
more remote statutory provision.
The Clean Air Act’s legislative history, including the
history of the 1970 enactment of Section 7411 and the
1977 and 1990 amendments, further shows that
Congress never imposed on the “best system of
emissions reduction” the constraints the EPA now
advocates. Before Congress settled on the best-system
language it enacted in 1970, the Senate bill proposed
to authorize the EPA to set standards for stationary
sources “reflect[ing] the greatest degree of emission
control” achievable through “the latest available
control technology, processes, operating methods, or
other alternatives.” S. 4358, 91st Cong. § 6 (1970). The
phrase “other alternatives” was understood to
encompass “[t]he maximum use of available means of
preventing and controlling air pollution”—without
limitation to technological or at-the-source means. S.
REP. NO. 91-1196, at 16. The Senate believed that was
“essential” to limit emissions from both new and
existing sources. Id. The House, for its part, proposed
an initial version of Section 7411 that would have
“require[d] new sources to ‘prevent and control [their]
emissions to the fullest extent compatible with the
available technology and economic feasibility,’” H.R.
17255, 91st Cong. § 5 (1970), but included no provision
regarding the regulation of existing sources.

72a
As enacted, Section 7411 simply requires that the
EPA identify as its benchmark for existing sources the
“best system of emission reduction.” 42 U.S.C.
§ 7411(a)(1). Nothing that the EPA identifies or that
we discern in the relevant history shows the enacting
Congress myopically “focused on steps that can be
taken at and by individual sources to reduce
emissions.” EPA Br. 69. And of course, even if
Congress at that time was only thinking of at-thesource controls, the EPA was well aware that
environmental problems and their solutions rapidly
evolve. At the end of the day, it is the statutory text
that governs. See Bostock v. Clayton County, 140 S. Ct.
1731, 1738 (2020).
Congress has consistently relied on the EPA’s
expert judgment in identifying the “best system” for
existing sources. Its action in making, and then
undoing, a limiting amendment to Section 7411’s “best
system of emission reduction” just for new and
modified sources—not existing sources—underscores
the point. First, Congress in 1977 amended the
standard for new sources to require use of “the best
technological system of continuous emission
reduction,” but did not make any parallel change to
the standard for existing sources to add those
“technological” and “continuous” limitations. Clean
Air Amendments Act of 1977, Pub. L. No. 95-95,
§ 109(c)(1)(A), 91 Stat. 685; see also id. at 700 (adding
Section 7411(a)(1)(C)). Then, in 1990, Congress again
amended Section 7411, this time to remove those
additional limitations, reverting for new sources to the
“best system of emission reduction” that had applied
all along to existing sources. Clean Air Act

73a
Amendments of 1990, Pub. L. No. 101-549, § 403(a),
104 Stat. 2399, 2631 (1990).
The amendment and re-amendment of the newsource “best system” language emphasizes that
Congress consistently avoided imposing any such
technological, at-the-source limitation on the
measures that EPA might include in the “best system”
for reducing emissions from existing-source
categories. And it shows that Congress had always
understood the existing-source “best system” language
to go beyond the technological restrictions that it
briefly imposed on the parallel new source provision.
The ACE Rule is the first EPA rule to read the
statute as so strictly boxing in the Agency. Although
agency practice cannot directly show whether
Congress had a specific intent on the matter in
question, it is notable that the regulators closest to the
issue never before saw what the EPA now insists is
obvious on the face of Section 7411.
Over the last half century, no prior Administrator
read the Act to foreclose from consideration in the
“best system” all but at-the-source means of emission
control. Rather, the EPA has exercised latitude to
consider any adequately demonstrated approach to
reducing harmful pollutants from existing source
categories that it believed met the cost, grid-reliability
and other statutory criteria. 42 U.S.C. § 7411(a)(1).
Where the characteristics of the source category and
the pollutant at issue point to emissions trading
programs or production shifts from higher- to loweremitting sources as components of the “best system,”
the EPA has in the past consistently concluded that it
had the authority to consider them.

74a
During the administration of President George W.
Bush, for example, the EPA adopted the Clean Air
Mercury Rule, 70 Fed. Reg. 28,606 (May 18, 2005),
which included a mercury cap-and-trade program as a
component of its best system of emissions reduction for
existing coal-fired power plants, see id. at 28,619–
28,620; id. at 28,617 (“EPA has determined that a capand-trade program based on control technology
available in the relevant timeframe is the best system
for reducing [mercury] emissions from existing coalfired Utility Units.”).7
The EPA’s Clinton-era regulation of nitrogen oxide
emissions from municipal solid waste combustors
likewise relied on Section 7411(d), together with the
EPA’s waste-management authority under Section
7429, to authorize States to include emissions-trading
programs in their State Plans. 40 C.F.R.
§ 60.33b(d)(2). Under state standards of performance
designed to meet guidelines the EPA derived from its
“best system,” regulated entities were permitted to
average the emission rates of multiple units within a
single plant as well as trade emission credits with
other plants. Municipal Waste Combustors Rule, 60
Fed. Reg. 65,387, 65,402 (Dec. 19, 1995).

7
We vacated the Mercury Rule for unlawfully delisting
mercury-emitting electric utility steam generating units from the
Section 7412 Hazardous Air Pollutants list. See New Jersey v.
EPA, 517 F.3d 574, 582–584 (D.C. Cir. 2008). Because we held
those mercury sources must be listed, and because Section 7411
cannot be used to regulate air pollutants listed under Section
7412, the existing-source rule the EPA had adopted under Section
7411(d) to control those same mercury emissions from power
plants failed as well.

75a
The EPA’s efforts to distinguish those other Section
7411(d)(1) programs do not work. The EPA claims that
the Mercury Rule did not primarily rely on a cap-andtrade or dispatch shifting program, but rather that the
best system rested on a “combination of a cap-andtrade mechanism and * * * the technology needed to
achieve the chosen cap level.” EPA Br. 72 n.20 (quoting
ACE Rule, 84 Fed. Reg. at 32,526). To be clear, that
sort of hybrid best system, involving both on-site and
system-wide elements, is precisely what the EPA now
insists is unprecedented and expressly barred by the
statute’s text.
Lest there be any doubt that the Mercury Rule’s
best system rested in significant part on the cap-andtrade mechanism, we note that the EPA in fact
approved state implementation plans that adopted
none of the on-site controls included in the best system
and instead relied entirely on implementation of the
best system’s cap-and-trade program. See, e.g., Notice
of Intent, 32 La. Reg. 869, 870 (May 20, 2006)
(proposing an implementation plan solely reliant on
cap-and-trade); Approval and Promulgation of State
Plan for Designated Facilities and Pollutants:
Louisiana, 72 Fed. Reg. 46,188, 46,188 (Aug. 17, 2007)
(approving Louisiana’s proposal on the basis that it
“would meet [Clean Air Mercury Rule] requirements
by participating in the EPA administered cap-andtrade program addressing [mercury] emissions”).
Contrary to the EPA’s assertions, e.g. EPA Br. 4, the
Agency plainly has previously embraced beyond-thesource measures of emission reduction as authorized
by the statutory text.
The EPA’s invocation of its own past practice under
Section 7411 falls wide of the mark. It errs in insisting

76a
that “the more than seventy Section 7411 rules”
promulgated for “roughly forty-five years” somehow
reflect a consistent adherence to the Agency’s new
view. EPA Br. 4, 88; see id. at 37–38, 88–89; ACE Rule,
84 Fed. Reg. at 32,526. Almost all of the rules to which
it refers are irrelevant to the issue at hand. They were
for new sources, subject to Section 7411(b), not
existing sources under Section 7411(d). See 84 Fed.
Reg. at 32,526.
Older facilities that may be capable only of
outdated, more polluting methods of generation
present different regulatory challenges than new
sources. As discussed above in connection with the
EPA’s reference to BACT requirements for new-source
permitting under the PSD program, a requirement
that owners and operators constructing new facilities
apply state-of-the-art, lowest-emitting equipment and
methods “at and to the source” might well be the best
available means of reducing emissions for that source
category. The same cannot be said for existing sources.
A central error of the ACE Rule is that it fails to
appreciate that difference. It identifies a handful of
measures applicable to and at the source that the EPA
suggests may achieve slight reductions. But industry
practice demonstrates that better, lower-emitting,
reliable, and cost-effective systems for reducing
emissions from existing power plants typically also
shift generation away from higher-emitting, fossilfuel-fired capacity when renewable or lower- or zeroemitting generation is an available substitute.
Because the best, most efficient and effective
systems for controlling emissions from existing
sources ordinarily differ from the best systems for new
sources, they are regulated via a distinct statutory

77a
track. Only the Section 7411(d) rules are relevant to
the EPA’s prior understanding of its authority to
regulate existing sources. Those prior EPA rules
contradict the EPA’s position here. Before its aboutface in the ACE Rule, all three of the Agency’s most
recent Section 7411(d) rules included emissions
trading or generation shifting to lower-emitting
sources. See Clean Power Plan, 80 Fed. Reg. at 64,755–
64,756; Clean Air Mercury Rule, 70 Fed. Reg. at
28,606, 28,617, 28,619–28,620; Municipal Waste
Combustors Rule, 60 Fed. Reg. 65,387, 65,402 (Dec.
19, 1995).
To put the EPA’s mistaken reading of Section 7411
in perspective, consider how it effectively relegates
federal regulators back to the sidelines where they
stood before Congress overhauled the Clean Air Act in
1970. The federal government had until then done
little more than provide information and guidance to
cheer on States’ air-quality regulators. See Train v.
NRDC, 421 U.S. 60, 64 (1975) (noting that the States’
response to earlier iterations of the Act focused on
information and incentives had been “disappointing”).
With the 1970 amendments, a virtually unanimous
Congress dramatically strengthened the federal
government’s hand in combatting air pollution. See
Train, 421 U.S. at 64 (“These Amendments sharply
increased federal authority and responsibility. * * *
The difference * * * was that the States were no longer
given any choice as to whether they would meet th[eir
statutory] responsibility.”); cf. EPA v. EME Homer
City Generation, LP, 572 U.S. 489, 497 (2014) (noting
this progression toward “increasing[ly] rigor[ous]”
federal regulation of interstate air pollution).
Congress did so “to protect and enhance the quality of

78a
the Nation’s air resources so as to promote the public
health and welfare and the productive capacity of its
population[.]” 42 U.S.C. § 7401(b)(1). The EPA’s newly
enhanced authority was “designed to provide the
basis” for “a massive attack on air pollution.” S. REP.
NO. 91-1196, at 1. Section 7411(d) ensured that there
would be “no gaps in control activities pertaining to
stationary source emissions that pose any significant
danger to public health or welfare.” Id. at 20.
Describing the Act shortly before its passage,
Republican Senator John Cooper explained that the
“philosophy of the bill abandons the old assumption of
requiring the use of only whatever technology is
already proven and at hand” and instead “set[s] out
what is to be achieved.” 116 CONG. REC. 32,919 (1970).
To that end, the Act did not finely detail specific
approaches to enumerated sources or types of air
pollution. See 116 CONG. REC. 32,901–32,902 (1970)
(statement of Sen. Muskie). Congress chose instead to
entrust the EPA with flexible powers to craft effective
solutions. Only by doing so could air quality regulation
hope to reflect developing understandings of
escalating problems and bring to bear as-yet-unseen
solutions.
American air quality is the proof of that approach.
The EPA has worked closely with industry, States,
and the public to develop the world’s most nimble,
responsive, and effective regime of air pollution
regulation. For example, in the half-century since the
1970 Act, “the combined emissions of * * * six key
pollutants regulated under the National Ambient Air
Quality Standards dropped by 73 percent” between
1970 and 2017. EPA Releases 2018 Power Plant
Emissions Demonstrating Continued Progress, EPA

79a
(Feb.
20,
2019),
https://www.epa.gov/newsreleases/epa-releases-2018power-plant-emissions-demonstrating-continuedprogress (last visited Jan. 11, 2021).
The EPA’s new reading of Section 7411 would
atrophy the muscle that Congress deliberately built
up. The EPA asserts it lacks authority to curb a
pollutant that the Agency itself has repeatedly deemed
a grave danger to health and welfare but that eludes
effective control under other provisions of the Act. We
do not believe that Congress drafted such an enfeebled
gap-filling authority in Section 7411.
***
In sum, traditional tools of statutory interpretation
reveal nothing in the text, structure, history, or
purpose of Section 7411 that compels the reading the
EPA adopted in the ACE Rule.
3. Compliance Measures
In the ACE Rule, the EPA also limited the measures
that sources may use to comply with the States’
standards of performance set under Section 7411(d).
Recognizing that sources generally have “broad
discretion” in how they comply with state standards,
84 Fed. Reg. at 32,555, the EPA nonetheless
categorically excluded two specific measures from the
States’ consideration: averaging and trading, and
biomass co-firing. It did so on the ground that these
measures do not meet two criteria it determined were
required of compliance measures: that they be (1)
“capable of being applied to and at the source” and (2)
“measurable at the source using data, emissions
monitoring equipment or other methods to
demonstrate compliance[.]” Id. The EPA identified

80a
these criteria on account of “both legal and practical
concerns[.]” Id.
The Agency’s legal concern was that non-sourcespecific compliance measures “would be inconsistent
with the EPA’s interpretation of the” best system of
emission reduction as itself plant-specific. ACE Rule,
84 Fed. Reg. at 32,555–32,556. In that way, the EPA
extended to States’ compliance measures the same
incorrect textual interpretation of the Clean Air Act
that underlay its determination of what best systems
may include—namely, that the system must be one
that can be applied to and at the individual source.
The EPA reasoned that “implementation and
enforcement of such standards should correspond with
the approach used to set the standard in the first
place.” Id. at 32,556.
The Agency’s practical concern was that compliance
measures that are not source-specific could result in
“asymmetrical regulation[,]” meaning the stringency
of standards could vary across sources. ACE Rule, 84
Fed. Reg. at 32,556. It argues here that such
regulation “could have significant localized adverse
consequences” in the case of many pollutants
regulated under Section 7411(d). EPA Br. 240.
Because we hold that the EPA erred in concluding
Section 7411 unambiguously requires that the best
system of emission reduction be source specific, we
necessarily reject the ACE Rule’s exclusion from
Section 7411(d) of compliance measures it
characterizes as non-source-specific. The Agency tied
that exclusion to its flawed interpretation of the
statute as unambiguously confined to measures taken

81a
“at” individual plants, so it falls with that decision.
ACE Rule, 84 Fed. Reg. at 32,555–32,556.
The statute says nothing about the measures that
sources may use to comply with the standards States
establish under Section 7411(d), and the EPA cites no
separate authority that would require compliance
measures to be source-specific, or that Congress meant
to so hogtie the States in devising standards of
performance. Regardless of any policy-based reasons
the EPA offers for limiting compliance measures, then,
its decision to exclude averaging and trading and
biomass co-firing is foreclosed by its legally erroneous
starting point.
Neither can the EPA’s policy-based reasons sustain
its decision to exclude its disfavored non-sourcespecific compliance measures in the context of carbon
dioxide emissions. Apart from its statutory
interpretation, the EPA’s only ground for excluding
those compliance measures is the Agency’s stated
concern to avoid asymmetrical regulation. ACE Rule,
84 Fed. Reg. at 32,556. It argues that asymmetrical
regulation “could have significant localized adverse
consequences for public health and the environment.”
EPA Br. 240. The Agency points to the case of
fluoride—another pollutant regulated under Section
7411(d)—to note that allowing sources to meet state
standards of performance by averaging emissions
across units or between facilities “could cause serious
environmental impacts on local communities where
pollution was under-controlled, causing localized
damage.” Id. In light of such considerations, the EPA
worried that a system of averaging and trading “would
undermine the EPA’s determination” of the best
system of emission reduction, leading to the sort of

82a
localized consequences the system is designed to guard
against. ACE Rule, 84 Fed. Reg. at 32,557.
But that point does not support the EPA’s
categorical rule, let alone prove that the statute
unambiguously compels the Agency’s reading. Unlike
pollutants such as fluoride, carbon dioxide emissions
do not pose localized concerns at the site of emission.
Whereas the EPA might determine that the best
system for reducing fluoride emissions is one that can
be applied to and at the source, and it would be
reasonable for the EPA in turn to limit compliance
measures to correspond with such a “best system,” the
same cannot be said of carbon dioxide. Indeed, the
EPA recognizes that “CO2 is a global pollutant with
global effects[,]” meaning “there may be few direct and
area public health consequences from asymmetrical
regulation of carbon dioxide within a State.” EPA Br.
239.
The Agency defends its concern about asymmetrical
regulation in the context of carbon dioxide emissions
with the unsupported contention that an
interpretation of Section 7411(d) that allowed nonsource-specific compliance measures “would not be
limited to carbon dioxide alone.” EPA Br. 240. But
there is no reason to conclude, and petitioners do not
argue, that the statute requires the EPA to permit
non-source-specific compliance measures for every
pollutant it regulates under Section 7411. The statute
is not so rigid as EPA supposes. In fact, Section 7411
itself does not textually restrict the States’ choice of
compliance measures for their sources at all. See also
Power Cos. Pet’rs Br. 25–26; Biogenic Pet’r Br. 16–17.
Even if the EPA might reasonably limit compliance
measures in specific situations based on its

83a
determination of the best system for reducing
particular types of emissions with localized
consequences, the statute imposes no requirement
that such limitations be uniform across the regulation
of different pollutants.
In sum, the EPA’s conclusion on compliance by
sources rises and falls with its legally flawed
interpretation of the statute. The Agency’s practical
concern about asymmetrical regulation could not, in
any event, support the exclusion of biomass co-firing
or averaging and trading in the particular context of
carbon dioxide emission regulation.
B. THE MAJOR QUESTIONS DOCTRINE
The EPA also references the so-called “major
questions” doctrine in defense of its statutory
interpretation and the ACE Rule. 84 Fed. Reg. at
32,529. But that doctrine does not confine the EPA to
adopting solely emission standards that can be
implemented physically to and at the individual plant.
The Supreme Court has said in a few cases that
sometimes an agency’s exercise of regulatory authority
can be of such “extraordinary” significance that a court
should hesitate before concluding that Congress
intended to house such sweeping authority in an
ambiguous statutory provision. See King v. Burwell,
576 U.S. 473, 485–486 (2015); Gonzales v. Oregon, 546
U.S. 243, 262, 266–267 (2006); FDA v. Brown &
Williamson Tobacco Corp., 529 U.S. 120, 159 (2000);
accord Utility Air Regulatory Group v. EPA (UARG),
573 U.S. 302, 324 (2014); see also MCI Telecommc’ns
v. AT&T, 512 U.S. 218, 231 (1994). Where there are
special reasons for doubt, the doctrine asks whether it
is implausible in light of the statute and subject

84a
matter in question that Congress authorized such
unusual agency action. See, e.g., UARG, 573 U.S. at
324 (considering whether the challenged rule would
“bring about an enormous and transformative
expansion in EPA’s regulatory authority without clear
congressional authorization”); Brown & Williamson,
529 U.S. at 161 (holding that the FDA could not
regulate tobacco because it was “plain that Congress
ha[d] not given the FDA the authority that it s[ought]
to exercise”).
In the ACE Rule, the EPA stated that, while its
interpretation of Section 7411 did not depend on the
“major question[s] doctrine[,]” the Agency believed
that “that doctrine should apply here[.]” 84 Fed. Reg.
at 32,529. The Agency reasoned that the Clean Power
Plan would have had “billions of dollars of impact on
regulated parties and the economy,” would have
“affected every electricity customer[,]” was “subject to
litigation involving almost every State,” and would
have upset the balance of regulatory authority
between federal agencies and the States. Id. For those
reasons, the Agency concluded that the “interpretive
question raised”—whether the “best system of
emission reduction” can include measures other than
improvements to and at the physical source—“must be
supported by a clear[]statement from Congress.” Id.
That was incorrect.
1. The EPA’s Regulatory Mandate
Unlike cases that have triggered the major
questions doctrine, each critical element of the
Agency’s regulatory authority on this very subject has
long been recognized by Congress and judicial
precedent.

85a
Most importantly, there is no question that the
regulation of greenhouse gas emissions by power
plants across the Nation falls squarely within the
EPA’s wheelhouse. The Supreme Court has ruled
specifically that greenhouse gases are “air pollutants”
covered by the Clean Air Act. Massachusetts v. EPA,
549 U.S. at 532. More to the point, the Court has told
the EPA directly that it is the Agency’s job to regulate
power plants’ emissions of greenhouse gases under
Section 7411. “Congress delegated to EPA the decision
whether and how to regulate carbon-dioxide emissions
from powerplants” through a “§ 7411 rulemaking[.]”
AEP, 564 U.S. at 426–427. The separate opinion
agrees. See Separate Op. at 14 (“Does the Clean Air
Act direct the EPA to make our air cleaner? Clearly
yes. Does it require at least some carbon reduction?
According to Massachusetts v. EPA, again yes.”).
On top of that, the issuance of regulations
addressing greenhouse gas pollution is mandatory
under the statute because of longstanding
endangerment findings. In Massachusetts v. EPA, the
Supreme Court directed the EPA either to make an
endangerment finding under the statute for
greenhouse gas pollution, or to explain why it would
not do so. 549 U.S. at 532–535. The EPA complied. For
now more than a decade—from 2009 to the present day
in the ACE Rule itself—the EPA has consistently and
repeatedly recognized the serious danger that
greenhouse gas pollution poses to human health and
welfare. See ACE Rule, 84 Fed. Reg. at 32,533; New
Source Rule, 80 Fed. Reg. at 64,530–64,531; 2009
Endangerment Finding, 74 Fed. Reg. at 66,496–
66,497. By statute, that finding triggers a mandatory
duty on the EPA to regulate greenhouse gas pollution.

86a
42 U.S.C. § 7521(a)(1) (motor vehicle emissions); 42
U.S.C. § 7411(b) (stationary sources that contribute
significantly to such dangerous pollution).8
So the EPA has not just the authority, but a
statutory duty, to regulate greenhouse gas pollution,
including specifically from power plants.
In that way, the pollution measures in the Clean
Power Plan do not fit the major-question mold of prior
cases. For example, in Brown & Williamson, the major
question was whether the agency had authority to
regulate tobacco at all. There, the Supreme Court
ruled that there was “reason to hesitate” before
concluding that the provisions of the Food, Drug, and
Cosmetic Act covering restricted devices, Brown &
Williamson, 529 U.S. at 134 (citing 21 U.S.C.
As discussed below with respect to the challenge brought
by the Coal Petitioners (infra at III.A.1), the legal basis for the
EPA’s regulation of greenhouse gas emissions from existing
power plants in both the Clean Power Plan and the ACE Rule
was the Agency’s prior 2015 decision to issue standards of
performance for carbon dioxide emitted from new power plants.
That decision, in turn, was based on the Agency’s recognition
(since the 1970s) that fossil-fuel-fired power plants contribute
significantly to air pollution, which “may reasonably be
anticipated to endanger the public health or welfare.” 42 U.S.C.
§ 7411(b)(1)(A); see Air Pollution Prevention and Control: List of
Categories of Stationary Sources, 36 Fed. Reg. 5931, 5931 (March
31, 1971); Air Pollution Prevention and Control: Addition to the
List of Categories of Stationary Sources, 42 Fed. Reg. 53,657,
53,657 (Oct. 3, 1977). The EPA also determined in 2015 that
power plants contribute significantly to greenhouse gas pollution
in particular. See New Source Rule, 80 Fed. Reg. at 64,531. That
determination, combined with the determination that
greenhouse gases are dangerous to public health and welfare,
triggers a mandatory duty to regulate under Section
7411(b)(1)(A).
8

87a
§ 360j(e)), gave the Food and Drug Administration the
authority to regulate tobacco given its “unique
political history” and its role as a “significant portion
of the American economy.” Id. at 159. The Court
reasoned based on the overall drug-regulatory scheme,
as well as Congress having “created a distinct
regulatory scheme for tobacco products,” that
Congress “could not have intended to delegate a
decision of such economic and political significance to
an agency in so cryptic a fashion.” Id. at 159–160.
That question of agency authority to regulate the
matter in question was absent for the Clean Power
Plan. In fact, the Supreme Court in Massachusetts v.
EPA rejected the analogy between regulation of
greenhouse gases as a pollutant under the Clean Air
Act and regulation of tobacco as a drug under the Food,
Drug, and Cosmetic Act. 549 U.S. at 530–531.
Treating tobacco as a drug would have been wholly
novel, requiring the agency to ban virtually all tobacco
products—a result the Court suspected Congress did
not intend. Id. at 531; Brown & Williamson, 529 U.S.
at 143. By contrast, the Supreme Court explained,
greenhouse gases are air pollutants that fall squarely
within the Clean Air Act’s coverage, and the Act would
subject such pollutants, if the agency makes the
necessary findings, only to regulation, not prohibition.
Massachusetts v. EPA, 549 U.S. at 531.
The Clean Air Act also contains its own limits on
regulation, like mandating that the EPA take into
account such factors as available technology and the
cost of compliance. Id. (citing 42 U.S.C. § 7521(a)(2));
see also 42 U.S.C. § 7411(a)(1) (requiring consideration
of health and environmental impacts, energy
requirements, and cost). In that way, Congress

88a
designed the Clean Air Act’s processes for regulating
air pollution to adapt to “changing circumstances and
scientific
developments”
without
imposing
unreasonable technological or financial burdens on
industry. Massachusetts v. EPA, 549 U.S. at 532. So,
unlike the major question of tobacco regulation in
Brown
&
Williamson,
there
is
“nothing
counterintuitive” about the EPA’s reasonable
regulation of dangerous airborne substances like
greenhouse gases. Id. at 531–532.
Similarly, the major question in UARG was whom
the EPA was attempting to regulate. In that case, the
Supreme Court held that the EPA’s statutory
permitting authority for the construction and
modification of stationary sources was “designed to
apply to, and cannot rationally be extended beyond, a
relative handful of large sources capable of
shouldering heavy substantive and procedural
burdens”—sources like power plants. 573 U.S. at 322.
The Court held that, without clear statutory
grounding, the EPA’s effort to extend permitting
requirements to literally millions of small sources of
greenhouse gas pollution but of no other regulated
pollutants—sources like schools, hospitals, churches,
and shopping malls—overshot its statutory authority.
Id. at 324, 328.
The Clean Power Plan, by contrast, regulated the
very entities the EPA was told by the Supreme Court
in AEP and UARG to regulate—fossil-fuel-fired power
plants. And it employed statutory tools that were
“suitable” for application to the long-regulated power
industry. See UARG, 573 U.S. at 323, 324 n.7.
American Electric Power pointed the Agency to
regulation under Section 7411 specifically, explaining

89a
that “Congress delegated to EPA the decision whether
and how to regulate carbon-dioxide emissions from
[new, modified, and existing] powerplants” using the
regulatory tools laid out in Section 7411. 564 U.S. at
424–426.
That is no doubt a significant task for the EPA. But
that is not because of any agency overreach. It is the
product of Congress’ charge that the EPA regulate air
pollution nationwide. And with respect to regulating
greenhouse gas pollution in particular, it reflects the
fact that fossil-fuel-fired power plants predominate
the power industry and are spread across the Nation.
See United States Energy Information Administration
(EIA), Frequently Asked Questions: What is U.S.
Electricity Generation by Source? (Nov. 2, 2020),
https://www.eia.gov/tools/faqs/faq.php?id=427&t=2
(last visited Jan. 11, 2021); EIA, U.S. Energy Mapping
System, https://www.eia.gov/state/maps.php (last
visited Jan. 11, 2021). So much so that they “are by
far” the greatest stationary contributor to greenhouse
gas pollution and the significant dangers it causes for
the public health and welfare. New Source Rule, 80
Fed. Reg. at 64,522.
2. Best System of Emission Reduction
So what the EPA may regulate (greenhouse gas
pollution), and whom it may target (power plants), and
how (under Section 7411) have all been resolved and
so do not trigger the major questions doctrine.
That leaves the EPA no place to house its majorquestion objection other than in the interpretation of
the statutory term “best system of emission
reduction,” 42 U.S.C. § 7411(a)(1). More specifically,
the EPA says the use of any emission-control

90a
measures that do not operate at the individual
physical plant level requires an express statement
from Congress, and that federal standards that might
encourage
generation-shifting
are
therefore
categorically forbidden under Section 7411.
But the major questions doctrine does not apply
there either for a number of reasons.
a. Statutory Design
For starters, the “best system of emission reduction”
plays a cabined role in the statutory scheme. The
determination of the best system of emission reduction
is entirely internal to the EPA. The EPA itself
evaluates relevant scientific, technological, and
economic evidence to identify, in its judgment, the
“best system of emission reduction” available, and the
“degree of emission limitation achievable” through it.
42 U.S.C. § 7411(a)(1).
In making that determination, the statute
significantly reins in the EPA’s judgment by requiring
the Agency to (1) “tak[e] into account the cost of
achieving such reduction,” (2) factor in “any nonair
quality health and environmental impact,” (3) balance
the effect on “energy requirements,” and (4) ensure
that
the
system
has
been
“adequately
demonstrated[.]” 42 U.S.C. § 7411(a)(1). To be
“adequately demonstrated[,]” we have explained, the
system must be shown to be reasonably “reliable,”
“efficient,” and “expected to serve the interests of
pollution control without becoming exorbitantly
costly[.]” Essex Chem. Corp. v. Ruckelshaus, 486 F.2d
427, 433 (D.C. Cir. 1973), cert. denied, 416 U.S. 969
(1974); see also Portland Cement Ass’n v. Ruckelshaus,
486 F.2d 375, 391 (D.C. Cir. 1973) (whether a system

91a
is adequately demonstrated “cannot be based on
‘crystal ball’ inquiry”).9
Once the EPA identifies a best system that meets
those requirements and calculates the degree of
emission limitation it allows, the Clean Air Act leaves
it to the States to set their own standards of
performance for their existing pollution sources. 42
U.S.C. § 7411(d). The cooperative-federalism design of
Section 7411(d) gives the States broad discretion in
achieving those emission limitations. See AEP, 564
U.S. at 428 (“The Act envisions extensive cooperation
between federal and state authorities, generally
permitting each State to take the first cut at
determining how best to achieve EPA emissions
standards within its domain[.]”) (internal citations
omitted). In addition, Section 7411(d) expressly allows
States, in setting their emission standards, to “take
into consideration, among other factors, the remaining
useful life” of its existing sources. 42 U.S.C. § 7411(d).
So the EPA’s scientific and technological
identification of the best system of emission reduction
cannot bear the major-question label. Determining the
system is a task expressly and indisputably assigned
by Congress to the EPA and requiring specialized
agency expertise. That system serves only as the basis
for the EPA to set the emission-reduction targets in its
quantitative guidelines. The States retain the choice
9
In addition to these statutory constraints, the EPA has tied
its own hands by requiring that the best system include only
actions touching three bases: (i) they reduce emissions (rather
than, for example, capturing emissions after they are released
into the air by planting trees), (ii) sources themselves can
implement them, and (iii) they target supply-side activities. See
Clean Power Plan, 80 Fed. Reg. at 64,776, 64,778–64,779.

92a
of how to meet those guidelines through standards of
performance tailored to their various sources. Neither
exercise entails resolution of a major question.
The EPA argues that its own best-system process
raised a major question by “impos[ing] ‘generation
shifting[.]’” EPA Br. 99. But under Section 7411(d), the
EPA does not impose the “best system of emission
reduction” on anyone. Instead, each State decides for
itself what measures to employ to meet the emission
limits, and in so doing may elect to consider the
“remaining useful life” of its plants and “other factors.”
42 U.S.C. § 7411(d). See Clean Power Plan, 80 Fed.
Reg. at 64,709–64,710, 64,783. The Clean Power Plan,
in fact, afforded States considerable flexibility in
choosing how to calculate and meet their emissions
targets. See, e.g., id. at 64,665, 64,756–64,757, 64,834–
64,837.10
The Clean Power Plan expressly contemplated that States
and sources might choose to meet their emissions targets by using
measures other than the specific heat-rate improvements and
generation shifting that the EPA had identified in its best system.
See 80 Fed. Reg. at 64,755–64,758. The EPA offered a list of
alternative available technologies that reduced power plants’
carbon dioxide emissions per megawatt, including carbon capture
and storage, heat-rate improvements at non-coal plants, fuel
switching to gas, fuel switching to biomass, and waste heat-toenergy conversion. Id. at 64,756. In certain situations, for
example, modifying coal-fired plants to burn natural gas could
“help achieve emission limits consistent with the [best system].”
Id. The Agency also identified a list of alternative measures that
States could implement to lower overall emissions from fossilfuel-fired plants. Those measures included, for example, demandside energy efficiency—a policy tool that the EPA expected some
States to use because “the potential emission reductions from
demand-side [energy efficiency] rival those from [generation
shifting] in magnitude[.]” Id.
10

93a
Congress already focused on the issue and made the
decision to rope the EPA’s selection of a best system of
emission reduction about with all of those substantive
and structural limitations. So the major questions
doctrine does not provide any basis for concluding that
the Clean Air Act categorically forecloses the EPA’s
consideration of even those generation-shifting
measures that are already widely in use by States and
power plants and have been demonstrated to be
reasonable, reliable, effective, and not unduly
disruptive to the regulated industry. See Clean Power
Plan, 80 Fed. Reg. at 64,735, 64,769.
In that respect, the EPA’s argument sounds much
like a second argument rejected by the Supreme Court
in UARG. In addition to the scope question discussed
above, the Court addressed whether the EPA could
require facilities that emit conventional pollutants
also to implement the “best available control
technology” for greenhouse gases. UARG, 573 U.S. at
329–333 (citing 42 U.S.C. § 7475(a)(4)). Like the EPA
here, the industry petitioners argued that the “best
available
control
technology”
standard
was
“fundamentally unsuited” to greenhouse gas
emissions because it had “traditionally” focused on
“end-of-stack controls.” Id. at 329–330. “[A]pplying it
to greenhouse gases,” the industry petitioners
insisted, would make the “best available control
technology” standard “more about regulating energy
use, which will enable regulators to control every
aspect of a facility’s operation and design[.]” Id. at 330
(internal quotation marks omitted).
The Supreme Court rejected that challenge. The
Court explained that the EPA’s guidance
contemplated both “end-of-stack”—type controls and

94a
energy efficiency measures. UARG, 573 U.S. at 330.
And, critically, the Court emphasized that the statute
and regulations already imposed “important
limitations on [best available control technology] that
may work to mitigate petitioners’ concerns about
‘unbounded’ regulatory authority.” Id. at 331. Among
those limitations was the EPA’s longstanding
statutory interpretation that the best available control
technology was required “only for pollutants that the
source itself emits,” and the EPA’s existing guidance
that permitting authorities should “consider whether
a proposed regulatory burden outweighs any reduction
in emissions to be achieved.” Id. The statute also
required the EPA to determine the best available
control technology with reference to “energy,
environmental, and economic impacts and other
costs.” 42 U.S.C. § 7479(3); see also UARG, 573 U.S. at
333 n.9.
So too here: The numerous substantial and explicit
constraints on the EPA’s selection of a best system of
emission reduction foreclose using the major questions
doctrine to write additional, extratextual, and
inflexibly categorical limitations into a statute whose
“broad language * * * reflects an intentional effort to
confer the flexibility necessary to forestall * * *
obsolescence.” Massachusetts v. EPA, 549 U.S. at 532;
see also Transmission Access Policy Study Group v.
FERC, 225 F.3d 667, 711 (D.C. Cir. 2000) (where
Congress has spoken, court upholds as within agency
authority an order that “fundamentally change[d] the
regulatory environment in which utilities operate” and
“introduc[ed] meaningful competition into an industry
that since its inception has been highly regulated and

95a
affecting all utilities in a similar way”), aff’d sub nom.
New York v. FERC, 535 U.S. 1 (2002).
The EPA points to the Supreme Court’s statement
in UARG that “[w]hen an agency claims to discover in
a long-extant statute an unheralded power to regulate
‘a significant portion of the American economy,’ we
typically greet its announcement with a measure of
skepticism.” 573 U.S. at 324 (quoting Brown &
Williamson, 529 U.S. at 159).
True. But, as already explained, the EPA made no
new discovery of regulatory power with the Clean
Power Plan. While power plants are significant
players in the American economy, they have been
subject to regulation under Section 7411 for nearly
half a century. See, e.g., Costle, 657 F.2d at 318; Oljato
Chapter of Navajo Tribe v. Train, 515 F.2d 654, 656–
57 (D.C. Cir. 1975). Their emission of massive
amounts of carbon dioxide has long been known. And
the source of the EPA’s duty to regulate that
greenhouse gas pollution from power plants was the
plain statutory text and Supreme Court precedent, not
something the EPA pulled out of a hat. See AEP, 564
U.S. at 425; Massachusetts v. EPA, 549 U.S. at 532.
In sum, the Clean Air Act expressly confers
regulatory authority on the EPA to set standards for
reducing greenhouse gas emissions from fossil-fuelfired power plants nationwide. Congress knew both
the scope and importance of what it was doing. And it
cabined the EPA’s authority with concrete and
judicially enforceable statutory limitations. The major
questions doctrine is meant to discern, not override,
such statutory judgments. Doubly so when the

96a
regulatory authority and its reach have been affirmed
and enforced by the Supreme Court.
b. Regulatory Consequences
The problems with the EPA’s approach to the majorquestion analysis do not stop there. The Agency also
conflates the significance of greenhouse gas regulation
of power plants generally with any significance
attributable solely to the EPA’s choice of a “best
system of emission reduction”—the statutory
provision where the EPA tried to anchor its majorquestion objection. Remember, the EPA concluded
that the major questions doctrine was triggered
centrally by (i) the Clean Power Plan’s “billions of
dollars of impact” on the economy; (ii) its effect on
“every electricity customer”; (iii) the number of
litigation challenges it spawned, “involving almost
every State”; and (iv) its perceived shifting of
regulatory authority between federal agencies and the
States. ACE Rule, 84 Fed. Reg. at 32,529.
Taking the characterizations as true, those
consequences are a product of the greenhouse gas
problem, not of the best-system’s role in the solution.
Given the number and dispersion of fossil-fuel-fired
power plants, any nationwide regulation of their
greenhouse gas pollution that meaningfully addresses
emissions will necessarily affect a broad swath of the
Nation’s electricity customers. Under the EPA’s grave
endangerment finding, so too would a failure to
regulate those greenhouse gas emissions. See 2009
Endangerment Finding, 74 Fed. Reg. at 66,496.
As for the “billions of dollars of impact[,]” the EPA
has offered no evidence tying that cost to generation
shifting rather than physical plant adjustments or a

97a
variety of other means States might choose for
complying with emission limits. As the EPA itself
previously acknowledged, generation shifting can be
cheaper than other demonstrated methods of reducing
greenhouse gas emissions, like carbon capture and
storage, that take place “at” the source (and thus fall
within the EPA’s current statutory vision). See Clean
Power Plan, 80 Fed. Reg. at 64,727.11 Moreover, the
Clean Power Plan’s significant projected economic
impact was not atypical for Clean Air Act rulemakings
by the EPA. See, e.g., Costle, 657 F.2d at 314
(upholding 1979 new source performance standards
governing emission control by coal-burning power
plants that imposed “tens of billions of dollars” of costs
on the power sector).
Even assuming that the EPA’s federalism concerns
could trigger the major questions doctrine (rather than
the federalism clear-statement canon), they carry no
material weight here. That is because the statutory
role of the best system of emission reduction under
Section 7411(d) textually preserves and enforces the
States’ independent role in choosing from among the
broadest range of options to set standards of
performance appropriate to sources within their
jurisdiction. In fact, it is the ACE Rule’s unreasoned
barriers to certain compliance measures, like
generation shifting and biomass co-firing, that

The EPA now takes the position that natural gas co-firing
is not adequately demonstrated and that neither co-firing nor
carbon capture and storage is part of the best system of emission
reduction. See ACE Rule, 84 Fed. Reg. at 32,544–32,545, 32,549.
But those methods are amenable to implementation “to” and “at”
the source, in keeping with the EPA’s statutory view.
11

98a
hamstring the States. See supra Part II.A.3 (analyzing
ACE Rule, 84 Fed. Reg. at 32,555–32,556).
Finally, it seems doubtful that the volume of
litigation aimed at a regulation can reasonably bear on
its major-question status. The Supreme Court has
certainly never embraced that idea. For good reason.
A doctrine at the mercy of litigation stratagems, or the
mere existence of disagreements over which parties
find advantage in filing suit, cannot be an elucidating
or even logically relevant tool of statutory
interpretation.
In any event, the EPA offers no basis for concluding
that the best-system determination is what lit the
litigation fire. After all, the ACE Rule too has been
“subject to litigation” involving 43 States and all
manner of other interested parties, despite the Rule’s
jettisoning of generation shifting as part of the best
system of emission reduction. See Opinion Caption,
supra.
c. Regulating in the Electricity Sector
The ACE Rule’s last attempt to wrap the bestsystem determination in the major-question mantle
asserts that including generation shifting as part of
the best system of emission reduction lacks a “valid
limiting principle,” and that, by “shifting focus to the
entire grid[,]” it would “empower” the Agency “to order
the wholesale restructuring of any industrial sector[.]”
ACE Rule, 84 Fed. Reg. at 32,529. But that is entirely
wrong. The Clean Power Plan was aimed not at
regulating the grid, but squarely and solely at
controlling air pollution—a task at the heart of the
EPA’s mandate. Indeed, the EPA’s reasoning in the
ACE Rule defeats its own argument.

99a
The EPA suggests that counting generation shifting
among the tools for emission reduction risks
expanding the Agency’s regulatory sights too far,
because “any action affecting a generator’s operating
costs could impact its order of dispatch and lead to
generation shifting.” ACE Rule, 84 Fed. Reg. at 32,529
(emphasis added). That is exactly right: Any
regulation of power plants—even the most
conventional, at-the-source controls—may cause a
relative increase in the cost of doing business for
particular plants but not others, with some
generation-shifting effect. That is how pollution
regulation in the electricity sector has always worked.
Regulators—including, for example, Congress in the
Clean Air Act’s acid rain cap-and-trade program, 42
U.S.C. §§ 7651–7651o—have long facilitated those
generation-shifting effects to serve the goal of
pollution reduction. See Grid Experts Amicus Br. 13–
15
So the EPA’s contention that it cannot consider
measures resulting in generation shifting as part of its
best system proves far too much: If that were so, the
EPA would be limited to considering only measures
that power plants could adopt at zero cost, so as to
maintain their relative-dispatch position. That is, of
course, incompatible with Congress’ instruction that
the best system take cost into account as only one
factor among several, see 42 U.S.C. § 7411(a)(1), and
contrary to the very nature of environmental law,
which requires the regulation of polluters and
material changes in their pollution emissions.
The EPA’s argument also ignores, again, the critical
statutory limitations that the Clean Air Act imposes
on the selection of a best system of emission reduction

100a
and its function in state plans. Under Section 7411(d),
the EPA lacks the authority to “order the wholesale
restructuring” of anything. All it can do is identify the
best system of emission reduction that has been
adequately demonstrated within the cost, energyrequirement, and other substantive constraints set by
Congress, and then calculate achievable emission
goals by reference to that system. 42 U.S.C.
§ 7411(a)(1). States, in turn, set standards of
performance only “for” any “existing source[,]” and
need not implement any aspect of the EPA’s “best
system[.]” Id. § 7411(d)(1) (emphasis added). And the
EPA’s determination about how best to combat air
pollution is, of course, subject to judicial review,
including on questions like whether a system has been
adequately demonstrated and whether the Agency
adequately considered costs. 42 U.S.C. § 7607(b); cf.
AEP, 564 U.S. at 427; UARG, 573 U.S. at 333 n.9.
Congress’ carefully calibrated system—involving
scientific and technological evidence-gathering, close
study of existing industry practice, constrained
discretion, divided regulatory authority, collaboration
with States, and judicial review—leaves no room for
the unauthorized agency overreach that the EPA
fears.
A group of States and industry groups intervened
with other major-question challenges, but their salvos
all fall short. They argue that the major questions
doctrine is implicated because the EPA has “‘no
expertise’ in electricity generation, transmission, and
reliability.” State & Industry Intervenors Repeal Br.
30 (quoting King, 576 U.S. at 474); see also Gonzales,
546 U.S. at 267 (rejecting interpretive rule of the
Attorney General that was “both beyond his expertise

101a
and incongruous with the statutory purposes and
design”). But Section 7411 not only foresees, but
demands
that
the
EPA
consider
“energy
requirements” when assessing the best system of
emission reduction. 42 U.S.C. § 7411(a)(1). The
Supreme Court in AEP recognized the EPA’s signal
role in regulating greenhouse gases under Section
7411 notwithstanding that the EPA must consider
energy requirements and ensure a reliable energy
supply when it does so. 564 U.S. at 427. The Court
explained that, when the EPA is formulating
greenhouse gas regulations, it must consider not only
“the environmental benefit potentially achievable,”
but also “our Nation’s energy needs and the possibility
of economic disruption[.]” Id. The Clean Air Act
“entrusts such complex balancing to EPA in the first
instance, in combination with state regulators.” Id.;
see 42 U.S.C. § 7411(a)(1). That definitive reading of
the statute by the Supreme Court cannot suddenly
become a forbidden major question when the EPA
regulates as it was told to do.
The statutory scheme simply gives no quarter to the
proposition that, in following Congress’ directive to
regulate electricity-producing power plants, the EPA
is categorically forbidden to consider emissionreduction measures that take into account the nature
of the electricity grid in which those power plants
operate day in and day out. Nor is it sensible to
categorically put off-limits the generation-shifting
measures that power plants are already actually using
to meet emission requirements. See Clean Power Plan,
80 Fed. Reg. at 64,784–64,785.
The State and Industry Intervenors also overlook
that the EPA developed the Clean Power Plan with

102a
input from other agencies with relevant expertise. See
Clean Power Plan, 80 Fed. Reg. at 64,672–64,673
(explaining that “[i]nput and assistance from FERC
[the Federal Energy Regulatory Commission] and
DOE [the Department of Energy] have been
particularly important in shaping” aspects of the
Clean Power Plan); id. at 64,671 (noting “extensive
consultation with key agencies responsible for [electric
system] reliability[,]” as well as reliance on the “EPA’s
longstanding principles in setting emission standards
for the utility power sector”). Contrast Delaware Dep’t
of Nat. Res. & Env’t Control v. EPA, 785 F.3d 1, 14, 18
(D.C. Cir. 2015) (invalidating rule in part because the
EPA had failed to consult with other expert agencies
on grid reliability issues). EPA could hardly do its job
without substantively engaging with the on-theground facts about the electricity system that power
plants support. Quite the opposite: An agency’s
wooden refusal to factor in reality and such on-point
considerations
would
ordinarily
render
its
decisionmaking arbitrary and capricious. See Motor
Vehicle Mfrs. Ass’n v. State Farm Mut. Auto. Ins. Co.,
463 U.S. 29, 43 (1983).
All told, the EPA’s consideration of already-in-use
generation shifting as part of the “best system of
emission reduction” does nothing to enlarge the
Agency’s regulatory domain. “We are not talking about
extending EPA jurisdiction over millions of previously
unregulated entities,” but about a familiar process of
cooperative federalism applied to “entities already
subject to * * * regulation” to address a recognized
form of air pollution that repeatedly has been found to
endanger public health and welfare. See UARG, 573
U.S. at 332. The major questions doctrine cannot

103a
rescue the ACE Rule’s mistaken interpretation of
Section 7411(d) as categorically confining the best
system of emission reduction to physical adjustments
made only “at” and “to” the power plant.
C. FEDERALISM
The federalism canon lends no support to the ACE
Rule’s decision to confine the best system of emission
reduction to measures that apply exclusively at and to
the source. That canon recognizes that “the States
retain substantial sovereign powers under our
constitutional scheme, powers with which Congress
does not readily interfere.” Gregory v. Ashcroft, 501
U.S. 452, 460–461 (1991). So as a matter of
constitutional avoidance, courts require Congress to
“enact exceedingly clear language if it wishes to
significantly alter the balance between federal and
state power.” United States Forest Serv. v. Cowpasture
River Pres. Ass’n, 140 S. Ct. 1837, 1849–1850 (2020).
The federalism clear-statement rule prevents direct
federal intrusion into areas of traditional state
responsibility unless Congress has made its intent to
cross that line explicit. For example, courts will not
assume that Congress meant to preempt a State’s
mandatory retirement age for state judges through the
passage of a generic age discrimination law, unless it
has clearly expressed its intent to police the
qualifications of such high-level state officials. See
Gregory, 501 U.S. at 463–464. Nor will courts lightly
assume that Congress intended to claim state-owned
land as part of the National Park System, see
Cowpasture River, 140 S. Ct. at 1849–1850, to
transform simple state-law assaults into breaches of
international chemical weapons compacts, see Bond v.

104a
United States, 572 U.S. 844, 862–863 (2014), or to
displace the States’ traditional authority to regulate
the practice of law, see American Bar Ass’n v. FTC, 430
F.3d 457, 466, 471–472 (D.C. Cir. 2005). Only when
such conflicts between federal and state regulatory
domains are plainly joined by Congress itself will the
court
confront
the
sensitive
constitutional
implications of such measures.
That doctrine does not support the EPA’s cramped
reading of Section 7411. Interstate air pollution is not
an area of traditional state regulation. And federalism
concerns do not bar the United States government
from addressing areas of federal concern just because
its actions have incidental effects on areas of state
power. Cf. FERC v. Electric Power Supply Ass’n, 136
S. Ct. 760, 775–778 (2016) (federal regulation of
wholesale electricity market did not intrude on
traditional state authority over the retail electricity
market, even though wholesale market regulation
created an incentive for retail consumers to change
their behavior in state-regulated markets).
What is more, the Supreme Court has suggested
that the federalism clear-statement rule is of limited
applicability when a federal regulatory regime is
enforced through a statutory cooperative-federalism
framework, as Section 7411(d) is. See AT&T Corp. v.
Iowa Util. Board, 525 U.S. 366, 378 n.6 (1999) (noting
appeals to States’ rights as “most peculiar” in the
context of “a federal program administered by 50
independent state agencies”); see also Alaska Dep’t of
Env’t Conservation v. EPA, 540 U.S. 461 (2004)
(declining to adopt dissent’s proposed clear-statement
rule for federal constraints on state implementation
decisions in cooperative-federalism program). See

105a
generally Abbe Gluck, Intrastatutory Federalism and
Statutory Interpretation: State Implementation of
Federal Law in Health Reform and Beyond, 121 YALE
L.J. 534, 555–556 (2011).
In any case, the Clean Power Plan’s incorporation of
generation shifting into its best system of emission
reduction fell squarely within an area of the federal
government’s constitutional competence. The EPA
does not dispute the government’s authority or its
statutory mandate to reduce the emission of pollutants
that endanger public health and welfare. 42 U.S.C.
§ 7411(b)(1)(A), (d)(1). The EPA also agrees that
greenhouse gases are among the pollutants properly
regulated by the federal government. See AEP, 564
U.S. at 416–417, 424; see also supra Part I.B.2.
The Clean Power Plan directly regulated only the
amount of greenhouse gas pollutants that may be
emitted into the atmosphere. 80 Fed. Reg. at 64,663–
64,664. That is an area of unique federal concern.
After all, “[a]ir pollution is transient, heedless of state
boundaries,” EME Homer City Generation, 572 U.S. at
496, particularly where the pollutants are greenhouse
gases, which have little if any localized effect but great
cumulative impact. The inability of individual States
to redress the problem of interstate air pollution, in
fact, was among the very reasons for the enactment of
the Clean Air Act. See 42 U.S.C. § 7401(a)(1), (4); S.
REP. NO. 88-638, at 3 (1963) (“Polluted air is not
contained in a specific area but is carried from one
political jurisdiction to another. It does not know State
lines or city limits. Providing air of good quality * * *
is a challenge and an obligation for Government
operations on all levels.”); id. at 5 (“The nationwide
character of the air pollution problem requires an

106a
adequate Federal program to lend assistance, support,
and stimulus to State and community programs.”).
To be sure, the federal government’s regulation of
such an interstate problem can have indirect effects on
State energy production and utility regulation
decisions. But even when those effects are the fully
anticipated “natural consequences” of an agency’s
policy choice, Electric Power Supply Ass’n, 136 S. Ct.
at 776, that does not transform a fundamentally
federal action in a core federal area of concern into a
restriction on state action that triggers the federalism
canon.12
The EPA protests that the Clean Power Plan
breached that divide because it expressly considered
generation shifting to determine the best system of
emission reduction and, in so doing, stepped on the
States’ power to regulate electrical utilities’ mix of
electricity generation. Reg.
But that argument has nothing to do with the
narrow construction of Section 7411 that the EPA
adopted. After all, the EPA could have set the same
emission guidelines predicated on a best system of
emission reduction that exclusively employed
12 In the ACE Rule, the EPA suggested that the Clean Power
Plan’s best system of emission reduction was also impermissible
as an encroachment on “measures and subjects exclusively left to
FERC[.]” 84 Fed. Reg at 32,530. The EPA has not pressed that
argument here. For good reason. The effects of environmental
regulations on the power grid do not amount to power regulation
statutorily reserved to FERC. And, in any event, the
constitutional concerns that require us to patrol the boundaries
between federal and state authority with vigilance do not support
any similar clear-statement requirement regarding turf battles
between federal agencies.

107a
technological controls applicable at and to the source,
like carbon capture and sequestration. And the EPA
must agree that the federalism canon would play no
role in determining the appropriateness of that
system, since on the Agency’s own reading, measures
applicable at and to the source are precisely what
Section 7411 allows.13
Nowhere does the EPA explain why reference to a
different mechanism—generation shifting—in its
calculation of the best system would raise materially
different federalism concerns. Under either system,
the only direct obligation imposed on States is the
same: a federally set emissions guideline. In both
scenarios, the States remain equally free to choose the
compliance measures that best fit the needs of their
State and industry. And as a practical matter, many if
not most States would likely opt for generation
shifting over carbon capture and sequestration under
While the EPA did not select carbon capture and
sequestration as the best system of emission reduction in the
ACE Rule, it excluded that process because of cost and feasibility
concerns, not federalism interests. See 84 Fed. Reg. at 32,547–
32,549. That exclusion was a change of position from the Clean
Power Plan, where the EPA found that the process was
“technically feasible and within price ranges that the EPA has
found to be cost effective[.]” 80 Fed. Reg. at 64,727. Carbon
capture and sequestration ultimately was not selected as the best
system of emission reduction in the Clean Power Plan solely
because generation shifting was even more cost-effective. Id. at
64,727–64,728. What matters here is that the EPA did not
express any concern in either the ACE Rule or the Clean Power
Plan that such a system would intrude upon traditional areas of
State authority. In the ACE Rule, the EPA permits the use of
such technological controls to meet its emission standards, 84
Fed. Reg. at 32,549, 32,555, as it did in the Clean Power Plan, 80
Fed. Reg. at 64,883–64,884.
13

108a
either rule because the former is cheaper for existing
plants. See Clean Power Plan, 80 Fed. Reg. at 64,727–
64,728; ACE Rule, 84 Fed. Reg. at 32,532 (“Marketbased forces have already led to significant generation
shifting in the power sector.”).
The EPA also suggests that the clear-statement rule
operates with particular force here because the Plan
imposed uneven regulatory burdens weighted toward
States with more high-emitting power plants. But that
argument tries to twist principles of federalism into a
command of regulatory homogenization that defies onthe-ground reality. Regulations under the Clean Air
Act or any environmental law will commonly affect
States differently depending on the States’ activities.
The regulation of pollutants associated with
automotive manufacturing affects States with
production facilities more than those without. See, e.g.,
General Motors Corp. v. United States, 496 U.S. 530,
534–535 (1990). The regulation of mining-related
pollutants imposes greater costs on States with more
plentiful mineral resources. See, e.g., Alaska Dep’t of
Env’t Conservation, 540 U.S. at 469–470, 474; Hodel v.
Virginia Surface Mining & Reclamation Ass’n, 452
U.S. 264, 289–290 (1981). The same point applies to
industries like petroleum refining, which are
concentrated near navigable waters. See generally
EIA,
U.S.
Energy
Mapping
System
https://www.eia.gov/state/maps.php (last visited Jan.
11, 2021). Indeed, some regulations impose additional
regulatory burdens based literally on the direction the
wind blows. See EME Homer City Generation, 572 U.S.
at 520. Likewise, States with more navigable water
necessarily carry more burdens under the Clean
Water Act than those with less.

109a
Affected States, of course, could raise statutory
challenges to enforce the Clean Air Act’s express
constraints, such as required consideration of cost,
non-air quality health and environmental impact, or
energy requirements under Section 7411(a). And they
could always challenge any unreasoned or
unwarranted distinctions in regulatory coverage as
arbitrary or capricious. But in the absence of such an
objection, it does not offend—or even implicate—
principles of federalism to observe that States whose
industries pollute the Nation’s air and so harm the
public’s health more will, in turn, be affected more by
emission controls.
For all of those reasons, nothing in the federalism
canon supports the EPA’s effort to categorically
constrict the best system of emission reduction to
measures physically applied at and to the individual
plant.
III. THE EPA’S AUTHORITY TO REGULATE CARBON
DIOXIDE EMISSIONS UNDER SECTION 7411
A. THE COAL PETITIONERS’ CHALLENGES
The North American Coal Corporation and
Westmoreland Mining Holdings LLC, both coal mine
operators (the Coal Petitioners), bring two challenges
to the ACE Rule. Both question the EPA’s legal
authority to enact the rule. First, the Coal Petitioners
argue that the EPA failed to make the required
endangerment finding—that carbon dioxide emissions
from power plants cause or contribute significantly to
air pollution that may reasonably be anticipated to
endanger public health or welfare—before regulating
those emissions. See42 U.S.C. § 7411(b)(1)(A). Second,
they claim that the EPA’s previous regulation of a

110a
different air pollutant (mercury) from power plants
under the Hazardous Air Pollutants provision, 42
U.S.C. § 7412, precludes the EPA from now regulating
power plants’ emission of greenhouse gases under
Section 7411(d).
Both arguments fail. The EPA made the requisite
endangerment finding in 2015, and the ACE Rule
expressly retained that finding. As for the Section
7412 challenge, the EPA has correctly and consistently
read the statute to allow the regulation both of a
source’s emission of hazardous substances under
Section 7412 and of other pollutants emitted by the
same source under Section 7411(d). The Coal
Petitioners’ argument rests not on the enacted
statutory language, but instead on their own favored
reading of one statutory amendment inserted by
codifiers. Reading the statutory text as a whole—that
is, all of the relevant language enacted by Congress,
including two duly enacted amendments—the Clean
Air Act authorizes the EPA to regulate both power
plants’ emissions of greenhouse gases under Section
7411(d) and hazardous air pollutants under Section
7412. That reading is reinforced by the statutory
structure, purpose, and history.
1. Endangerment Finding
a. The Record of Endangerment
The Coal Petitioners argue that the ACE Rule was
unlawful right out of the box because the EPA failed
to make a statutorily required finding that greenhouse
gas emissions from power plants cause air pollution
that endangers the public health and welfare. That is
wrong.

111a
As a reminder, before the EPA can regulate a
category of stationary sources like electricitygenerating power plants under Section 7411, the EPA
Administrator must first find that the source category
“in his judgment * * * causes, or contributes,
significantly to, air pollution which may reasonably be
anticipated to endanger the public health or welfare.”
42 U.S.C. § 7411(b)(1)(A). A formal pronouncement
meeting those criteria is known as an “endangerment
finding.” New Source Rule, 80 Fed. Reg. at 64,529. And
once it is made, the EPA is not just empowered, but
obligated, to regulate. See 42 U.S.C. § 7411(b)(1)(A);
see also supra note 8.
After the Administrator makes an endangerment
finding, the source category is added to the EPA’s
Section 7411 list, 42 U.S.C. § 7411(b)(1)(A), and the
Administrator must promulgate emissions standards
(called “standards of performance”) for new sources in
the category, id. § 7411(b)(1)(B). As relevant here,
unless those dangerous emissions are regulated under
another relevant provision of the Clean Air Act, the
Administrator must also set an achievable emission
guideline based on the “best system of emission
reduction” and provide a process for States to submit
a plan setting out standards of performance for
existing stationary sources in that same category. Id.
§ 7411(d)(1)(A)(ii).
The EPA has for decades been regulating emissions
other than carbon dioxide from electricity-generating
power plants. In 1971, the EPA listed fossil-fuel-fired
electricity-generating units with steam-generating
boilers as a new source category under Section 7411(b)
and promptly established standards of performance
for them. See Air Pollution Prevention and Control:

112a
List of Categories of Stationary Sources, 36 Fed. Reg.
5931 (March 31, 1971); Standards of Performance for
New Stationary Sources, 36 Fed. Reg. 24,876, 24,878–
24,880 (Dec. 23, 1971). Then, in 1977, the EPA listed
fossil-fuel-fired combustion turbines as a new source
category under Section 7411 and set performance
standards for them. See Air Pollution Prevention and
Control: Addition to the List of Categories of
Stationary Sources, 42 Fed. Reg. 53,657 (Oct. 3, 1977);
New Stationary Sources Performance Standards;
Electric Utility Steam Generating Units, 44 Fed. Reg.
33,580 (June 11, 1979). These categories cover the
power plants at issue today. See New Source Rule, 80
Fed. Reg. at 64,531.
Through the 2015 New Source Rule, the EPA began
regulating carbon dioxide emissions from electricitygenerating power plants. See New Source Rule, 80
Fed. Reg. 64,510. Because power plants had already
been listed as a regulated source category, the New
Source Rule did not need to take any action to add
those plants to the Section 7411 list of regulated
sources. It just issued, for the first time, standards of
performance for carbon dioxide emitted from new
power plants. In so doing, the New Source Rule
provided the statutory predicate and corresponding
duty for the EPA to establish carbon dioxide emission
standards for existing power plants as well. Clean
Power Plan, 80 Fed. Reg. at 64,715; see 42 U.S.C.
§ 7411(d)(1). The New Source Rule now serves that
same function for the ACE Rule, 84 Fed. Reg. at
32,533.
Because the New Source Rule did not add a new
category of pollution sources to the Section 7411 list,
the EPA concluded that no new endangerment finding

113a
was needed. New Source Rule, 80 Fed. Reg. at 64,529–
64,530. The EPA nevertheless went on to explain that
it chose to regulate carbon dioxide emissions from
electricity-generating plants specifically because
greenhouse gas pollution endangers public health and
welfare and contributes significantly to air pollution.
See id. at 64,530–64,531. The EPA found in particular
that increased atmospheric levels of greenhouse gases,
including carbon dioxide, could lead to, among other
things, more frequent extreme weather events and
wildfires; threats to mental and physical health,
especially for children and the elderly; reduced access
to food and safe water; and mass migrations and
displacements as a result of rising sea levels. Id. at
64,517–64,520.
b. Timeliness
At the outset, the EPA argues that we must
disregard the Coal Petitioners’ challenge concerning
the endangerment finding because it was not timely
filed. This is a close question, but we ultimately
conclude that the petition is timely.
The Clean Air Act requires that petitions for review
challenging an EPA regulation—including any Section
7411 standard of performance—generally must be
filed within 60 days of the regulation’s publication in
the Federal Register. 42 U.S.C. § 7607(b)(1). The
Clean Air Act’s timeliness bar is “jurisdictional in
nature[.]” Motor & Equip. Mfrs. Ass’n v. Nichols, 142
F.3d 449, 460 (D.C. Cir. 1998) (quoting Edison Elec.
Inst. v. EPA, 996 F.2d 326, 331 (D.C. Cir. 1993)).
Importantly, Congress carved out an exception to
that 60-day time limit if the petition “is based solely
on grounds arising after [the] sixtieth day[.]” 42 U.S.C.

114a
§ 7607(b)(1). In that situation, the clock resets, and the
petitioner must file within 60 days of the occurrence of
the new event that “ripens [the] claim” and thereby
triggers the basis for a challenge. Coalition for
Responsible Regulation, Inc. v. EPA, 684 F.3d 102, 129
(D.C. Cir. 2012), rev’d in part on other grounds sub
nom. Utility Air Regulatory Group v. EPA (UARG),
573 U.S. 302 (2014); see also Alon Refining Krotz
Springs, Inc. v. EPA, 936 F.3d 628, 646 (D.C. Cir.
2019); Honeywell Int’l, Inc. v. EPA, 705 F.3d 470, 472–
473 (D.C. Cir. 2013); Sierra Club de Puerto Rico v.
EPA, 815 F.3d 22, 26 (D.C. Cir. 2016). A claim “ripens”
for purposes of the Clean Air Act when “subsequent
factual or legal development creat[es] new legal
consequences” for the party seeking review. Sierra
Club de Puerto Rico, 815 F.3d at 28. This type of
delayed challenge is commonly referred to as an “after
arising” claim.
We agree with the Coal Petitioners that the ACE
Rule is an after-arising event that ripened their
challenge to the New Source Rule’s endangerment
finding.
When the EPA promulgated the New Source Rule in
2015, the Coal Petitioners did not challenge that rule’s
endangerment finding.14 That is because they did not
14 The Coal Petitioners claim that there is no timeliness
problem because two trade associations with which the Coal
Petitioners are affiliated—the National Mining Association and
the United States Chamber of Commerce—challenged the New
Source Rule. Coal Pet’rs Reply Br. 3 & n.2. There is no evidence
or declaration regarding that relationship in the record, aside
from counsel’s representation at oral argument. Oral Argument
Tr. 131:13–17. Because we hold that the after-arising exception
makes the Coal Petitioners’ own challenge timely, we do not

115a
plan “to build any new facilities affected by the New
Source Rule,” and so were not directly affected by it.
Coal Pet’rs Reply Br. 3. But when the ACE Rule used
the New Source Rule as the predicate for regulating
existing coal-fired power plants, ACE Rule, 84 Fed.
Reg. at 32,533, the Coal Petitioners became concretely
aggrieved by the finding.
Under those circumstances, the Coal Petitioners’
challenge to the New Source Rule as an insufficient
predicate for the ACE Rule is timely. If the Coal
Petitioners had filed suit when the New Source Rule
was first promulgated in 2015, their standing would
have been in doubt because they did not have any, or
intend to build any, new power plants. An asserted
injury arising from how the New Source Rule might
come to affect the regulation of their existing plants in
the future might well have been too speculative to
support judicial review. See Coalition for Responsible
Regulation, 684 F.3d at 115–116, 129–131 (challenge
to preexisting regulations was timely, where
regulations first affected petitioners due to the recent
promulgation of rule targeting motor vehicle
emissions); see also Sierra Club de Puerto Rico, 815
F.3d at 27; Honeywell, Int’l, 705 F.3d at 473. That is
why “this court has assured petitioners with unripe
claims that ‘they will not be foreclosed from judicial
review when the appropriate time comes,’ * * * and
that they ‘need not fear preclusion by reason of the 60day stipulation barring judicial review,’” as long as
they file a petition within 60 days of the injury that

address the relevance, if any, of a prior trade association
challenge.

116a
ripened their claim. Coalition for Responsible
Regulation, 684 F.3d at 131 (formatting modified).
The EPA urges that the Coal Petitioners could have
pressed a challenge to the New Source Rule in 2015 at
the latest, as other coal-related entities did, once the
EPA promulgated the Clean Power Plan in reliance on
the New Source Rule’s endangerment finding. See
North Dakota v. EPA, No. 15-1381 (and consolidated
cases).
Perhaps. See North American Coal Corp. v. EPA,
No. 15-1451 (D.C. Cir.) (consolidated with West
Virginia v. EPA, No. 15-1363 (D.C. Cir.)). But that
would argue over spilled milk. The Clean Power Plan
litigation came to a halt when the EPA reconsidered
that rule, and the case was ultimately dismissed as
moot after the ACE Rule withdrew the Clean Power
Plan. Per Curiam Order, West Virginia v. EPA, No. 151363 (D.C. Cir. Sept. 17, 2019), ECF No. 1806952. The
Coal Petitioners have raised their claim in the ACE
Rule litigation, and it would seem perverse to say they
instead should have litigated the matter in a case that
will never be decided.15

15 There is a second exception to the timeliness bar known as
the “reopening rule.” See, e.g., Environmental Def. v. EPA, 467
F.3d 1329, 1333 (D.C. Cir. 2006). The gist of that rule is that the
60-day jurisdictional review window restarts when an agency,
either explicitly or implicitly, reconsiders its former action. See
National Ass’n of Reversionary Prop. Owners v. Surface Transp.
Bd., 158 F.3d 135, 141 (D.C. Cir. 1998); National Mining Ass’n v.
United States Dep’t of Interior, 70 F.3d 1345, 1351 (D.C. Cir.
1995). Because the after-arising ripeness exception preserves the
Coal Petitioners’ claim, we need not address the reopening
doctrine.

117a
c. Adequacy of the Endangerment Finding
On the merits, the Coal Petitioners press a two-fold
challenge to the EPA’s compliance with the
endangerment-finding requirement. First, they argue
that Section 7411(b) requires the EPA to make a
pollutant-specific endangerment finding for each
stationary source category newly regulated under that
provision. In their view, even though the EPA had
already found that carbon dioxide emissions
significantly cause or contribute to greenhouse gas air
pollution that endanger the public health or welfare,
the EPA also separately had to find that carbon
dioxide specifically from coal-fired power plants is a
significant source of that danger. 2009 Endangerment
Finding, 74 Fed. Reg. at 66,499, 66,542 (for motor
vehicles). Second, the Coal Petitioners claim that the
EPA did not make such a finding, leaving it without
authority to enact the ACE Rule.
We need not address the Coal Petitioners’ first
argument. Even assuming that Section 7411(b)
requires a source-specific endangerment finding for
each pollutant, the EPA made a sufficient finding in
the New Source Rule.
i. The New Source Rule
Before
making
the
New
Source
Rule’s
endangerment finding keyed to carbon dioxide from
new fossil-fuel-fired power plants, the EPA explained
its “rational basis” for regulating those sources’
emissions of that pollutant under Section 7411. New
Source Rule, 80 Fed. Reg. at 64,530. The EPA first
outlined why greenhouse gas emissions pose a danger
to the public health and welfare, and then explained

118a
why it should regulate those emissions from power
plants specifically.
For evidence of the harms posed by greenhouse gas
air pollution, the EPA first pointed to its 2009
Endangerment Finding, made in connection with the
motor vehicle emissions regulation at issue in
Coalition for Responsible Regulation. New Source
Rule, 80 Fed. Reg. at 64,530. There, this court upheld
as reasonable the EPA’s finding that greenhouse gas
emissions threaten public health and welfare. Id.; see
also Coalition for Responsible Regulation, 684 F.3d at
119–126.
In the 2015 New Source Rule, the Agency reviewed
substantial
scientific
evidence,
including
contemporary studies from the National Research
Council, the Intergovernmental Panel on Climate
Change, and others that post-dated the record from
the 2009 motor vehicle emissions regulation. 80 Fed.
Reg. at 64,530–64,531; see also id. at 64,517–64,520
(detailing updated developments in scientific
evidence). The EPA found that the new studies “len[t]
further credence to the validity of the [2009]
Endangerment Finding.” Id. at 64,530. The EPA
added that “[n]o information that commentators have
presented or that the EPA has reviewed provides a
basis for reaching a different conclusion,” and that the
science at the time had reaffirmed its understanding
of the effects of greenhouse gases on the public health
and welfare. Id. “The facts,” the EPA concluded,
“unfortunately, have only grown stronger and the
potential adverse consequences to public health and
the environment more dire in the interim.” Id. at
64,531.

119a
The EPA next explained its reasons for regulating
greenhouse gases from fossil-fuel-fired power plants
specifically, pointing to the exceptionally high levels of
emissions from those power plants. See New Source
Rule, 80 Fed. Reg. at 64,522–64,523, 64,530. To that
end, the EPA found that fossil-fuel-fired power plants
are the largest stationary sources of greenhouse gas
emissions in the United States, accounting for nearly
one-third of the United States’ greenhouse gas
emissions and as much as three times the emissions
from the next ten categories of stationary sources
combined. Id. at 64,530. Coal-fired power plants in
particular, the EPA added, are the largest of those
large emitters, with just one coal-fired power plant
emitting potentially millions of tons of carbon dioxide
annually. Id. at 64,531. In that way, power plant
emissions “far exceed[ed] in magnitude the emissions
from motor vehicles,” which had been the subject of the
endangerment finding upheld in Coalition for
Responsible Regulation. Id.
ii. All Required Findings Were Made
The Coal Petitioners acknowledge the EPA’s
findings, but argue that Section 7411 requires a twopart endangerment finding—that carbon dioxide from
fossil-fuel-fired power plants (1) endangers the public
health and welfare, and (2) causes or contributes
significantly to greenhouse gas air pollution. See 42
U.S.C. § 7411(b)(1)(A) (findings must be for the
“category of sources”). The Coal Petitioners do not
contest that carbon dioxide endangers the public
health and welfare. See Oral Argument Tr. 129:21–22.
Instead, they train their arguments on the second
prong, arguing that the New Source Rule did not

120a
properly make a finding that fossil-fuel-fired power
plants “contribute[] significantly” to greenhouse gas
pollution. First, they fault the EPA for relying on the
New Source Rule, which provided a rational basis for
regulation to support a significant-contribution
finding.16 Second, they argue that the EPA arbitrarily
and capriciously failed to define the threshold
measure of a “significant” contribution.
To survive those challenges, the EPA needed only to
“articulate a satisfactory explanation” for the New
Source Rule’s endangerment finding, making a
“rational connection between the facts found and the
choice made.” Motor Vehicle Mfrs. Ass’n v. State Farm
Mut. Auto. Ins. Co. (State Farm), 463 U.S. 29, 43
(1983) (quoting Burlington Truck Lines v. United
States, 371 U.S. 156, 168 (1962)). For an
endangerment finding, that choice need not include a
“precise numerical value” that defines the threshold at
which air pollution endangers the public health and
welfare. Coalition for Responsible Regulation, 684
F.3d at 122. Instead, a “‘more qualitative’ approach,”
The Coal Petitioners also argue that the EPA was wrong to
rely on the 2009 Endangerment Finding because it used the lower
“more than a de minimis or trivial” contribution standard. Coal
Pet’rs Br. (quoting 2009 Endangerment Finding, 74 Fed. Reg. at
66,542). But the New Source Rule relies on the 2009
Endangerment Finding only for part one of the endangerment
finding test—that greenhouse gas pollution may reasonably be
anticipated to endanger the public health and welfare—which the
Coal Petitioners do not contest. See New Source Rule, 80 Fed.
Reg. at 64,530–64,531. The EPA separately considered the
volume of greenhouse gas emissions that motor vehicles
contribute to the problem and found it significant. See 2009
Endangerment Finding, 74 Fed. Reg. at 66,499, 66,543; Coalition
for Responsible Regulation, 684 F.3d at 128.
16

121a
employing reasoned predictions based on “empirical
data and scientific evidence,” may suffice. Id. at 123
(quoting Ethyl Corp. v. EPA, 541 F.2d 1, 56 (D.C. Cir.
1976)). Such an approach “is a function of the
precautionary thrust of the [Clean Air Act] and the
multivariate and sometimes uncertain nature of
climate science, not a sign of arbitrary or capricious
decision-making.” Id. By that measure, both of the
Coal Petitioners’ objections fail.
For starters, it is perfectly permissible, and
commendably efficient, for an agency to re-confirm
and build consistently upon such formally made
factual determinations. It makes eminent sense, for
example, for the EPA to take what it learned in
regulating automobiles’ greenhouse gas emissions and
apply that in evaluating the need for regulation of
another source of the same pollutant—fossil-fuel-fired
power plants. What matters here is that the EPA did
not simply conclude that power plants’ greenhouse gas
emissions significantly contribute to air pollution and
stop there. Instead, the EPA went on to explain why
that significant-contribution finding was warranted.
See New Source Rule, 80 Fed. Reg. at 64,530–64,531
(explaining that power plants are the largest
stationary sources of domestic greenhouse gas
emissions and that each coal-fired plant may emit
millions of tons of carbon dioxide per year).
The Coal Petitioners’ argument that the EPA failed
to articulate a specific threshold measurement for
significance fares no better. While the failure to
identify the trigger point for significance might prove
problematic in cases at the margins, the EPA sensibly
found that this one is not even close. Because of their
substantial contribution of greenhouse gases, “under

122a
any reasonable threshold or definition,” carbon dioxide
from fossil-fuel-fired power plants represents “a
significant contribution” to air pollution. New Source
Rule, 80 Fed. Reg. at 64,531; cf. Massachusetts v. EPA,
549 U.S. at 525 (While domestic automobile emissions
accounted for less than one-third of the United States’
domestic emissions, “[j]udged by any standard, U.S.
motor-vehicle emissions make a meaningful
contribution to greenhouse gas concentrations and
* * * to global warming.”).
In that regard, we have already held that nothing in
the Clean Air Act “require[s] that [the] EPA set a
precise numerical value as part of” a contribution
endangerment finding. Coalition for Responsible
Regulation, 684 F.3d at 122 (applying Section
7521(a)(1) of the Clean Air Act). So the “EPA need not
establish a minimum threshold of risk or harm before
determining whether an air pollutant endangers.” Id.
at 123.
Nevertheless, the Coal Petitioners insist that,
before finding significance, the EPA had to decide
whether its inquiry would (1) address domestic or
global emissions, (2) be measured by a “simple
percentage criterion” or another metric, (3) factor in
historical trends and/or future projections, and (4)
involve a different process for greenhouse gases than
other pollutants. See Coal Pet’rs Br. 17. Whether the
EPA could reasonably decide to factor in such
considerations is not before us. What matters here is
that nothing in the Clean Air Act or precedent
mandates determinations on each of those factors—at
least not in a case in which there is no showing that
any of them would have made any difference. Given
that the United States, at the time of the

123a
endangerment finding, was the second-largest emitter
of greenhouse gases in the world, see 2009
Endangerment Finding, 74 Fed. Reg. at 66,538, it was
not arbitrary or capricious for the EPA to conclude
that the source of close to one-third of those emissions
is a significant contributor to air pollution by any
measure. The global nature of the air pollution
problem means that “[a] country or a source may be a
large contributor, in comparison to other countries or
sources, even though its percentage contribution may
appear relatively small” in the context of total
emissions worldwide. Id. Looking just at the Coal
Petitioners’ calculations, power plants contributed a
hefty 4.5 percent to global greenhouse gas emissions
in 2013. See Coal Pet’rs Br. 18. More to the point, a
holding that greenhouse gas emissions by fossil-fuelfired power plants are not significant would make it
nigh impossible for any source of greenhouse gas
pollution to cross that statutory threshold.17
For those reasons, we hold that the New Source
Rule’s endangerment finding provided a sufficient
basis for the EPA’s promulgation of the ACE Rule.

The EPA recently solicited public comment through a
proposed rule on the appropriateness of considering such factors
when making a significant-contribution finding. See Oil and
Natural Gas Sector: Emission Standards for New, Reconstructed,
and Modified Sources Review, 84 Fed. Reg. 50,244, 50,269 (Sept.
24, 2019). But the EPA explained that the comments on the
proposed rule are meant only “to inform the EPA’s actions in
future rules,” id. at 50,267, and explicitly declined to consider the
merits of the comments or adopt any of the factors in that final
rule, see Oil and Natural Gas Sector: Emission Standards for
New, Reconstructed, and Modified Sources Review, 84 Fed. Reg.
57,018, 57,058 (Sept. 14, 2020).
17

124a
2. Section 7411 and Section 7412’s
Parallel Operation
a. Background on the 1990 Amendments
The Coal Petitioners next argue that the Clean Air
Act expressly and unambiguously prohibits the EPA
from regulating coal-fired power plants’ carbon dioxide
emissions under Section 7411(d) because those same
power plants’ mercury emissions are regulated under
Section 7412’s Hazardous Air Pollutants provision.
The relevant statutory text says otherwise.
To set the stage, as relevant here, the Clean Air Act
regulates pollutants emitted by stationary sources like
power plants under three distinct programs: (1) the
National Ambient Air Quality Standards (NAAQS)
program that applies to emissions of six common air
pollutants, 42 U.S.C. §§ 7408–7410; (2) the regulation
of certain specified pollutants under the Hazardous
Air Pollutants program, 42 U.S.C. § 7412; and (3) the
regulation of all other dangerous pollutants from new
and existing sources under Section 7411.
Congress designed the existing source provision in
Section 7411(d) to ensure that there were “no gaps in
control activities pertaining to stationary source
emissions that pose any significant danger to public
health or welfare.” S. REP. NO. 91-1196, at 20 (1970).
So Section 7411(d), in its gap-filling capacity, covers
all dangerous pollutants except those already
regulated by NAAQS or the Hazardous Air Pollutants
provision. See Clean Air Act Amendments of 1990
(“1990 Amendments”), Pub. L. No. 101-549, § 108(g),
§ 302(a), 104 Stat. 2399, 2467, 2574.
From the passage of the Clean Air Act until its
amendment in 1990, Congress had left substantially

125a
to the EPA the task of building a program to effectively
identify and regulate hazardous air pollutants under
Section 7412. Specifically, Section 7412(b)(1)(A)—
Section 112(b)(1)(A) of the 1970 Public Law—had
instructed the EPA to publish a list of hazardous air
pollutants that it would then regulate under Section
7412’s terms. See Clean Air Act Amendments of 1970
(“1970 Amendments”), Pub. L. No. 91-604, sec. 4(a),
§ 112(b)(1)(A), 84 Stat. 1676, 1685. Section 7411(d), for
its part, covered “any air pollutant * * * for which air
quality criteria have not been issued or which is not
included on a list published under section * * *
112(b)(1)(A)” by the EPA. Id., sec. 4(a), § 111(d)(1)(A),
84 Stat. at 1684.
After two decades, Congress found that Section
7412 had “worked poorly” in that the EPA had
regulated only eight hazardous pollutants under
Section 7412. S. REP. NO. 102-228, at 128 (1989); see
id. at 131. Through the 1990 Amendments to Section
7412, Congress forced the EPA’s hand by statutorily
designating 191 hazardous pollutants that Congress
required the EPA to regulate. See 1990 Amendments,
sec. 301, § 112(b)(1), 104 Stat. at 2532–2535 (codified
at 42 U.S.C. § 7412(b)(1)); see also S. REP. NO. 102-228,
at 133. Congress also called on the EPA to add to the
list. 1990 Amendments, sec. 301, § 112(b)(2)–(3), 104
Stat. at 2535–2537 (codified at 42 U.S.C. § 7412(b)(2)–
(3)). Neither greenhouse gases in general nor carbon
dioxide in particular were on Congress’ statutory list.
Nor have they ever been added by the EPA.
That change to Section 7412(b) necessitated a
corresponding technical change to Section 7411(d)’s
carve-out of pollutants already regulated under the
Hazardous Air Pollutants program, since the cross-

126a
referenced “list published under section * * *
112(b)(1)(A)” no longer existed. Congress’ update of
the statutory cross-reference is the root of the present
dispute. That is because each chamber of Congress
articulated the technical correction differently, and
yet both were enacted into law.
The Senate—in a section entitled “Conforming
Amendments”—passed a straightforward amendment
that struck “112(b)(1)(A)” from the Section 7411(d)
exclusion, and replaced it with “112(b)”—which is the
provision containing the new statutory list of
hazardous pollutants to which the EPA could later
add. 1990 Amendments, § 302(a), 104 Stat. at 2574.
Just as before the 1990 Amendments, under the
Senate Amendment, only hazardous pollutants on the
Section 7412 list were excluded from Section 7411(d)’s
regulation of existing sources’ emissions, while
dangerous pollutants not addressed by the Hazardous
Air Pollutants or NAAQS programs remained in
Section 7411(d)’s domain.
The House, for its part, called its technical
amendment of the cross-reference “Miscellaneous
Guidance,” and it similarly deleted “112(a)(1)(B)[,]”
and then excluded any air pollutant that is “emitted
from a source category which is regulated under
section 112.” 1990 Amendments, § 108, 108(g), 104
Stat. at 2465, 2467.
Both of those amendments made it into the
Conference Report, H.R. REP. NO. 101-952, at 73, 183
(1990) (Conf. Rep.), and, after being passed by both
chambers of Congress and signed by the President,
they both became part of the Public Law.

127a
Congress’ Office of the Law Revision Counsel is
tasked with compiling and codifying the public law
and publishing it in the United States Code. The
Counsel, of course, has no authority to alter the
substance of the Statutes at Large. See Ganem v.
Heckler, 746 F.2d 844, 851 (D.C. Cir. 1984) (“[T]he
changes made by the codifiers, whose ‘choice, made
* * * without approval of Congress * * * should be
given no weight,’ are of no substantive moment.”)
(internal quotation marks omitted) (quoting North
Dakota v. United States, 460 U.S. 300, 310 n.13
(1983)); see also Positive Law Codification, OFFICE OF
LAW
REVISION
COUNSEL,
THE
https://uscode.house.gov/codification/legislation.shtml
(last visited Jan. 11, 2021) (For non-positive law titles,
such as Title 42, “there are certain technical, although
non-substantive, changes made to the text for
purposes of inclusion in the Code.”).
When faced with the Senate and House
Amendments’ differing articulations of the crossreference update, the Counsel chose to publish only
the House Amendment in the United States Code.
b. Interpreting the House and Senate
Amendments
The Coal Petitioners argue that the House
Amendment’s technical update of the cross-reference
actually worked a major substantive change in the law
by categorically and unambiguously excluding from
Section 7411 not the hazardous pollutants already
regulated under Section 7412, but any stationary
sources of hazardous pollutants regulated under
Section 7412. In their view, once a source is subject to
regulation under Section 7412 for any single listed

128a
hazardous pollutant, all of its other pollution
emissions are off limits for regulation under Section
7411(d). More specifically, the Coal Petitioners’
position is that, because the EPA regulates one
hazardous air pollutant—mercury—emitted from
coal-fired power plants, the EPA is powerless to
regulate under Section 7411(d) every other non“hazardous,” but still significantly dangerous,
pollutant those same power plants emit, including
greenhouse gases.18
On the other hand, for thirty years—from the
enactment of the 1990 Amendments to the present
day—the EPA has read the House’s “Miscellaneous
Guidance” as just that—a miscellaneous technical
amendment that, like the Senate Amendment, simply
updated the Section 7411(d) cross-reference to exclude
the regulation of a stationary source’s emission of
pollutants that are already regulated under Section
7412.
For the Coal Petitioners’ challenge to succeed, we
would have to agree with their ambitious reading of
the House Amendment as precluding regulation under
Section 7411 of even those pollutants that are not
covered by Section 7412. We also would have to ignore
the duly enacted Senate Amendment entirely. And we
would have to reject out of hand the EPA’s threedecade-old harmonizing reading of the statutory
amendments, the text of Section 7411(d), and the

See National Emission Standards for Hazardous Air
Pollutants from Coal- and Oil-Fired Electric Utility Steam
Generating Units, 77 Fed. Reg. 9304 (Feb. 16, 2012) (regulating
mercury).
18

129a
statutory structure. We decline the invitation because
that is not how statutory interpretation works.
At the outset, the EPA seeks deference under
Chevron U.S.A. Inc. v. Natural Resources Defense
Council, Inc., 467 U.S. 837 (1984). If this were an
ordinary EPA interpretation of a Clean Air Act
provision, we would apply exactly that framework. See
UARG, 573 U.S. at 315 (“We review EPA’s
interpretations of the Clean Air Act using the
standard set forth in Chevron[.]”).
But this is no ordinary case. Here, the way in which
the codifiers assembled the U.S. Code version of
Section 7411(d) by omitting the Senate Amendment
conflicts with the Statutes at Large, which is the
definitive legal evidence of what the law is. 1 U.S.C.
§ 112; see id. § 204(a) (United States Code provides
only prima facie evidence of the federal law). So any
ambiguity arises from our duty to textually harmonize
two duly enacted but differently articulated statutory
provisions. In undertaking that task, we need not
decide whether Chevron supplies the appropriate
framework for reconciling conflicting statutory
provisions. Compare Scialabba v. Cuellar de Osorio,
573 U.S. 41, 64 (2014) (Kagan, J.) (plurality opinion),
with id. at 76 (Roberts, C.J.) (concurring in the
judgment). Instead, we independently reach the same
conclusion as the EPA, harmonizing the House and
Senate Amendments by giving “full effect” to both. Id.
at 64.
i. The Consistent Meaning of Both
Amendments
In reconciling the Senate and House Amendments,
we start with what the mission of the amendments

130a
was. The plain purpose of each amendment was to
update Section 7411(d)’s outdated cross-reference to a
list created by the EPA under Section 7412(b)(1)(A), in
light of Congress’ publication of its new statutory list
under Section 7412(b). That is why the Senate labeled
its provision a “[c]onforming [a]mendment,” and the
House called its version “[m]iscellaneous [g]uidance.”
See 1990 Amendments, § 302(a), 104 Stat. at 2574
(Senate Amendment); id. § 108(g), 104 Stat. at 2465,
2467 (House Amendment). Neither amendment was
meant to work a major substantive change in the law.
The Senate took the most direct textual path to
updating Section 7411(d)’s cross-reference. Using the
Public Law section number for Section 7412 (that is,
Section 112), the Senate Amendment simply
substituted “section 112(b)” for the outdated reference
to “section 112(b)(1)(A).” See 1990 Amendments,
§ 302(a), 104 Stat. at 2574. That way, the Senate
Amendment maintains the parallelism of the two
exclusions in Section 7411(d) for already-regulated
pollutants that are either “included on a list published
under section 108(a) [NAAQS] or 112(b) [the
Hazardous Air Pollutants provision.]” Id. § 302(a), 104
Stat. at 2574 (incorporating Senate Amendment into
the preexisting 1970 text, see 1970 Amendments, sec.
4(a), § 111(d)(1)(A), 84 Stat. at 1684). Both
exclusionary clauses continue, as they had before the
1990 Amendments, to refer directly to specific air
pollutants listed for regulation under other statutory
provisions, and so to prevent duplicate regulation of
the same harmful emissions.
The House Amendment was less efficient, but ended
up in the same place. It substituted for “section
112(b)(1)(A)” the phrase an air pollutant that is

131a
“emitted from a source category which is regulated
under section 112[.]” 1990 Amendments, § 108(g), 104
Stat. at 2467 (codified at 42 U.S.C. § 7411(d)(1)(A)(i)).
So, with the House Amendment’s phrasing, Section
7411(d)’s exclusion reads, as relevant here, that each
State shall
establish[] standards of performance for any
existing source for any air pollutant (i) for which
air quality criteria have not been issued or which
is not included on a list published under section
7408(a) of this title [the NAAQS program] or
emitted from a source category which is regulated
under section 7412 of this title [the Hazardous Air
Pollutant program] but (ii) to which a standard of
performance under this section would apply if
such existing source were a new source[.]
42 U.S.C. § 7411(d)(1)(A).
Reading the House Amendment within Section
7411(d)(1) “in [its] context and with a view to [its]
place in the overall statutory scheme” shows that the
House Amendment, like the Senate Amendment, just
updated the cross-reference to exclude pollutant
emissions already regulated for stationary sources
under the Hazardous Air Pollutant program. King v.
Burwell, 576 U.S. 473 (2015) (quoting FDA v. Brown
& Williamson Tobacco Corp., 529 U.S. 120 (2000)).
First, the entire point of the text that follows (i)—
that is, romanette one—is to modify the phrase “air
pollutant.” “Air pollutant” is, in fact, the last
antecedent to which all of the language in romanette
one speaks. And grammatically, the last-antecedent
rule means that a limiting phrase is generally read to
“modify[] only the noun or phrase that it immediately

132a
follows.” Lockhart v. United States, 136 S. Ct. 958, 962
(2016) (quoting Barnhart v. Thomas, 540 U.S. 20, 26
(2003)). In other words, the whole point of romanette
one, including the House Amendment language, is to
define which “air pollutant[s]” cannot be regulated
under Section 7411(d) because those same pollutants
are already regulated under the NAAQS or Hazardous
Air Pollutants programs.
Second, reading the entirety of romanette one to
modify “air pollutant” gives the updated crossreference to Section 7412 full meaning.19 See UARG,
573 U.S. at 317 (The phrase “any air pollutant” in
Section 7411 must be given “a reasonable, contextappropriate meaning[.]”). The EPA has regulated over
140 source categories under Section 7412. EPA Br.
180. But it regulates only their emission of hazardous
pollutants. In other words, Section 7412’s regulatory
scheme operates not broadly on the source category,
but only on its emissions of the specified air pollutants.
So Section 7412 does not and cannot police a source
Contrary to the separate opinion’s view, see Separate Op.
34, use of the term “source category” (rather than “list”) leaves
open whether the EPA might regulate, in its Section 7411(d) gapfilling capacity, the emission even of hazardous air pollutants
listed under Section 7412 when emitted by sources that Section
7412 does not reach, but to which Section 7411 does apply, see 42
U.S.C. § 7412(c)(1), (3)–(6); see also Clean Power Plan, 80 Fed.
Reg. at 64,714–64,715 (stating that “both the House and Senate
amendments should be read individually as having the same
meaning in the context presented in this rule,” but that “it is
reasonable to interpret the House amendment of the Section
[7412] Exclusion as only excluding the regulation of [hazardous
air pollutant] emissions under [Clean Air Act] section [7411(d)]
and only when that source category is regulated under [Clean Air
Act] section [7412.]”) (emphasis added).
19

133a
category’s every emission, only its emission of
“hazardous” air pollutants. That is why it is called the
Hazardous Air Pollutants program, not the Hazardous
Sources program. Reading Section 7411(d) as
excluding only those air pollutants already governed
by Section 7412’s emissions regulations maps exactly
onto romanette one’s parallel exclusion of pollutants
(not sources) already regulated under NAAQS. See 42
U.S.C. § 7411(d)(1)(A)(i). And it fits with Section
7411’s gap-filling purpose, which is to capture those
dangerous air pollutants not covered by NAAQS or the
Hazardous Air Pollutants program. See S. REP. NO. 911196, at 20.
Third, at the same time that Congress amended
Section 7411(d), it also added a savings clause, Section
7412(d)(7), to the Hazardous Air Pollutants provision.
That provision says that “[n]o emission standard or
other requirement promulgated under this section
shall be interpreted, construed, or applied to diminish
or replace * * * applicable requirements established
pursuant to section [7411], part C or D[.]” 1990
Amendments, sec. 301, § 112(d)(7), 104 Stat. at 2540–
2541 (codified at 42 U.S.C. § 7412(d)(7)). That
language requires reading Section 7411(d)’s
simultaneously enacted cross-reference to regulation
under Section 7412 narrowly and consistently with
Section 7411(d)’s complementary role in the statutory
scheme. It certainly does not allow courts to read the
cross-reference as the major amputation of authority
to regulate that the Coal Petitioners propose.

134a
ii. The House Amendment Is Not a
Trojan Horse
The Coal Petitioners and the separate opinion
eschew reading the House and Senate updates of the
cross-reference harmoniously. They prefer to pit the
House Amendment against the Senate Amendment
and espy in the former a major change in the law
that—without a word of warning or explanation—
would have significantly curtailed the regulation of air
pollutants and broadly insulated stationary sources
from regulatory oversight for their non-hazardous but
still-dangerously polluting emissions.
There is a litany of problems with that approach.
For starters, recall that the House and Senate
Amendments were meant to address an outdated
statutory cross-reference. It is not the function of a
single chamber’s miscellaneous guidance or
conforming amendment of a cross-reference to
materially overhaul or truncate a statutory provision’s
operative reach. Instead, reading both amendments
together as serving the same purpose of crossreferencing a new statutory list of air pollutants fits
with their legislative purpose and text. To be sure, the
Clean Air Act “is far from a chef d’oeuvre of legislative
draftsmanship,” but “we, and EPA, must do our best,
bearing in mind the ‘fundamental canon of statutory
construction that the words of a statute must be read
in their context and with a view to their place in the
overall statutory scheme.’” UARG, 573 U.S. at 320
(quoting Brown & Williamson, 529 U.S. at 133).
More to the point, neither the House nor Senate
Amendment said anything about changing the EPA’s
affirmative regulatory obligation under Section

135a
7411(d) to promulgate emissions guidelines for all air
pollutants, except those already regulated under the
NAAQS or Section 7412. Yet reading the House
Amendment as abruptly withdrawing from Section
7411(d)’s reach entire source categories and all of the
otherwise-unregulated emissions they spew would put
the House Amendment in direct conflict with not only
the unambiguous language of the Senate Amendment,
but also with the Clean Air Act’s gap-filling structure
and purpose, as well as with EPA’s overarching
regulatory obligation. And it would supposedly do all
of that contrary to the statutory history, in defiance of
the technical and updating nature of the two
Amendments, and without a whisper of warning by a
single House or Senate member that the
miscellaneous guidance would cripple Section 7411’s
correlative function in the statutory scheme.
At best, the Coal Petitioners’ and separate opinion’s
vision of the House Amendment would have the EPA’s
regulatory authority under Section 7411(d) turn on a
fluke of timing. The Section 7412(d)(7) savings clause
mentioned above, by its terms, protects the operation
of Section 7411 regulations already in effect. So, too,
does the House Amendment, which only excises what
already “is regulated” under Section 7412. Under the
Coal Petitioners’ approach, then, the Clean Air Act
would allow the EPA to regulate sources under both
Section 7411(d) and Section 7412 if, and only if, the
EPA adopted its Section 7411(d) regulation before the
Section 7412 regulation. No rational explanation is
offered as to why Congress would want the mere
sequencing of regulations to render them either lawful
or invalid.

136a
More to the point, the Coal Petitioners and the
separate opinion point to nothing in the legislative
record even hinting at a rationale for removing Section
7412 sources entirely from Section 7411’s reach.
Nothing suggests that Congress intended to veer off in
that substantive legislative direction. The Senate
certainly had no such intention.
The Coal Petitioners suggest that the EPA could
instead regulate carbon dioxide under Section 7412.
But they do not really mean it, as they say in the same
breath that carbon dioxide would be a “poor fit” for
Section 7412. Coal Pet’rs Br. 33 n.8. That is because
Section 7412 strictly regulates all sources that emit
ten tons per year or more of hazardous pollutants. 42
U.S.C. § 7412(a)(1). Adding carbon dioxide to that list
would lead to a massive regulatory expansion of EPA
authority to include everything from schools to
hospitals and apartment buildings. Cf. UARG, 573
U.S. at 328. It would make no sense to conclude that
Congress intended an unheralded string of words in a
“Miscellaneous Guidance” amendment to hobble the
gap-filling function of Section 7411(d) and to disable
the EPA from addressing the source of one-third of this
country’s greenhouse gas emissions.
Nor can the Coal Petitioners hang their hats on the
inclusion of the House Amendment in the codified
version of Section 7411(d). Putting aside that the two
amendments readily can, and so must, be read
harmoniously as just updating the exclusion of
already-regulated air pollutants, it is settled that “the
Code cannot prevail over the Statutes at Large when
the two are inconsistent.” Stephan v. United States,
319 U.S. 423, 426 (1943); see also Five Flags Pipe Line
Co. v. Department of Transp., 854 F.2d 1438, 1440

137a
(D.C. Cir. 1988) (“[W]here the language of the Statutes
at Large conflicts with the language in the United
States Code that has not been enacted into positive
law, the language of the Statutes at Large controls.”).
The Coal Petitioners’ and the separate opinion’s
other efforts to cast aside the Senate Amendment all
fail.
First, the Coal Petitioners and the separate opinion
point to the Chafee-Baucus Statement of Senate
Managers, in which Senators Chafee and Baucus
addressed the negotiations surrounding the
“Miscellaneous Guidance” in the 1990 Amendments.
Using this statement, the Coal Petitioners and the
separate opinion try to brush off the duly enacted
Senate Amendment as a scrivener’s or drafter’s error.
To that end, they stress the Managers’ statement that,
in the “Conference agreement,” the “Senate recedes to
the House except * * * with respect to the requirement
regarding judicial review of reports * * * and with
respect to transportation planning[.]” 136 CONG. REC.
36,007, 36,067 (Oct. 27, 1990).
That argument does not even get out of the starting
gate. It should go without saying that two Managers’
description of what a report said does not override the
Conference Report itself. And it surely cannot erase
the Senate Amendment text that was enacted by both
the House and the Senate, and signed into law by the
President.
In fact, the Managers were wrong about what the
Conference Report said. What the Conference Report
actually says is that “the Senate recede[s] from its
disagreement to the amendment of the House to the
text of the bill and agree to the same with an

138a
amendment as follows.” H.R. REP. NO. 101-952, at 1
(Conf. Rep.) (emphasis added). The “amendment [that]
follow[ed]” included the text of the Senate Amendment
as well as the House Amendment. See id. at 73, 183.
So the agreement retained the Senate Amendment
language; the Senate plainly did not withdraw it. The
accompanying joint explanatory statement of the
Conference Committee confirms that the Senate
receded to the House subject to this amendment,
“which [was] a substitute for the Senate bill and the
House amendment” and contained both the House and
Senate Amendments at issue here. See id. at 335.
Beyond that, the Chafee-Baucus statement cannot
bear the weight the Coal Petitioners and the separate
opinion need it to carry. At most, as a “statement of
managers,” it purports to summarize the more than
800-page Conference Report. 136 CONG. REC. at
36,065. We generally do not view such statements as
persuasive evidence of congressional intent, let alone
an
excuse
for
unceremoniously
discarding
unambiguous statutory text as a “drafter’s error.” See
Separate Op. at 25 cf. Weyerhaeuser Co. v. Costle, 590
F.2d 1011, 1052 n.67 (D.C. Cir. 1978). Not to mention
that we have specifically ruled that this very same
floor statement carries little weight. Environmental
Def. Fund, Inc. v. EPA, 82 F.3d 451, 460 n.11 (D.C. Cir.
1996). Simply put, the statement’s purpose was to
explain the report, not to change the content of the
law, to resolve substantive conflicts, or to effect
sweeping change in the statute’s reach. See Glossary
Term: Statement of Managers, U.S. SENATE,
https://www.senate.gov/reference/glossary_term/state
ment_of_managers.htm (last visited Jan. 11, 2021).

139a
Second, the Coal Petitioners argue that we should
disregard the Senate Amendment because it is a
“[c]onforming [a]mendment.” See 1990 Amendments,
§ 302, 104 Stat. at 2574. A conforming amendment can
serve to harmonize statutory provisions, which is
exactly what the Senate Amendment did by updating
the cross-reference. See Burgess v. United States, 553
U.S. 124, 135 (2008).
That does not mean that the statutory provision can
be ignored. See Burgess, 553 U.S. at 135. The Senate
Amendment’s careful maintenance of the status quo
through a cross-reference update evidences a
deliberate preservation of the prior regulatory scope of
Section 7411.
By the way, if labels were what matters, the House’s
“Miscellaneous Guidance” provides no platform for the
major legislative surgery on Section 7411 that the Coal
Petitioners and the separate opinion envision.
Third, the Coal Petitioners ask us to defer to the
Office of the Law Revision Counsel’s decision to codify
the House Amendment rather than the Senate
Amendment. The separate opinion reasons as well
that the Office of Law Revision Counsel is “the leading
candidate” for deference. Separate Op. 23.
No such deference is due. While the Office of the
Law Revision Counsel has expertise in the technical
aspects of the codification process, it has no license,
without Congress’ approval, to change the substantive
meaning of enacted law or to throw away an entire
statutory provision. See Ganem, 746 F.2d at 851. That
is why the Public Law prevails over the United States
Code in case of conflict. See 1 U.S.C. § 112; Stephan,

140a
319 U.S. at 426; United States v. Welden, 377 U.S. 95,
98 n.4 (1964).
Fourth, the Coal Petitioners point to Congress’
drafting manuals, which suggest that a first-in-time
amendment, such as the House Amendment,
supersedes
a
later-in-the-legislative-process
amendment like the Senate Amendment. See U.S.
SENATE,
OFFICE
OF
LEGISLATIVE
COUNSEL,
LEGISLATIVE DRAFTING MANUAL (“SENATE MANUAL”)
§ 126(d) (1997) (“If, after a first amendment to a
provision is made * * *, the provision is again
amended, the assumption is that the earlier
(preceding) amendments have been executed.”); U.S.
HOUSE OF REPRESENTATIVES, OFFICE OF LEGISLATIVE
COUNSEL, HOUSE LEGISLATIVE COUNSEL’S MANUAL ON
DRAFTING STYLE (“HOUSE MANUAL”) § 332(d) (1995)
(“The assumption is that the earlier (preceding)
amendments have been executed.”).
One problem is that the Coal Petitioners provide no
evidence that those manuals or their provisions were
in place at the time of the 1990 Amendments.
A bigger problem is that it is doubtful that the cited
manual provisions even apply in this scenario. These
provisions are located in sections for “Cumulative
Amendments,” in which an amended provision is
added onto by later provisions. See SENATE MANUAL
§ 126(d); HOUSE MANUAL § 332(d). Both manuals
suggest that language should be added to such a
provision to “alert the reader” to the later
amendments. SENATE MANUAL § 126(d); see also, e.g.,
HOUSE MANUAL § 332(d)(1) (suggesting the following
language for a cumulative amendment: “Title XX is
amended by adding after section 123 (as added by

141a
section 802 of this Act) the following new section:”).
That alert did not happen here. The House
Amendment in Section 108 includes no reference to
the Senate Amendment in Section 302, and there is no
evidence that Congress believed it was adopting
contradictory amendments in the final law.
The biggest problem of all is that nothing in the
manuals says that a later but duly enacted
amendment that has been signed into law can be cast
aside as meaningless. Nor would it make any sense to
do so here, when Congress placed the Senate
Amendment in the logical statutory position to update
a cross-reference to Section 7412. That amendment is
located in the Public Law title addressing Hazardous
Air Pollutants and is the very first provision (in
Section 302 of the Public Law) that follows the many
changes to Section 7412’s Hazardous Air Pollutants
program (in Section 301 of the Public Law). See 1990
Amendments, title III, sec. 301, § 112, 104 Stat. at
2531; id. sec. § 302(s), 104 Stat. at 2574. The House
Amendment, on the other hand, appears as
“[m]iscellaneous [g]uidance” in the title of the Public
Law pertaining to the NAAQS program, not the
Hazardous Air Pollutants program. See 1990
Amendments, title I, § 108(g), 104 Stat. at 2467.
Finally, the Coal Petitioners and the separate
opinion insist that, by subsuming the Senate
Amendment’s targeted focus within their much
broader reading of the House Amendment, they are
somehow giving effect to both. See Coal Pet’rs Br. 29–
30; Separate Op. 28–30 The separate opinion sees it as
no different than if a father did not want to name a
child after a president from Virginia, and a mother did
not want to name the child after any president. There

142a
is no conflict there, as the separate opinion sees it,
because the mother’s sweeping prohibition includes
“every name excluded by the father (and then some).”
Separate Op. 29–30.
But, of course, it is the “and then some” that is the
problem. By vastly overshooting the technical task of
correcting a cross-reference, the separate opinion’s
and Coal Petitioners’ proposed reading of the House
Amendment is not “supplement[ing]” the Senate
Amendment’s exclusion of duplicate regulation.
Separate Op. 30. It is supplanting it by destroying the
Senate Amendment’s express preservation of Section
7411(d)’s pre-existing regulatory directive. To borrow
the analogy, the separate opinion’s vision of parental
harmony is likely to be entirely lost on the father
whose heart was set on naming his child Abraham,
Theodore, or Harry.
The Coal Petitioners’ and separate opinion’s
fundamental mistake in claiming to give effect to both
Amendments is that the statute cannot mean both
what the Senate Amendment says and what they
think the House Amendment says: Section 7411(d) as
amended in the 1990 Act cannot have simultaneously
preserved
and
eliminated
Section
7411(d)’s
preexisting reach. As this case shows, the difference is
quite material: It determines whether Section 7411(d)
allows any regulation of power plants’ greenhouse gas
emissions or not. Given that, it blinks reality to claim
that absorbing the Senate Amendment into the House
Amendment in the manner the Coal Petitioners and
the separate opinion propose somehow retains the
Senate Amendment’s independent effect. A mouse
swallowed by a snake, while still present in some
metaphysical way, hardly feels equally preserved.

143a
At bottom, when confronted with two competing and
duly enacted statutory provisions, a court’s job is not
to pick a winner and a loser. The judicial duty is to
read statutory text as a harmonized whole, not to
foment irreconcilability. See Bell Atl. Tel. Cos. v. FCC,
131 F.3d 1044, 1047 (D.C. Cir. 1997) (“Where, as here,
we are charged with understanding the relationship
between two different provisions within the same
statute, we must analyze the language of each to make
sense of the whole.”). Reading both amendments
consistently “pursue[s] a middle course” that “vitiates
neither provision but implements to the fullest extent
possible the directives of each[.]” Citizens to Save
Spencer Cnty. v. EPA, 600 F.2d 844, 871 (D.C. Cir.
1979). Said another way, the better and quite natural
reading of all of the relevant enacted statutory text,
structure, context, purpose, and history is one that
harmonizes the House and Senate Amendments,
avoids determining that one chamber of Congress
smuggled dramatic and unlikely changes to the
Agency’s regulatory authority into the Act through
miscellaneous “guidance,” and instead faithfully
accomplishes the legislative adjustment needed to
respond to the changes to Section 7412.
iii. The Harmonized Reading Stands
the Test of Time
Reading the two provisions consistently as
successfully performing their “conforming” and
“miscellaneous” task of updating Section 7411(d)’s
cross-reference to continue to exclude air pollutants
already regulated under Section 7412 also maps onto
the EPA’s consistent interpretation of the statute. And
that reading has stood the test of time, without
congressional correction. The EPA first announced its

144a
interpretation of Section 7411(d) as excluding Section
7412’s hazardous pollutants, rather than source
categories, in the immediate wake of the 1990
Amendments. See Standards of Performance for New
Stationary Sources and Guidelines for Control of
Existing Sources: Municipal Solid Waste Landfills, 56
Fed. Reg. 24,468, 24,469 (May 30, 1991) (explaining
that Section 7411(d) requires States to submit plans
for standards of performance for pollutants that
endanger the public health or welfare but are “not
‘hazardous’ within the meaning of section 112 of the
CAA and [are] not controlled under sections 108
through 110 of the CAA”). The EPA has not deviated
from that interpretation in the ensuing decades. Oral
Argument Tr. 174:19–22. The EPA’s view also gives
effect to Section 7411(d)’s gap-filling purpose, see S.
REP. NO. 91-1196, at 20, by allowing it to continue to
regulate dangerous pollutants that are not policed by
Section 7412 or NAAQS.
The EPA’s interpretation also dovetails with the
development of judicial precedent. The Supreme Court
has specifically addressed Section 7411(d)’s regulation
of carbon dioxide emissions from fossil-fuel-fired
power plants. In American Electric Power Co. v.
Connecticut (AEP), the Supreme Court held that the
Clean Air Act foreclosed any federal common law right
to challenge the regulation (or lack thereof) of carbon
dioxide emissions from power plants. 564 U.S. 410,
424–425 (2011). In so ruling, the Supreme Court relied
on the displacing force of Section 7411, and specifically
Section 7411(d). Id. In ruling that “the Clean Air Act
and the EPA actions it authorizes displace any federal
common-law right to seek abatement of carbon-dioxide
emissions from fossil-fuel fired powerplants,” the

145a
Supreme Court pointed directly to the Section 7411
regulatory scheme, including, “most relevant here,
§ 7411(d).” Id. at 424. The Supreme Court even noted
that the “EPA is currently engaged in a § 7411
rulemaking to set standards for greenhouse gas
emissions from fossil-fuel fired powerplants.” Id. at
425. As the Supreme Court explained, Section 7411
“‘speaks directly’ to emissions of carbon dioxide from
* * * [power] plants.” Id. at 424.
The Coal Petitioners and the separate opinion put
all their eggs in a footnote in AEP that notes Section
7411(d)’s exclusions. The footnote states that the “EPA
may not employ § 7411(d) if existing sources of the
pollutant in question are regulated under the national
ambient air quality standard program, §§ 7408–7410,
or the ‘hazardous air pollutants’ program, § 7412.”
AEP, 564 U.S. at 424 n.7. That footnote comports with
the EPA’s harmonized reading of the House and
Senate Amendments because it says that Section
7411(d) does not apply when “the pollutant in
question” is already regulated under one of the other
two programs. See EPA Br. 189 (pointing out that the
footnote’s “use of the phrase ‘of the pollutant in
question’ suggests that [the Court] understood the
regulatory bar to be pollutant-specific, consistent with
EPA’s interpretation”).
The footnote could not mean otherwise. At the time
of AEP, electricity-generating power plants as sources
of different pollutants were already regulated under
the NAAQS provisions. See, e.g., American Trucking
Ass’ns, Inc. v. EPA, 283 F.3d 355, 359 (D.C. Cir. 2002)
(considering NAAQS for particulate matter and
ozone). So if the footnote did anything more than
generally flag a statutory exclusion for already-

146a
regulated emissions—if it instead embraced the Coal
Petitioners’ and separate opinion’s claim that Section
7411(d) excludes sources, rather than alreadyregulated emissions—then the Court could not have
ruled as it did. Specifically, it could not have relied on
Section 7411(d) to hold that the Clean Air Act
displaced the common law by “speak[ing] directly” to
the EPA’s authority to regulate power plants’ emission
of greenhouse gases. See AEP, 564 U.S. at 424. The
footnote certainly did not purport to unravel the
central rationale for AEP’s holding.
***
For all of those reasons, we hold that Section
7411(d) allows the EPA to regulate carbon dioxide
emissions from power plants, even though mercury
emitted from those same power plants is regulated as
a hazardous air pollutant under Section 7412.
B. THE ROBINSON PETITIONERS’ CHALLENGES
Another group of petitioners—including the Texas
Public Policy Foundation, the Competitive Enterprise
Institute, and various businesses that petitioned
jointly with a forest-services firm named Robinson
Enterprises,
Inc.
(together,
the
Robinson
Petitioners)—challenge the ACE Rule as overstepping
the EPA’s authority. The Robinson Petitioners are the
only parties that claim that the ACE Rule
impermissibly regulates carbon dioxide emissions
using Section 7411 of the Clean Air Act rather than
Sections 7408 through 7410, under which the EPA sets
NAAQS. Our ability to consider that claim fails due to
the Robinson Petitioners’ lack of standing.
The Robinson Petitioners assert the organizational
standing of the Texas Public Policy Foundation and

147a
the Competitive Enterprise Institute, both nonprofit,
nonpartisan organizations. Because the Foundation
and the Institute seek the same relief on the same
claim, only one needs to demonstrate standing. See
American Anti-Vivisection Soc’y v. United States Dep’t
of Agric., 946 F.3d 615, 619–620 (D.C. Cir. 2020). The
two organizations argue standing based on harm to
their own activities; neither appears to be a
membership organization, and they claim no
associational, or representational, standing based on
harm to members.
To establish standing, an organization, like an
individual, must show an actual or imminent injury in
fact that is fairly traceable to the challenged action
and likely to be redressed by a favorable decision. See
Havens Realty Corp. v. Coleman, 455 U.S. 363, 378–
379 (1982); see also American Anti-Vivisection Soc’y,
946 F.3d at 618. Because neither organization is
directly subject to the challenged rule, their “standing
is ‘substantially more difficult to establish[.]’” Public
Citizen, Inc. v. National Highway Traffic Safety
Admin., 489 F.3d 1279, 1289 (D.C. Cir. 2007)
(Kavanaugh, J.) (quoting Lujan v. Defenders of
Wildlife, 504 U.S. 555, 562 (1992)).
Each organization proffers a distinct ground and
theory of standing, so we analyze them in turn. The
standing of both the Texas Public Policy Foundation
and the Competitive Enterprise Institute falters on
the first factor, injury in fact, so we need not consider
the remaining two factors.
The Texas Public Policy Foundation states that its
mission is to provide legal counseling and services on
a broad swath of matters, including promoting “a

148a
balanced approach to environmental regulation” by
providing “legal counseling, referral, and advocacy
services to individuals and businesses injured by
federal, state, or local government overreach[.]” Decl.
of Greg Sindelar ¶¶ 5, 7 (“[Its] mission is to promote,
defend, and ensure liberty, personal responsibility,
property rights, criminal justice reform, greater
educational opportunities for all, a balanced approach
to environmental regulation, free speech, state’s rights
under the 10th Amendment, energy sufficiency, and
free enterprise[.]”). The Foundation’s attorneys
litigate cases on a wide range of issues on behalf of
clients and refer clients to private counsel when
necessary. Id. ¶ 8. The Foundation claims that the
challenged rule has “caused a drain on [its] resources
because [it] has had to divert significant time, effort,
and resources from [its] activities in the area of
property rights and wetlands regulation, for example,”
in order to represent clients “who are forced to deal
with” the federal regulation of greenhouse gases. Id.
¶ 9.
It is well established that injury to an organization’s
advocacy activities does not establish standing. See,
e.g., Center for Law & Educ. v. Department of Educ.,
396 F.3d 1152, 1162 n.4 (D.C. Cir. 2005) (citing Sierra
Club v. Morton, 405 U.S. 727, 739–740 (1972)). That is
because “the expenditure of resources on advocacy is
not a cognizable Article III injury.” Turlock Irrigation
Dist. v. FERC, 786 F.3d 18, 24 (D.C. Cir. 2015). To hold
otherwise “would eviscerate standing doctrine’s actual
injury requirement” by permitting an interest group to
generate its own standing merely by putting an issue
in its lawyers’ crosshairs. Id. (quoting Center for Law
& Educ., 396 F.3d at 1162 n.4); see also National

149a
Taxpayers Union, Inc. v. United States, 68 F.3d 1428,
1434 (D.C. Cir. 1995). The Texas Public Policy
Foundation declares only that, since the EPA issued
the ACE Rule, it has increased its legal counseling,
referral, and advocacy on behalf of clients affected by
the regulation of greenhouse gases rather than other
clients. That is precisely the kind of injury to
advocacy—and expenditure of resources on such
efforts—that we have held does not amount to injury
in fact.
The Foundation does not show the kind of
perceptible impairment to its mission that sufficed for
standing in a case like American Anti-Vivisection
Society. There, we found injury because the agency’s
inaction—specifically, its failure to promulgate
standards regarding the humane treatment of birds—
deprived the organization of key information on which
its public educational activities depended. See 946
F.3d at 619. That inaction compelled the organization
to develop guidance for the public that otherwise
would have been provided by the agency’s standards.
Id. By contrast, the Foundation fails to allege
impairment of any similarly “discrete programmatic
concerns” aside from its non-cognizable advocacy
activities. National Taxpayers Union, 68 F.3d at 1433
(quoting American Legal Found. v. FCC, 808 F.2d 84,
92 (D.C. Cir. 1987)).
The Foundation points to Abigail Alliance for Better
Access to Developmental Drugs v. Eschenbach, 469
F.3d 129 (D.C. Cir. 2006), in arguing that the cost
associated with more legal counseling, referral, and
advocacy services is a source of injury. But the
“counseling, referral, advocacy, and educational
services” at issue in Abigail Alliance were medical

150a
services, not legal services, and they directly furthered
the plaintiff’s mission of providing access to
potentially life-saving medical drugs and treatments.
See id. at 132–133. The Foundation’s transplantation
of Abigail Alliance’s words into the context of legal
representation and counseling cannot change the
outcome: the costs of litigation are not a cognizable
Article III organizational injury. See Turlock, 786 F.3d
at 24.
The Competitive Enterprise Institute claims a
different injury, which also falls short: the risk that it
will face higher electricity bills. The Institute works to
counter “economic overregulation in areas ranging
from technology and finance to energy and the
environment,” Decl. of Kent Lassman ¶ 3, and avers
that it relies on electricity to power its headquarters
in Washington, D.C., id. ¶¶ 2, 4. It says that the
Regulatory Impact Analysis for the ACE Rule shows
that the Rule could increase its electricity costs. That
analysis estimated a 0.0% to 0.1% increase in average
retail electricity prices nationwide attributable to the
Rule between 2025 and 2035. See S.A. 220 (projecting
baseline prices, in cents per kilowatt-hour, of 10.49
and 10.71 in 2025 and 2030, respectively, as compared
to 10.50 and 10.72 under the ACE Rule, and
estimating no increase attributable to the ACE Rule
by 2035).
The Regulatory Impact Analysis that the Institute
cites modeled one “illustrative policy scenario on retail
electricity prices[,]” S.A. 220, and included the caveat
that the estimates were based on “inadequate and
incomplete information[,]” meaning that “costs could
be lower[,]” S.A. 222. The analysis acknowledged that
“the EPA has not analyzed or modeled a specific

151a
standard of performance,” and recognized that costs
could vary depending on “how states might apply the
[best system of emission reduction] taking account of
source-specific factors in setting standards of
performance, and how sources might comply with
those standards.” S.A. 221–222. It also identified
“several key areas of uncertainty related to the electric
power sector[,]” including electricity demand, natural
gas supply and demand, and longer-term planning by
utilities. S.A. 222.
Even a small injury may suffice to support standing,
see, e.g., Competitive Enter. Inst. v. FCC (CEI), 970
F.3d 372, 384 (D.C. Cir. 2020), but it must be “concrete
and particularized and actual or imminent, not
conjectural or hypothetical,” id. at 381 (quoting
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1548 (2016)).
“Were all purely speculative increased risks deemed
injurious, the entire requirement of actual or
imminent injury would be rendered moot, because all
hypothesized, nonimminent injuries could be dressed
up as increased risk of future injury.” Public Citizen,
489 F.3d at 1294 (quoting Natural Res. Def. Council v.
EPA, 464 F.3d 1, 6 (D.C. Cir. 2006)).
In recognition that standing must rest on a concrete
injury that is at least imminent, “we have repeatedly
held that litigants cannot establish an Article III
injury based on the independent actions of some third
party not before this court.” Turlock, 786 F.3d at 25
(formatting modified) (quoting Florida Audubon Soc’y
v. Bentsen, 94 F.3d 658, 670 (D.C. Cir. 1996) (en banc)).
“This is because ‘predictions of future events
(especially future actions taken by third parties)’ are
too speculative to support a claim of standing.” Id.

152a
(quoting United Transp. Union v. ICC, 891 F.2d 908,
912 (D.C. Cir. 1989)).
The remoteness and contingency of the prospect
that the Competitive Enterprise Institute will in the
future actually face even the tiny rate increase
tentatively projected as possibly arising from the
challenged ACE Rule renders its claimed injury
speculative and thus defeats its standing. In
particular, the effect the Institute anticipates on its
future electricity rates depends on how third parties—
such as electricity generators, electricity providers,
public utility commissions, and state pollution control
agencies—might react to the ACE Rule. See EPA Br.
192. It also turns on the nature of standards that
States decide to set, and on the compliance choices of
regulated sources. Id. It remains entirely unclear what
standards States would develop in response to the
“best system of emission reduction,” how and whether
those standards would have any effect on the costs of
generation and transmission of energy, and whether
rates will be affected by any offsetting savings through
state or federal support for different generation mixes.
A theory that “stacks speculation upon hypothetical
upon speculation * * * does not establish an ‘actual or
imminent’ injury.” Turlock, 786 F.3d at 24 (quoting
New York Reg’l Interconnect, Inc. v. FERC, 634 F.3d
581, 587 (D.C. Cir. 2011)); see Arpaio v. Obama, 797
F.3d 11, 20–23 (D.C. Cir. 2015). In asking us to
anticipate the future actions of various third parties
that are not before us, the Institute does just that.
At oral argument, the Competitive Enterprise
Institute identified as its strongest support our
decision in Competitive Enterprise Institute v. FCC.
But the concrete and actual injury claimed there was

153a
traceable through “a relatively simple causal chain[,]”
970 F.3d at 383, unlike the harm asserted here, which
is
based
on
“inadequate
and
incomplete
information[,]” S.A. 222, and dependent on third
parties’ unpredictable responses to the ACE Rule.
Critically, the plaintiffs there demonstrated that their
internet prices in fact had increased since the agency
took its challenged action. CEI, 970 F.3d at 382–383.
This record lacks any such evidence.
Because neither the Texas Public Policy Foundation
nor the Competitive Enterprise Institute shows injury
in fact to support the Robinson Petitioners’ standing,
we cannot address the merits of their NAAQS-related
challenge to the ACE Rule.
IV. AMENDMENTS TO THE IMPLEMENTING
REGULATIONS
When the EPA repealed the Clean Power Plan and
finalized the ACE Rule, it also changed the
longstanding implementing regulations generally
applicable to emission guidelines promulgated under
Section 7411(d) of the Clean Air Act. See ACE Rule, 84
Fed. Reg. at 32,564–32,571. The Public Health and
Environmental Organization Petitioners (the Public
Health Petitioners) challenge the implementing
regulations insofar as they adopt new timing
requirements
that
substantially
extend
the
preexisting schedules for state and federal actions and
sources’ compliance under Section 7411(d). See 40
C.F.R. §§ 60.23a(a)(1), 60.27a(b), 60.27a(c), 60.24a(d);
see also ACE Rule, 84 Fed. Reg. at 32,567. Because the
challenged regulations lack reasoned support, they
cannot stand.

154a
The new implementing regulations extend the time
allowed for States to submit their plans, for the EPA
to review those plans, for the Agency to promulgate
federal plans where state plans fall short, and for
legally enforceable consequences to attach to sources
that are slow to comply. Those extended timeframes
apply unless the EPA otherwise specifies with respect
to particular emission guidelines. See ACE Rule, 84
Fed. Reg. at 32,568. The Public Health Petitioners
argue that the amendments are arbitrary and
capricious because the Agency altogether failed to
address the urgency of controlling harmful
emissions—especially the greenhouse gas emissions
accelerating climate change.
At the threshold, the EPA asserts that the Public
Health Petitioners forfeited any challenge to the
amended implementing regulations, but we conclude
the claim was preserved. The EPA contends that
Petitioners “barely mention” this claim in their
opening brief, EPA Br. 268–269 (citing CTS Corp. v.
EPA, 759 F.3d 52, 60 (D.C. Cir. 2014)), but it was
adequately, if concisely, set forth, see Pub. Health &
Env’t Orgs. Br. 11–13. The issue is neither
particularly complex nor as momentous as others in
the case; Petitioners nonetheless clearly stated and
supported the claim with citations to the record and
sources of legal authority. Id. That relatively
abbreviated treatment suffices. See, e.g., Tribune Co.
v. FCC, 133 F.3d 61, 69 n.8 (D.C. Cir. 1998) (noting one
paragraph in a fifty-eight-page brief arguing that the
agency’s action was arbitrary and capricious sufficed
to preserve the claim).
Petitioners’ joint comment on this amendment as
the EPA proposed it in the rulemaking process, which

155a
Petitioners cite in their brief, provides more detail. See
Pub. Health & Env’t Orgs. Br. 13 (citing Comments of
Environmental and Public Health Organizations on
Proposed
Revisions
to
Emission
Guideline
Implementing Regulations 26–27, J.A. 973–974). The
EPA well understands the nature of the claim, see EPA
Br. 268–269, and there is no indication the brevity of
the discussion in Petitioners’ opening brief prejudiced
the Agency at all. Cf. Avia Dynamics, Inc. v. Federal
Aviation Admin., 641 F.3d 515, 521 (D.C. Cir. 2011)
(forfeiture excused where federal agency was placed
on notice of arguments by extensive substantive
motion practice).
On the merits, the EPA failed to justify
substantially extending established compliance
timeframes, including deadlines that it has had in
place since 1975. See State Plans for the Control of
Certain Pollutants from Existing Facilities, 40 Fed.
Reg. 53,340, 53,345, 53,346–53,348 (Nov. 17, 1975).
Before we can sustain agency action as nonarbitrary
under the APA, “the agency must * * * articulate a
satisfactory explanation for its action including a
‘rational connection between the facts found and the
choice made.’” Motor Vehicle Mfrs. Ass’n of U.S., Inc.
v. State Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43
(1983) (quoting Burlington Truck Lines v. United
States, 371 U.S. 156, 168 (1962)). Petitioners’
comments took issue with the tepid justifications the
Agency offered, but the heart of their challenge is the
EPA’s complete failure to say anything at all about the
public health and welfare implications of the extended
timeframes.
The Agency principally relied on reviving an
argument it had considered and rejected when it first

156a
adopted the schedule it now displaces: that
timeframes for the regulation of existing sources
under Section 7411(d) should necessarily mimic or
exceed timeframes for adoption of National Ambient
Air Quality Standards (NAAQS) under Section 7410 of
the Clean Air Act. Compare ACE Rule, 84 Fed. Reg. at
32,568, with State Plans for the Control of Certain
Pollutants from Existing Facilities, 40 Fed. Reg. at
53,345. Section 7411(d) calls for regulations that
“establish a procedure similar to that provided by
[S]ection 7410[,]” which, like Section 7411, requires
States to submit plans for the EPA’s approval and, if
those plans are either not submitted or fall short,
requires the EPA to itself prescribe a plan. See 42
U.S.C. § 7410(a)(1), (c)(1); id. § 7411(d)(1)–(2). The two
sets of rules accordingly reflect generally similar statefederal interactions.
But it is not evident that the statement that Section
7411(d) would use “a procedure similar” to that
employed under Section 7410 even speaks to timing
rules. As the Agency recognized when it promulgated
the 1975 rule, faster compliance was appropriate
under Section 7411(d) because plans under this
provision are far simpler. They apply only to a single
category of source, whereas state plans for NAAQS
under Section 7410 cover multiple types of sources.
See 40 Fed. Reg. at 53,345 (commenting that “Section
[7411](d) plans will be much less complex than the
[state implementation plans]” required under Section
7410). The Public Health Petitioners’ comment on the
2018 proposed amendments to the implementing
regulations explained that “a section [7410 state
implementation plan] must ensure that ambient air
concentrations of a given pollutant in the state will

157a
stay below the EPA-designated standard.” J.A. 971.
That goal is “far more complicated to both achieve and
demonstrate” than limiting source emissions under
Section 7411(d), because “meeting the ambient air
quality standards involves air quality monitoring,
complex modeling procedures, close attention to such
factors as topography, wind patterns, cross-[border]
transport of air pollution, and many other
considerations.” J.A. 971. By the same token,
Petitioners commented that the EPA failed to justify
giving itself as much time to review the simpler
Section 7411(d) plans as it has to review state plans
under Section 7410. J.A. 971–972. The EPA failed to
engage meaningfully with the different scale of the
two types of plans, dismissing Petitioners’ comment
with the conclusory assertion that Section 7411(d)
plans “have their own complexities and realities that
take time to address.” ACE Rule, 84 Fed. Reg. at
32,568.
The EPA’s proposed rule also relied on more general
claims that the amended timelines are appropriate
because of the amount of work involved in States’ plan
development and in the EPA’s review of those plans.
See Emission Guidelines for Greenhouse Gas
Emissions from Existing Electric Utility Generating
Units; Revisions to Emission Guideline Implementing
Regulations; Revisions to New Source Review
Program: Proposed Rule, 83 Fed. Reg. 44,746, 44,771
(Aug. 31, 2018). In response, Petitioners commented
that the EPA did not document any problems during
the decades that the existing timelines had been in
place. J.A. 972 (“If the agency is truly concerned that
the timing provision[s] in the framework regulations
are unworkable, it must provide actual evidence of

158a
this—which it has not done thus far—and must
propose amended provisions that correspond to the
actual workload involved in section [7411(d)]
rulemakings[.]”). The Final Rule failed to fill that gap.
See, e.g., ACE Rule, 84 Fed. Reg. at 32,568. Indeed, the
Agency at one point seemed to forget that it even had
a burden of justification under the APA, going so far
as to suggest that the obligation was somehow on the
commenters to show that the various actors do not
need any additional time. Id.
It might be a close call whether, viewed in isolation,
the analogy to Section 7410 and the general claim of
need for more processing time could supply the
“rational connection” the APA requires. State Farm,
463 U.S. at 43. But we do not view those reasons in
isolation.
The EPA’s weak grounds for routinizing additional
compliance delays in the amended implementing
regulations are overwhelmed by its total disregard of
the added environmental and public health damage
likely to result from slowing down the entire Section
7411(d) regulatory process. “Normally, an agency rule
would be arbitrary and capricious if the agency * * *
entirely failed to consider an important aspect of the
problem[.]” State Farm, 463 U.S. at 43. The extensions
of implementation deadlines here give no
consideration to the need for speed. Control of
emissions from existing sources before they harm
people and the environment is the central purpose of
Section 7411(d) of the Clean Air Act. Yet when it
deferred the compliance deadlines, the EPA did not
even mention the need for prompt reduction of those
emissions or the human and environmental costs of its
substantial new delay.

159a
In their comments, Petitioners emphasized the
gravity and urgency of impending harms from
unlawfully uncontrolled emissions as a reason the
EPA must retain the tighter timeframes in the
existing rule, not promulgate a new rule to build in
additional years of delay. See Comments of
Environmental and Public Health Organizations on
Proposed
Revisions
to
Emission
Guideline
Implementing Regulations 26–27, J.A. 973–974. They
stressed in particular the broad and longstanding
scientific consensus on the role of carbon dioxide
emissions in accelerating climate change, and insisted
that “deep emission reductions are needed
immediately” in order to avoid “the worst effects of
climate change,” making time “of the utmost essence.”
Id. They explained how the timing amendments
stymie effective control of carbon dioxide emissions:
[T]he amendments in question would permit up
to 60 months to elapse between the time an EPA
emission guideline is finalized and the time that
affected sources must, at a minimum, begin
reducing their emissions through enforceable
increments of progress. Assuming EPA issues a
final emission guideline for power plant [carbon
dioxide] emissions in mid-2019, designated
sources can be expected to start reducing
emissions in mid-2024. * * * [T]he world has
surpassed not only the 350 ppm threshold—that
atmospheric concentration of [carbon dioxide]
that is considered the maximum safe level—but
the 400 ppm threshold as well. If we are to avoid
the worst effects of climate change, deep emission
reductions are needed immediately: time is
simply of the utmost essence. For EPA to inject

160a
even further delay into the process * * * flouts the
agency’s Clean Air Act obligation to require
emission
reductions
to
prevent
this
endangerment to public health and welfare.
Comments of Environmental and Public Health
Organizations 27, J.A. 974.
Not all source categories or types of emissions
subject to Section 7411(d) present problems of the
magnitude and urgency of those posed by unregulated
carbon dioxide emissions from power plants. But the
Public Health Petitioners’ comments on the Agency’s
proposed amendments to the implementing
regulations squarely called on the EPA to explain how
slowing the regulatory timeframe with respect to any
covered emissions or source category might be justified
and consistent with the Act’s objective. See Comments
of Environmental and Public Health Organizations 23,
J.A. 970.
In response to Petitioners’ concrete objections, the
final rule neither changed nor better justified the
timing provisions. In fact, upon reading the rule’s
explanation of the deadline extensions, one would
have no idea that the EPA actually recognized that
greenhouse gas pollution was causing a global climate
crisis requiring urgent remediation. In finalizing the
proposed extensions to key deadlines, the EPA tersely
reiterated its stated interest in giving itself, States,
and regulated parties more time to comply—despite no
showing of need—and, contrary to its explanation of
the rule it displaced, stated that it was important after
all to align the timing of the Section 7411(d) state-plan
process with the compliance schedule under Section
7410. See ACE Rule, 84 Fed. Reg. at 32,564, 32,568.

161a
The EPA did not even hint at how or whether it
determined that prolonging public exposure to ongoing
harms from pollutants emitted by existing source
categories could be justified consistent with the core
objectives of the Clean Air Act. That failure is
irrational, especially in the face of the EPA’s continued
adherence to its 2015 finding of an urgent need to
counteract the threats posed by unregulated carbon
dioxide emissions from coal-fired power plants. The
EPA made no mention whatsoever of the harms that
Petitioners warned would result if the Agency
slackened the pace of state and federal action to
mitigate the harms Section 7411(d) targets. In relation
to the timing amendments, pollution control—
whether in the context of carbon dioxide and the ACE
Rule or air pollution more generally—was simply not
on the EPA’s agenda. In short, Petitioners called the
EPA’s attention to an important aspect of the
regulatory problem, and the EPA looked away.
The EPA offered what is at best a radically
incomplete explanation for extending the compliance
timeline. It offered undeveloped reasons of
administrative convenience and regulatory symmetry,
even as it ignored the environmental and public health
effects of the Rule’s compliance slowdown. The EPA
thus “failed to consider an important aspect of the
problem,” State Farm, 463 U.S. at 43—indeed,
arguably the most important aspect. We accordingly
vacate the implementing regulations’ extensions of the
Section 7411(d) compliance periods.
V. VACATUR AND REMAND
The ACE Rule expressly rests on the incorrect
conclusion that the plain statutory text clearly

162a
foreclosed the Clean Power Plan, so that complete
repeal was “the only permissible interpretation of the
scope of the EPA’s authority under [Section 7411].”
ACE Rule, 84 Fed. Reg. at 32,534; see also id. at
32,532. “[T]hat error prevented it from a full
consideration of the statutory question here
presented.” Negusie v. Holder, 555 U.S. 511, 521
(2009). “Where a statute grants an agency discretion
but the agency erroneously believes it is bound to a
specific decision, we [cannot] uphold the result as an
exercise of the discretion that the agency disavows,”
United States v. Ross, 848 F.3d 1129, 1134 (D.C. Cir.
2017), and the “regulation must be declared invalid,
even though the agency might be able to adopt the
regulation in the exercise of its discretion,” Prill v.
NLRB, 755 F.2d 941, 948 (D.C. Cir. 1985) (quoting
Planned Parenthood Federation of America, Inc. v.
Heckler, 712 F.2d 650, 666 (D.C. Cir. 1983) (Bork, J.,
concurring in part and dissenting in part)); accord
Arizona v. Thompson, 281 F.3d 248, 259 (D.C. Cir.
2002) (quoting Prill, 755 F.2d at 948).
Because the ACE Rule rests squarely on the
erroneous legal premise that the statutory text
expressly foreclosed consideration of measures other
than those that apply at and to the individual source,
we conclude that the EPA fundamentally “has
misconceived the law,” such that its conclusion “may
not stand.” SEC v. Chenery Corp., 318 U.S. 80, 94
(1943). Accordingly, we hold that the ACE Rule must
be vacated and remanded to the EPA so that the
Agency may “consider the question afresh in light of
the ambiguity we see.” Negusie, 555 U.S. at 523
(quoting Cajun Elec. Power Coop., Inc. v. FERC, 924
F.2d 1132, 1136 (D.C. Cir. 1991)); accord Peter Pan

163a
Bus Lines, Inc. v. Federal Motor Carrier Safety
Admin., 471 F.3d 1350, 1354 (D.C. Cir. 2006); Prill,
755 F.2d at 948.
VI. CONCLUSION
Because promulgation of the ACE Rule and its
embedded repeal of the Clean Power Plan rested
critically on a mistaken reading of the Clean Air Act,
we vacate the ACE Rule and remand to the Agency.
We also vacate the amendments to the implementing
regulations that extend the compliance timeline.
Because the objections of the Coal Petitioners are
without merit, we deny their petitions. And because
the Robinson Petitioners lack standing, their petition
is dismissed.
So Ordered.

164a
WALKER, Circuit Judge, concurring in part,
concurring in the judgment in part, and dissenting in
part: This case concerns two rules related to climate
change. The EPA promulgated both rules under § 111
of the Clean Air Act.1
A major milestone in climate regulation, the first
rule set caps for carbon emissions. Those caps would
have likely forced shifts in power generation from
higher-polluting energy sources (such as coal-fired
power plants) to lower-emitting sources (such as

When this opinion refers to § 111, it is specifically referring to
§ 111(d). The codified version of § 111(d) is titled “Standards of
performance for existing sources; remaining useful life of source.”
42 U.S.C. § 7411(d). The first part reads:

1

(1) The Administrator shall prescribe regulations which
shall establish a procedure similar to that provided by
section 7410 of this title under which each State shall
submit to the Administrator a plan which (A) establishes
standards of performance for any existing source for any air
pollutant (i) for which air quality criteria have not been
issued or which is not included on a list published under
section 7408(a) of this title or emitted from a source
category which is regulated under section 7412 of this title
but (ii) to which a standard of performance under this
section would apply if such existing source were a new
source, and (B) provides for the implementation and
enforcement of such standards of performance. Regulations
of the Administrator under this paragraph shall permit the
State in applying a standard of performance to any
particular source under a plan submitted under this
paragraph to take into consideration, among other factors,
the remaining useful life of the existing source to which
such standard applies.
Id.

165a
natural gas or renewable energy sources).2 That policy
is called generation shifting.
Hardly any party in this case makes a serious and
sustained argument that § 111 includes a clear
statement unambiguously authorizing the EPA to
consider off-site solutions like generation shifting.
And because the rule implicates “decisions of vast
economic and political significance,” Congress’s failure
to clearly authorize the rule means the EPA lacked the
authority to promulgate it.3
The second rule repealed the first and partially
replaced it with different regulations of coal-fired
power plants. Dozens of parties have challenged both
the repeal and the provisions replacing it.
In my view, the EPA was required to repeal the first
rule and wrong to replace it with provisions
promulgated under § 111. That’s because coal-fired
power plants are already regulated under § 112, and
§ 111 excludes from its scope any power plants
regulated under § 112. Thus, the EPA has no
authority to regulate coal-fired power plants under
§ 111.
I.
When the Constitution’s ratifiers empowered
Congress to legislate on certain matters of national

For ease of reading, this opinion refers to the technical term
“coal-fired electric utility generating units” by the slightly less
precise but lay-friendlier term “coal-fired power plants.”

2

Utility Air Regulatory Group v. EPA, 573 U.S. 302, 324 (2014)
(quoting FDA v. Brown & Williamson Tobacco Corp., 529 U.S.
120, 160 (2000)).
3

166a
importance,4 they understood that federal regulation
came with risks. For example, Congress might impose
widely disbursed costs to benefit insular groups in a
nation of diverse economic and political interests. The
framers called those groups factions.5
To guard against factions, legislation requires
something approaching a national consensus. While a
single state’s simple majority can often subject that
state to “novel social and economic experiments,”6
federal legislation must survive bicameralism and
presentment.7 Only through that process can
ideologically aligned states use federal power to
impose their will on the unwilling.8 So too for
ideologically aligned environmentalists. Or polluters.
Or big tech. Or big labor. Or free traders. Or fair
traders. Or farmers. Or fishers. Or butchers. Or
bakers.
In that process, each political institution probes
legislative proposals from the perspective of different
constituencies.9 The House speaks for the people. The

4

U.S. CONST. art. I, § 8.

See THE FEDERALIST No. 10, at 56–65 (J. Madison) (J. Cooke
ed., 1961).

5

6 New State Ice Co. v. Liebmann, 285 U.S. 262, 311 (1932)
(Brandeis, J., dissenting).

U.S. CONST. art. I, §§ 1, 7; see INS v. Chadha, 462 U.S. 919,
951 (1983).
7

Of course, even then, a legislative coalition cannot regulate
outside Congress’s enumerated powers. See U.S. CONST. art. I,
§ 8.

8

See Department of Transportation v. Association of American
Railroads, 575 U.S. 43, 61 (2015) (Alito, J., concurring) (“Our
Constitution, by careful design, prescribes a process for making
9

167a
Senate, among other roles, guards the interests of
small
states.
The
Electoral
College,
with
representation just short of proportional, strikes a
balance between the two. And by staggering elections
over two-, four-, and six-year cycles, we further impede
fleeting factions from ganging up on small states and
unpopular political minorities. The point is: It’s
difficult to pass laws—on purpose.
This legislative gauntlet sometimes produces
unfortunate, even tragic, consequences. Between the
1870s and 1960s, it foreclosed desperately needed civil
rights laws. For budget hawks who predict a fiscal
crisis, it has blocked entitlement reform. And for those
who fear a climate crisis, it has prevented clear
congressional guidance on how to cool the planet and
who will foot the bill.10
That, however, is the price we pay for bicameralism
and presentment. Major regulations and reforms
either reflect a broad political consensus, or they do
not become law.
In its clearest provisions, the Clean Air Act evinces
a political consensus. For example, according to
Massachusetts v. EPA, carbon dioxide is clearly a

law, and within that process there are many accountability
checkpoints.”).
Cf. Bowsher v. Synar, 478 U.S. 714, 722 (1986) (“That this
system of division and separation of powers produces conflicts,
confusion, and discordance at times is inherent, but it was
deliberately so structured to assure full, vigorous, and open
debate on the great issues affecting the people and to provide
avenues for the operation of checks on the exercise of
governmental power.”).

10

168a
pollutant, and the Act’s § 202 unambiguously directs
the EPA to curb pollution from new cars.11
But for every carbon question answered in that
case, many more were not even presented.12 For
example, does the Clean Air Act force the electricpower industry to shift from fossil fuels to renewable
resources? If so, by how much? And who will pay for
it? Even if Congress could delegate those decisions,
Massachusetts v. EPA does not say where in the Clean
Air Act Congress clearly did so.
In 2009, Congress tried to supply that clarity
through new legislation.
The House succeeded.13
The President supported it.14
But that effort stalled in the Senate.15
Since climate change is real, man-made, and
important, Congress’s failure to act was, to many, a
disappointment. But the process worked as it was

11

549 U.S. 497, 532–35 (2007).

12 In this opinion, “carbon” is used as shorthand for carbon
dioxide and other greenhouse gases.
13 American Clean Energy and Security Act, H.R. 2454, 111th
Cong. (2009).

See Interview with President Obama on Climate Bill, N.Y.
TIMES
(June
28,
2009),
https://www.nytimes.com/2009/06/29/us/politics/29climatetext.html.
14

See Richard Cowan & Thomas Ferraro, Senator Graham Calls
Cap-and-Trade Plan Dead, REUTERS (Mar. 2, 2010, 2:26 PM),
https://www.reuters.com/article/us-climate-usacongress/senator-graham-calls-cap-and-trade-plan-deadidUKTRE62142T20100302.

15

169a
designed.16 In general, Senators from small states
blocked legislation they viewed as adverse to their
voters.17 And because small states have outsized
influence in the Senate,18 no bill arrived on the
President’s desk. Nor have dozens of other climaterelated bills introduced since then.19
Cf. Association of American Railroads, 575 U.S. at 61 (Alito,
J., concurring) (“Bicameralism and presentment make
lawmaking difficult by design[.]”) (cleaned up).
16

17 Due to opposition to the 2009 climate bill, it never received a
Senate vote. The closest analogue is the 2008 climate bill, which
received a cloture vote. And of the states with no Senator voting
for the 2008 bill, most of those states have populations smaller
than 1/50 of the nation. Roll Call Vote 110th Congress – 2nd
SENATE,
Session,
U.S.
https://www.senate.gov/legislative/LIS/roll_call_lists/roll_call_vo
te_cfm.cfm?congress=110&session=2&vote=00145#state
(all
internet materials last visited Jan. 10, 2021).

In 2008, see supra, for twenty-four state delegations, there was
no Senate opposition to the climate bill. That’s short of a majority
of state delegations, and well short of the 3/5 necessary to break
a filibuster. But those twenty-four states equal 60% of the
population. So the Senate’s equal-state representation was
critical. If representation were proportional to population, the
climate bill would have been more likely to pass. Roll Call Vote
SENATE,
110th
Congress
–
2nd
Session,
U.S.
https://www.senate.gov/legislative/LIS/roll_call_lists/roll_call_vo
te_cfm.cfm?congress=110& session=2&vote=00145#state.

18

See, e.g., American Clean Energy and Security Act, H.R. 2454,
111th Cong. (2009); Integrated Energy Systems Act, S. 2702,
116th Cong. (2019); Clean Industrial Technology Act, S. 2300,
116th Cong. (2019); Advancing Grid Storage Act, H.R. 7313,
115th Cong. (2018); Climate Risk Disclosure Act, S. 3481, 115th
Cong. (2018); American Energy and Conservation Act, S. 3110,
114th Cong. (2016); Climate Solutions Commission Act, H.R.
6240, 114th Cong. (2016); Super Pollutants Act, S. 2911, 113th
Cong. (2014); American Renewable Energy and Efficiency Act,
H.R. 5301, 113th Cong. (2014); End Polluter Welfare Act, S. 3080,

19

170a
So President Obama ordered the EPA to do what
Congress wouldn’t.20 In 2015, after “years of
unprecedented outreach and public engagement”21—
including 4.3 million public comments22 (about 4.25
million more than in Massachusetts v. EPA)23—the
EPA promulgated a rule aimed at “leading global
efforts to address climate change.”24
Entitled the Clean Power Plan, the EPA’s rule used
the Clean Air Act’s § 111 to set limits for carbon
emissions that would likely be impossible to achieve at
individual coal-fired power plants because of costs,
unavailable technologies, or a need to severely reduce

112th Cong. (2012); Save Our Climate Act, H.R. 3242, 112th
Cong. (2011); Carbon Dioxide Capture Technology Prize Act, S.
757, 112th Cong. (2011); Clean Energy Standard Act, S. 20, 111th
Cong. (2010).
Evan Lehmann & Nathanael Massey, Obama Warns Congress
to Act on Climate Change, or He Will, SCIENTIFIC AMERICAN (Feb.
13, 2013), https://www.scientificamerican.com/article/obamawarns-congress-to-act-on-climate-change-or-he-will/ (“‘But if
Congress won’t act soon to protect future generations, I will,’
Obama said. ‘I will direct my Cabinet to come up with executive
actions we can take, now and in the future, to reduce pollution,
prepare our communities for the consequences of climate change,
and speed the transition to more sustainable sources of energy.’”).
20

FACT SHEET: Overview of the Clean Power Plan, EPA,
https://archive.epa.gov/epa/cleanpowerplan/fact-sheet-overviewclean-power-plan.html.

21

22

Id.

23

549 U.S. at 511.

FACT SHEET: Overview of the Clean Power Plan, EPA,
https://archive.epa.gov/epa/cleanpowerplan/fact-sheet-overviewclean-power-plan.html.

24

171a
usage.25 In that sense, the limits required generation
shifting: shifting production from coal-fired power
plants to facilities that use natural gas or renewable
resources.
To be clear, the 2015 Rule did not expressly say,
“Power plants must adopt off-site solutions.” But it did
set strict emission limits in part by considering off-site
solutions. And those emission limits would likely have
been unachievable or too costly to meet if off-site
solutions were off the table.
A political faction opposed generation shifting. It
challenged the 2015 Rule in this Court, arguing that
§ 111 does not allow the EPA to consider off-site
solutions when determining the best system of
emission reduction. The faction included about
twenty-four states, represented by many Senators
who opposed the 2009 legislation.26 Conversely, a
political faction of about eighteen states defended the
rule. Many of their Senators had supported the
stymied legislation.27
At that litigation’s outset, our Court refused to stay
the rule’s implementation.28 But in an unprecedented
25 Respondents’ Br. at 32–37. For the codified text of § 111(d), see
the first footnote of this opinion.

See Legislative Hearing on S. 1733, Clean Energy Jobs and
American Power Act Before the Committee on Environment and
Public Works, 111th Cong. (2009) (For example, Senators from
Oklahoma, Ohio, Wyoming, and Louisiana expressed opposition
or concern about the legislation.).

26

See id. (For example, Senators from California,
Massachusetts, Minnesota, New Mexico, Oregon, Rhode Island,
Vermont, and Maryland expressed support for the legislation.).

27

West Virginia v. EPA, No. 15-1363 (D.C. Cir. Jan. 21, 2016)
(per curiam) (order).

28

172a
intervention, the Supreme Court did what this Court
would not.29 And through its stay, the Supreme Court
implied that the challengers would likely succeed on
the case’s merits.30
Taking the Supreme Court’s not-so-subtle hint, in
2019 President Trump’s EPA repealed the 2015 Rule
and issued the Affordable Clean Energy Rule. Like the
rule it replaced, the 2019 Rule relies on the Clean Air
Act’s § 111 to reduce carbon emissions. But unlike its
predecessor, the 2019 Rule did not include generation
shifting in its final determination of the best system of
emission reduction.
A new faction then challenged the 2019 Rule. It
looked a lot like the faction that had defended the 2015
Rule. Arrayed against that faction were many states
and groups that had opposed the old rule. And so once
again, politically diverse states and politically adverse
special interest groups brought their political brawl
into a judiciary designed to be apolitical.
In this latest round, the briefing’s word count
exceeded a quarter of a million words. The oral
argument lasted roughly nine hours. The case’s
caption alone runs beyond a dozen pages. And yet, in
all that analysis, hardly any of the dozens of
petitioners or intervenors defending the 2015 Rule
make a serious and sustained argument that § 111
includes
a
clear
statement
unambiguously
authorizing the EPA to consider a system of emission
reduction that includes off-site solutions or that § 111

29

West Virginia v. EPA, 136 S. Ct. 1000 (2016) (mem.).

See Winter v. Natural Resources Defense Council, 555 U.S. 7,
20 (2008).

30

173a
otherwise satisfies the major-rules doctrine’s clearstatement requirement. Neither does the EPA.
In light of that,31 I doubt § 111 authorizes the 2015
Rule—arguably one of the most consequential rules
ever proposed by an administrative agency:


It
required
a
“more
aggressive
transformation in the domestic energy
industry,” marking for President Obama a
“major milestone for his presidency.”32



It aspired to reduce that industry’s carbon
emissions by 32 percent—“equal to the
annual emissions from more than 166 million
cars.”33



Leaders of the environmental movement
considered the rule “groundbreaking,”34

Cf. ARTHUR CONAN DOYLE, Silver Blaze, in THE COMPLETE
SHERLOCK HOLMES 312, 325 (2009) (“Before deciding that
question I had grasped the significance of the silence of the dog,
for one true inference invariably suggests others.”).
31

32

J.A. 2076 (White House Fact Sheet).

33 FACT SHEET: Clean Power Plan By The Numbers, EPA,
https://archive.epa.gov/epa/cleanpowerplan/fact-sheet-cleanpower-plan-numbers.html; What Is the Clean Power Plan?,
NATIONAL RESOURCES DEFENSE COUNCIL, INC. (Sept. 29, 2017),
https://www.nrdc.org/stories/how-clean-power-plan-works-andwhy-itmatters#:~:text=According%20to%20EPA%20projections%2C%2
0by,nationally%2C%20relative%20to%202005%20levels.&
text=The%20shift%20to%20energy%20efficiency,its%20electrici
ty%20bills%20in%202030 (“According to EPA projections, by
2030, the Clean Power Plan would cut the electric sector’s carbon
pollution by 32 percent nationally, relative to 2005 levels.”).

Save the Clean Power Plan, NATIONAL RESOURCES DEFENSE
COUNCIL, INC., https://www.nrdc.org/save-clean-power-plan.
34

174a
called its announcement “historic,”35 and
labeled it a “critically important catalyst.”36
The potential costs and benefits of the 2015 Rule are
almost unfathomable. Industry analysts expected
wholesale electricity’s cost to rise by $214 billion.37
The cost to replace shuttered capacity? Another $64
billion.38 (“A billion here, a billion there, and pretty
soon you’re talking real money.”39)
True, you can dismiss that research as industryfunded. But the EPA itself predicted its rule would
cost billions of dollars and eliminate thousands of
jobs.40

The Clean Power Plan, ENVIRONMENTAL DEFENSE FUND,
https://www.edf.org/clean-power-plan-resources.

35

36 Press Release, Michael Brune, Sierra Club Executive Director,
Repealing the Clean Power Plan Will Threaten Thousands of
Lives
(Oct.
9,
2017),
https://www.sierraclub.org/pressreleases/2017/10/repealing-clean-power-plan-will-threatenthousands-lives.

EPA’s Clean Power Plan An Economic Impact Analysis, NMA,
2,
http://nma.org/attachments/article/2368/11.13.15%20NMA_EPA
s%20Clean%20Power%20Plan%20%20An%20Economic%20Imp
act%20Analysis.pdf.

37

38

Id.

Senator Everett McKinley Dirksen Dies, U.S. SENATE (Sept. 7,
1969),
https://www.senate.gov/artandhistory/history/minute/Senator_E
verett_Mckinley_Dirksen_Dies.htm; cf. id. (“Researchers have
been unable to track down the quotation most commonly
associated with Dirksen. Perhaps he never said it, but the
comment would have been entirely in character.”).
39

J.A. 336; see, e.g., Regulatory Impact Analysis for the Clean
Power Plan Final Rule, EPA, 6–25 (Oct. 23, 2015),

40

175a
On the benefits side of the ledger, the White House
labeled the 2015 Rule a “Landmark,”41 and the
President called it “the single most important step
America has ever taken in the fight against global
climate change.”42 With that in mind, calculating the
rule’s benefits requires a sober appraisal of that fight’s
high stakes. According to the rule’s advocates, victory
over climate change will lower ocean levels; preserve
glaciers; reduce asthma; make hearts healthier; slow
tropical diseases; abate hurricanes; temper wildfires;
reduce droughts; stop many floods; rescue whole
ecosystems; and save from extinction up to “half the
species on earth.”43
These are, to put it mildly, serious issues. Lives are
at stake. And even though it’s hard to put a dollar
figure on the net value on what many understandably
https://19january2017snapshot.epa.gov/sites/production/files/20
15-08/documents/cpp-final-rule-ria.pdf.
Fact Sheet: President Obama to Announce Historic Carbon
Pollution Standards for Power Plants, THE WHITE HOUSE (Aug.
3,
2015),
https://obamawhitehouse.archives.gov/the-pressoffice/2015/08/03/fact-sheet-president-obama-announce-historiccarbon-pollution-standards.
41

42 Andrew Rafferty, Obama Unveils Ambitious Plan to Combat
Climate Change, NBC NEWS (Aug. 3, 2015, 3:05 PM),
https://www.nbcnews.com/politics/barack-obama/obama-unveilsambitious-plan-combat-climate-change-n403296.

FACT SHEET: Overview of the Clean Power Plan, EPA,
https://archive.epa.gov/epa/cleanpowerplan/fact-sheetoverviewclean-power-plan.html; Al Gore, Al Gore: The Climate
Crisis Is the Battle of Our Time, and We Can Win, N.Y. TIMES
(Sept. 20, 2019), https://www.nytimes.com/2019/09/20/opinion/algore-climate-change.html; Effects of Climate Change, WORLD
WILDLIFE FUND, https://www.worldwildlife.org/threats/effects-ofclimate-change.
43

176a
consider invaluable, the EPA tried: $36 billion, it said,
give or take about a $10-billion margin of error.44
So say what you will about the cost-benefit analysis
behind generation shifting, it’s hardly a minor
question. Minor questions do not forestall
consequences comparable to “the extinction event that
wiped out the dinosaurs 65 million years ago.”45 Minor
questions are not analogous to “Thermopylae,
Agincourt, Trafalgar, Lexington and Concord,
Dunkirk, Pearl Harbor, the Battle of the Bulge,
Midway and Sept. 11.”46 Minor rules do not inspire
“years of unprecedented outreach and public
engagement.”47 Minor rules are not “the single most
important step America has ever taken in the fight
against global climate change.”48 Minor rules do not
FACT SHEET: Overview of the Clean Power Plan, EPA,
https://archive.epa.gov/epa/cleanpowerplan/fact-sheet-overviewclean-power-plan.html.

44

AN INCONVENIENT TRUTH (Lawrence Bender Productions,
2006) (“Global warming, along with the cutting and burning of
forests and other critical habitats, is causing the loss of living
species at a level comparable to the extinction event that wiped
out the dinosaurs 65 million years ago. That event was believed
to have been caused by a giant asteroid. This time it is not an
asteroid colliding with the Earth and wreaking havoc: it is us.”).
45

Al Gore, Al Gore: The Climate Crisis Is the Battle of Our Time,
and We Can Win, N.Y. TIMES (Sept. 20, 2019),
https://www.nytimes.com/2019/09/20/opinion/al-gore-climatechange.html; see id. (“This is our generation’s life-or-death
challenge.”).

46

FACT SHEET: Overview of the Clean Power Plan, EPA,
https://archive.epa.gov/epa/cleanpowerplan/fact-sheet-overviewclean-power-plan.html.

47

Andrew Rafferty, Obama Unveils Ambitious Plan to Combat
Climate Change, NBC NEWS (Aug. 3, 2015, 3:05 PM),
48

177a
put thousands of men and women out of work.49 And
minor rules do not calculate $10 billion in net benefits
as their margin of error.50
Rather, the question of how to make this “the
moment when the rise of the oceans began to slow and
our planet began to heal”51—and who should pay for
it—requires a “decision[] of vast economic and political
significance.”52 That standard is not mine. It is the
Supreme Court’s. And no cocktail of factors informing
the major-rules doctrine can obscure its ultimate
inquiry: Does the rule implicate a “decision[] of vast
economic and political significance”?
Proponents of the 2015 Rule say it doesn’t.53 They
have to. If it did, it’s invalid—because a clear

https://www.nbcnews.com/politics/barack-obama/obama-unveilsambitious-plan-combat-climate-change-n403296.
See, e.g., Regulatory Impact Analysis for the Clean Power Plan
Final
Rule,
EPA,
6–25
(Oct.
23,
2015),
https://19january2017snapshot.epa.gov/sites/production/files/20
15-08/documents/cpp-final-rule-ria.pdf.

49

FACT SHEET: Overview of the Clean Power Plan, EPA,
https://archive.epa.gov/epa/cleanpowerplan/fact-sheet-overviewclean-power-plan.html.

50

Barack Obama, Barack Obama’s Remarks in St. Paul, N.Y.
TIMES
(June
3,
2008),
https://www.nytimes.com/2008/06/03/us/politics/03textobama.html.
51

Utility Air Regulatory Group, 573 U.S. at 324 (quoting Brown
& Williamson Tobacco, 529 U.S. at 160) (cleaned up); see
Gonzales v. Oregon, 546 U.S. 243, 267 (2006) (quoting Brown &
Williamson Tobacco, 529 U.S. at 160) (cleaned up).
52

See Oral Arg. Tr. at 23 (Counsel for State and Municipal
Petitioners on the 2015 Rule: “We do not think it implicates the
Major Questions Doctrine here for a couple of reasons.”).

53

178a
statement is missing.54 And according to the Supreme
Court, that is exactly what a major rule requires.
To be sure, if we frame a question broadly enough,
Congress will have always answered it. Does the
Clean Air Act direct the EPA to make our air cleaner?
Clearly yes. Does it require at least some carbon
reduction? According to Massachusetts v. EPA, again
yes.
But how should the EPA reduce carbon emissions
from power plants? And who should pay for it? To
those major questions, the Clean Air Act’s answers are
far from clear.
I admit the Supreme Court has proceeded with baby
steps toward a standard for its major-rules doctrine.
But “big things have small beginnings.”55 And even
though its guidance has been neither sweeping nor
precise, the Supreme Court has at least drawn this
line in the sand: Either a statute clearly endorses a
major rule, or there can be no major rule.56
Moreover, if Congress merely allowed generation
shifting (it didn’t), but did not clearly require it, I
doubt doing so was constitutional. For example,
imagine a Congress that says, “The EPA may choose
to consider off-site solutions for its best system of
emission reduction, but the EPA may choose not to
consider off-site solutions.” In that instance, Congress
has clearly delegated to the EPA its legislative power
54

See supra p. 9.

55

LAWRENCE OF ARABIA (Columbia Pictures, 1962).

MCI Telecommunications Corp. v. American Telephone &
Telegraph Co., 512 U.S. 218, 230–31 (1994); Brown & Williamson
Tobacco, 529 U.S. at 126–27; Gonzales, 546 U.S. at 267; Utility
Air Regulatory Group, 573 U.S. at 322–25.

56

179a
to determine whether generation shifting should be
part of the best system of emission reduction—a
“decision[]
of
vast
economic
and
political
significance.”57
Such delegation might pass muster under a
constitution amended by “moments” rather than the
“reflection and choice” prescribed by Article V.58 But if
ever there was an era when an agency’s good sense
was alone enough to make its rules good law, that era
is over.59
Congress decides what major rules make good
sense. The Constitution’s First Article begins, “All
legislative Powers herein granted shall be vested in a
Congress of the United States, which shall consist of a
Senate and House of Representatives.”60 And every
“law” must “pass[] the House of Representatives and

Utility Air Regulatory Group, 573 U.S. at 324 (quoting Brown
& Williamson Tobacco, 529 U.S. at 160) (cleaned up); see also
Gonzales, 546 U.S. at 267 (quoting Brown & Williamson Tobacco,
529 U.S. at 160).
57

See U.S. CONST. art. V; compare BRUCE ACKERMAN, We the
People: Foundations 22 (1991) (“moments”) with MICHAEL S.
GREVE, The Upside-Down Constitution 13 (2012) (“reflection and
choice”) (quoting THE FEDERALIST No. 1, at 3–7 (A. Hamilton) (J.
Cooke ed., 1961)).
58

See, e.g., SAS Institute, Inc. v. Iancu, 138 S. Ct. 1348, 1358–59
(2018) (“The Director may (today) think his approach makes for
better policy, but policy considerations cannot create an
ambiguity when the words on the page are clear. Neither may we
defer to an agency official’s preferences because we imagine some
hypothetical reasonable legislator would have favored that
approach. Our duty is to give effect to the text that actual
legislators (plus one President) enacted into law.”) (cleaned up).

59

60

U.S. CONST. art. I, § 1.

180a
the Senate” and “be presented to the President.”61
Thus, whatever multi-billion-dollar regulatory power
the federal government might enjoy, it’s found on the
open floor of an accountable Congress, not in the
impenetrable halls of an administrative agency—even
if that agency is an overflowing font of good sense.62
Over time, the Supreme Court will further
illuminate the nature of major questions and the
limits of delegation. And under that caselaw, federal
regulation will undoubtedly endure. So will federal
regulators.
Administrative
agencies
are
63
constitutional, and they’re here to stay.
Beyond that, I leave it for others to predict what the
Supreme Court’s emerging jurisprudence may imply
for those agencies’ profiles. Here, regardless of
61

Id. § 7.

See id.; id. § 1; A.L.A. Schechter Poultry Corp. v. United States,
295 U.S. 495 (1935); Marshall Field & Co. v. Clark, 143 U.S. 649,
692 (1892); Gundy v. United States, 139 S. Ct. 2116, 2130–31
(2019) (Alito, J., concurring in the judgment); see generally MIKE
LEE, Our Lost Constitution (2015); PHILIP HAMBURGER, Is
Administrative Law Unlawful? (2014); Cody Ray Milner,
Comment, Into the Multiverse: Replacing the Intelligible
Principle Standard With a Modern Multi-Theory of
Nondelegation, 28 GEO. MASON L. REV. 395 (2020); cf. Talk
America, Inc. v. Michigan Bell Telephone Co., 564 U.S. 50, 68
(2011) (Scalia, J., concurring) (“When the legislative and
executive powers are united in the same person, or in the same
body of magistrates, there can be no liberty . . . .”) (quoting
MONTESQUIEU, Spirit of the Laws bk. XI, ch. 6, pp. 151–52 (O.
Piest ed., T. Nugent transl. 1949)); In re Aiken County, 725 F.3d
255, 264 (D.C. Cir. 2013) (same).
62

Gundy, 139 S. Ct. at 2145 (Gorsuch, J., dissenting) (“Nor
would enforcing the Constitution’s demands spell doom for what
some call the administrative state.”) (cleaned up).

63

181a
deference and delegation doctrines, the regulation of
coal-fired power plants under § 111 is invalid for a
more mundane reason: A 1990 amendment to the
Clean Air Act forbids it.
II.
The Clean Air Act Amendments of 1990 prohibit the
EPA from subjecting power plants to regulation under
§ 111 if they are already regulated under § 112. The
2015 Rule and the 2019 Rule rely on § 111 for the
authority to regulate coal-fired power plants. Because
the EPA already regulates those coal-fired power
plants under § 112, the rules are invalid.
A.
Before 1990, the Clean Air Act’s § 112 told the EPA
to create a list of hazardous air pollutants. Section 112
directed the EPA to regulate the pollutants on that
list. And § 111 provided authorization to regulate
pollutants not on that list.
Carbon is not on the § 112 list. So, under the pre1990 scheme, the EPA could regulate carbon under
§ 111.
But Congress amended § 112 in 1990. Rather than
just telling the EPA to make a § 112 list of pollutants,
Congress created its own § 112 list.
That same year, Congress also amended § 111. As a
result, the codified version of § 111 prohibits the
regulation of pollutants “emitted from a source
category which is regulated under [§ 112].”64

64

42 U.S.C. § 7411(d) (emphasis added).

182a
Coal-fired power plants are a source regulated
under § 112.65 Therefore, under the codified version of
the Clean Air Act, coal plants cannot be regulated
under § 111. And since the 2015 Rule and the 2019
Rule use § 111 to regulate carbon emitted from coal
plants, those rules purport to do what the codified
version of § 111 says the EPA cannot.
But that is not the whole story. Congress’s Office of
the Law Revision Counsel codifies statutes. And when
it mistakenly codifies text different from the Statutes
at Large, the Statutes at Large controls.66 And the
Statutes at Large differs from the codified text here.
The question concerns two amendments, one from
each house of Congress, which both ended up in the
final bill.67
Under the House Amendment:
The
Administrator
shall
prescribe
regulations . . . under which each State shall
submit to the Administrator a plan which (A)
65

Their mercury emissions are regulated under § 112.

Cheney Railroad Co. v. Railroad Retirement Board, 50 F.3d
1071, 1076 (D.C. Cir. 1995); see also United States National Bank
of Oregon v. Independent Insurance Agents of America, Inc., 508
U.S. 439, 448 & n.3 (1993).

66

67

The section, before the 1990 Amendments, read:
The Administrator shall prescribe regulations which shall
establish a procedure . . . under which each State shall
submit to the Administrator a plan which (A) establishes
standards of performance for any existing source for any air
pollutant (i) for which air quality criteria have not been
issued or which is not included on a list published under
section 7408(a) or 7412(b)(1)(A) of this title . . . .

42 U.S.C. § 7411(d)(1) (1988) (emphasis added).

183a
establishes standards of performance for any
existing source for any air pollutant (i) for which
air quality criteria have not been issued or which
is not included on a list published under section
7408(a) of this title or emitted from a source
category which is regulated under section
112 [of the Clean Air Act.]68
Under the Senate Amendment:
The
Administrator
shall
prescribe
regulations . . . under which each State shall
submit to the Administrator a plan which (A)
establishes standards of performance for any
existing source for any air pollutant (i) for which
air quality criteria have not been issued or which
is not included on a list published under section
7408(a) of this title or 112(b) [of the Clean Air
Act.]69
Let’s compare those two versions with the most
relevant text bolded, the divergent text underlined,
and the other text struck through.
House Version:
The
Administrator
shall
prescribe
regulations . . . under which each State shall
submit to the Administrator a plan which (A)
establishes standards of performance for any
existing source for any air pollutant (i) for
which air quality criteria have not been issued or
which is not included on a list published under
Pub. L. No. 101-549, § 108(g), 104 Stat. 2399, 2467 (1990)
(emphasis added); 42 U.S.C. § 7411(d)(1).
68

Pub. L. No. 101-549, § 302(a), 104 Stat. 2399, 2574 (1990)
(emphasis added).
69

184a
section 7408(a) of this title or emitted from a
source category which is regulated under
section 112 . . . .
Senate Version:
The
Administrator
shall
prescribe
regulations . . . under which each State shall
submit to the Administrator a plan which (A)
establishes standards of performance for any
existing source for any air pollutant (i) for
which air quality criteria have not been issued or
which is not included on a list published
under section 7408(a) of this title or 112(b) . . . .
Finally, let’s look at only the most relevant text.
House:
The
Administrator
shall
prescribe
regulations for any air pollutant which is
not emitted from a source category which is
regulated under section 112.
Senate:
The
Administrator
shall
prescribe
regulations for any air pollutant which is
not included on a list published under
112(b).
To sum up so far, in my view:


The House said the EPA can’t use § 111 to
regulate pollutants emitted from a source
category regulated under § 112.70

The EPA adopts a different interpretation of the House
Amendment. That interpretation is addressed below in Part II.C.
70

185a
o Coal-fired power plants are a
source category regulated under
§ 112.


The Senate said the EPA can’t use § 111 to
regulate pollutants published under § 112.
o Carbon is not a pollutant published
under § 112.

Some parties argue the House and Senate
Amendments conflict with each other or otherwise
produce an absurd result. Others say they don’t. In my
view, it doesn’t matter. If there’s a conflict, the House
Amendment controls. And if there’s no conflict, the
Senate Amendment takes nothing away from the
House Amendment. In either scenario—conflict or no
conflict—regulation of coal-fired power plants under
§ 111 is invalid.
B.
Let’s start with the first scenario: Assume the two
amendments conflict.71 If that creates an absurd
result, “a mistake of expression (rather than of
legislative wisdom) [may have] been made.”72 Such a
mistake of expression—a “scrivener’s error”—is
Cf. 70 Fed. Reg. 15,994, 16,030–32 (Mar. 29, 2005) (“EPA is
therefore confronted with the highly unusual situation of an
enacted bill signed by the President that contains two different
and inconsistent amendments to the same statutory provision.”).

71

Antonin Scalia, Common-Law Courts in a Civil-Law System:
The Role of United States Federal Courts in Interpreting the
Constitution and Laws, in A MATTER OF INTERPRETATION:
FEDERAL COURTS AND THE LAW 3, 20 (Amy Gutmann ed., 1997);
see also West Virginia v. EPA, No. 15-1363, Oral Arg. Tr. at 111
(Kavanaugh, J.) (“When [a conflict] happens[,] you [may] have a
scrivener’s error.”).
72

186a
typically viewed as a typo.73 Where the reading
“makes entire sense grammatically but produces a
disposition that makes no substantive sense,” a
“drafter’s error” may exist.74 That said, the distinction
between a scrivener’s error and a drafter’s error “is
generally not a principled one.”75 Here, the Senate and
House Amendments do not have obvious typos or
mistakes, but some may think that including both in
the statute “makes no substantive sense”—in the
same way that a single order to “always drive fast” and
“never drive fast” makes no substantive sense.
In these rare circumstances, judges may read the
text in a way that accounts for these errors. In doing
so, “we are not revising the apparent meaning of the
text.”76 Instead, we give the text “the meaning that it
would convey to a reasonable person, who would
understand that misprints had occurred.”77 But the
“meaning genuinely intended but inadequately
expressed must be absolutely clear; otherwise we
might be rewriting the statute rather than correcting
a technical mistake.”78

73 See ANTONIN SCALIA & BRYAN A. GARNER, Reading Law: The
Interpretation of Legal Texts 234 (2012) (quoting Daniel A.
Farber, Statutory Interpretation and Legislative Supremacy, 78
Geo. L.J. 281, 289 (1989)).
74

Id. at 235.

75

Id.

Id.; see also id. at 234 (quoting Grey v. Pearson, [1857] 6 H.L.
Cas. 61, 106 (per Lord Wensleydale)) (cleaned up).
76

77

Id. at 235.

United States v. X-Citement Video, Inc., 513 U.S. 64, 82 (1994)
(Scalia, J., dissenting).
78

187a
How then to discover the “meaning genuinely
intended”?
Some might say “defer to the EPA” because of the
text’s ambiguity. But unintentional ambiguity from a
drafter’s error is nothing like the intentional
ambiguity that typically receives Chevron deference.
Chevron applies to deliberate gaps for an agency to
fill.79 So deference is arguably faithful to a statute’s
meaning—at least in theory.80
In contrast, drafter’s errors are accidents. So there’s
no reason to believe deference was “genuinely
intended.” And to the extent an office or agency with
expertise is entitled to deference here—none is81—
Congress’s Office of the Law Revision Counsel is the
leading candidate. Its whole job is to produce the
United States Code, and it dismissed the Senate
Amendment as a drafter’s error.
Chevron, U.S.A., Inc. v. Natural Resources Defense Council,
Inc., 467 U.S. 837, 862 (1984); cf. Pereira v. Sessions, 138 S. Ct.
2105, 2121 (2018) (Kennedy, J., concurring) (“Given the concerns
raised by some Members of this Court it seems necessary and
appropriate to reconsider, in an appropriate case, the premises
that underlie Chevron and how courts have implemented that
decision. The proper rules for interpreting statutes and
determining agency jurisdiction and substantive agency powers
should accord with constitutional separation-of-powers principles
and the function and province of the Judiciary.”) (cleaned up).
79

But see Gutierrez-Brizuela v. Lynch, 834 F.3d 1142, 1153 (10th
Cir. 2016) (Gorsuch, J., concurring) (“The fact is, Chevron’s claim
about legislative intentions is no more than a fiction—and one
that requires a pretty hefty suspension of disbelief at that.”).

80

Ganem v. Heckler, 746 F.2d 844, 851 (D.C. Cir. 1984) (“[T]he
changes made by the codifiers, whose choice, made without the
approval of Congress[,] should be given no weight, are of no
substantive moment.”) (cleaned up).

81

188a
Others might say the default should be freedom
from regulation when a drafter’s error creates
ambiguity over an agency’s authority to promulgate a
major rule. After all, if Congress doesn’t clearly
endorse a major regulation, there can be no major
regulation.82
But as with Chevron, the major-rules doctrine
draws meaning from ambiguity: Because Congress
does not hide elephants in mouseholes, we presume
the absence of clarity means Congress intentionally
chose not to endorse a major regulation. So as with
Chevron’s premise, the premise of the major-rules
doctrine is inapplicable to a drafter’s error. Here, to
the extent an elephant’s in a mousehole, we don’t
know whether the misprint is the mousehole or the
elephant.
That leaves us with a third option: inquiring into
legislative history. True, as a general matter, courts
should reject any significant reliance on legislative
history. Hamilton did.83 So did Marshall.84 And
Madison.85 And Story.86 “From the beginnings of the
republic, American law followed what is known as the
‘no-recourse doctrine’—that in the interpretation of a
text, no recourse may be had to legislative history.”87
See MCI Telecommunications, 512 U.S. at 230–31; Brown &
Williamson Tobacco, 529 U.S. at 126–27; Gonzales, 546 U.S. at
267; Utility Air Regulatory Group, 573 U.S. at 322–25.

82

ANTONIN SCALIA & BRYAN A. GARNER, Reading Law: The
Interpretation of Legal Texts 370 (2012).
83

84

Id. at 370–71.

85

Id. at 371.

86

Id. at 371–72.

87

Id. at 369.

189a
And although many judges abandoned the no-recourse
doctrine by the second half of the twentieth century,88
leading textualists like Justice Scalia have made
important progress in reviving it.
But “[w]hen you have a scrivener’s error[,] everyone,
including Justice Scalia, would look at the legislative
history.”89 Indeed, he “believed that the only time it
was appropriate for a court to use legislative history
was when there was a credible claim of scrivener’s
error.”90 For example, concurring in the judgment in
Green v. Bock Laundry Machine Co., Justice Scalia
considered
“it
entirely
appropriate
to
consult . . . legislative history . . . to verify that what
seems . . . an unthinkable disposition . . . was
indeed unthought of, and thus to justify a departure
from the ordinary meaning of the word” at issue.91
So, to recap: (1) The House and Senate Amendments
may conflict; (2) if they do, there may have been a
drafter’s error; and (3) legislative history can
illuminate a drafter’s error.

88

Id. at 388.

West Virginia v. EPA, No. 15-1363, Oral Arg. Tr. at 111
(Kavanaugh, J.); see also John Copeland Nagle, CERCLA’s
Mistakes, 38 WM. & MARY L. REV. 1405, 1414 (1997) (“[E]ven
textualists like Justice Scalia acknowledge that the courts can
remedy a ‘scrivener’s error’ notwithstanding plain statutory
language.”).

89

Megan
McDermott,
Justice
Scalia’s
Bankruptcy
Jurisprudence: The Right Judicial Philosophy for the Modern
Bankruptcy Code?, 2017 UTAH L. REV. 939, 974 (2017) (emphasis
added).
90

490 U.S. 504, 527 (1989) (Scalia, J., concurring in the
judgment).
91

190a
What then, if anything, does the legislative history
tell us? (Buckle up.)
In 1990, the House passed a bill with many
amendments to the Clean Air Act. The Senate passed
a different bill. A Conference Committee reconciled
them. But it made (at least) two drafter’s errors—
assuming again our two amendments conflict.
First, the Conference Committee put both the
House and Senate Amendments in the Conference
Report, which became the final bill.92
Second, the Conference Committee botched the
“Joint Explanatory Statement of the Committee of
Conference.”93
The Joint Statement said, “The House amendment
to the text of the bill struck out all of the Senate bill
after the enacting clause and inserted a substitute
text.”94 That “amendment” refers to the House’s entire

The Conference Report says “[t]hat the Senate recede[s] from
its disagreement to the amendment of the House to the text of
the bill and agree[s] to the same with an amendment as follows:
In lieu of the matter proposed to be inserted by the House
amendment insert the following: . . . Sec. 108. Miscellaneous
provisions.” H.R. Rep. No. 101-952, 101st Cong., at 1 (1990)
(cleaned up). Section 108(g) under “Miscellaneous provisions”
was the House Amendment that struck “or 112(b)(1)(A)” and
inserted “or emitted from a source category which is regulated
under section 112.” Id. at 73. But later in the report we find the
Senate’s original proposed amendment—replacing “112(b)(1)(A)”
with “112(b).” Id. at 183. So the Senate says it receded to the
House, and yet we still see the Senate’s original language in the
document.
92

93

Id. at 335–55.

94

Id. at 335.

191a
set of amendments to the Clean Air Act. Clear enough
so far.
The Joint Statement then said, “The Senate recedes
from its disagreement to the amendment of the House
. . . .”95 Again, that seems straightforward.
But the Joint Statement didn’t stop there. The full
sentence excerpted just above says:
The Senate recedes from its disagreement to the
amendment of the House with an amendment
which is a substitute for the Senate bill and the
House amendment.96
That is drivel. The Senate recedes with an
amendment? What amendment? And how is that
receding? And did the House recede to the Senate’s
amendment to the House’s amendment that the
Senate receded to?
The next day, the bill’s Senate Managers issued a
statement attempting to clarify the previous day’s
materials. The statement notes that for two unrelated
portions of the § 111 amendments, the House receded
to the Senate.97 But it said the Senate receded to the
House regarding all other § 111 changes, including the
change at issue in this case.98
95

Id.

96

Id.

Chafee-Baucus Statement of Senate Managers, S. 1630, the
Clean Air Act Amendments of 1990, 136 Cong. Rec. 36007, 36067
(Oct. 27, 1990).

97

Id. The full sentence about the two amendments at issue here
reads: “Conference agreement. The Senate recedes to the House
except that with respect to the requirement regarding judicial
review of reports, the House recedes to the Senate and with
respect to transportation planning, the House recedes to the
98

192a
To the extent a statement by Senate Managers can
ever clear up a question of statutory meaning—count
me skeptical99—theirs did.
Here’s where that leaves me. I’m frankly not
convinced the House and Senate Amendments are the
product of a drafter’s error. But if they are, the most
lucid piece of legislative history says the Senate
intended to recede to the House.
That would leave the House Amendment as the last
man standing. And under the House Amendment, the
EPA can’t regulate air pollutants from coal-fired
power plants under § 111 when the plants are already
regulated under § 112. Therefore, if the House and
Senate Amendments conflict, the 2015 Rule and the
2019 Rule are invalid.100
C.
As for the second (and more likely) of the two
scenarios: Assume the House and Senate
Amendments do not conflict. In that case, we don’t
strike the Senate Amendment as a drafter’s error.101
Senate with certain modifications.” In other words, except for
judicial review of reports (immaterial here) and transportation
planning (immaterial here), the Senate receded to the House.
99 Environmental Defense Fund, Inc. v. EPA, 82 F.3d 451, 460
n.11 (D.C. Cir. 1996).

The EPA doesn’t like that result. For thirty years it has either
ignored or misconstrued the House Amendment. But the EPA’s
long-running error is no reason to ignore plain text. To the extent
I glean anything from the EPA’s thirty-year mistake, it’s that the
EPA might be entitled to less deference than it thinks it deserves.
100

For the reader’s convenience, here again is the codified version
of § 111(d): “The Administrator shall prescribe regulations which
shall establish a procedure . . . under which each State shall
submit to the Administrator a plan which (A) establishes
101

193a
But even then, the House Amendment retains its full
effect.
Recall that each amendment does two things. First,
it creates a category of air pollutants. And second, it
excludes that category from regulations authorized
under § 111.
For the House Amendment, that category covers
any pollutant “emitted from a source category which
is regulated under section 112.” And for the Senate
Amendment, that category covers any pollutant
“published under section . . . 112(b).”
So to see what’s in the House Amendment’s
category, you’d start by making a list of every source
regulated under § 112. As far as § 111 regulation goes,
any air pollutants from those sources—including coalfired power plants—are forbidden fruit under the
House Amendment.
To create the Senate Amendment’s list, you’d
simply pull the 180 or so pollutants from § 112(b), as
modified by the EPA since 1990. As far as § 111
regulation
goes,
those
pollutants—mercury
compounds, asbestos, and more than 180 others—are
forbidden fruit under the Senate Amendment.102
In general, the House Amendment sweeps more
broadly than the Senate Amendment. For example,
standards of performance for any existing source for any air
pollutant (i) for which air quality criteria have not been
issued or which is not included on a list published under
[§ 108(a)] or emitted from a source category which is
regulated under [§ 112] . . . .” (emphasis added).
Initial List of Hazardous Air Pollutants with Modifications,
EPA,
https://www.epa.gov/haps/initial-list-hazardous-airpollutants-modifications.

102

194a
the House Amendment’s list includes pollution from
coal-fired power plants, since they are regulated for
mercury. So under the House Amendment, § 111
cannot be used to regulate coal-fired power plants at
all.
In contrast, the Senate Amendment’s list includes
mercury, but it does not include all other pollution
from sources that emit mercury. So under the Senate
Amendment, § 111 cannot be used to regulate coalfired power plants’ emissions of mercury. But the
Senate Amendment does not by itself stop the EPA
from using § 111 to regulate coal-fired power plants’
emissions of pollutants like carbon, since carbon isn’t
on the Senate Amendment’s list.
That the House Amendment generally sweeps more
broadly than the Senate Amendment, however, does
not mean that fidelity to the House Amendment fails
to give full effect to the Senate Amendment. For
example, imagine two parents choosing a name for
their child. The father says, “There’s no way we’re
naming our baby after a president from Virginia.” And
the mother says, “There’s no way we’re naming our
baby after any president.”
Just like the House and the Senate each took
certain regulations off § 111’s table, the mother and
father have each taken certain names off the table.
And just as the House Amendment excludes from
§ 111 every regulation excluded by the Senate
Amendment (and then some), the mother has said no
way to every name excluded by the father (and then
some).
When you give full effect to the mother’s no-way list,
you are not ignoring the father’s no-way list—because

195a
the father’s list only excludes names and thus does not
require the inclusion of any names. And for the same
reason, when you give full effect to the father’s list,
you are not ignoring the mother’s—because the
mother’s no-way list does not require the inclusion of
names excluded by the father.
Like the father’s list, the Senate Amendment has a
lot to say about what’s excluded from § 111. But like
the father’s list, the Senate Amendment says nothing
about what’s included. So when the House
Amendment excludes coal-fired power plants from
§ 111’s scope, it doesn’t ignore the Senate Amendment.
It supplements it—by excluding from § 111’s scope a
category of regulations not already excluded by the
Senate Amendment.
That’s the situation that will occur most often—air
pollutants excluded from § 111 regulation because
they’re on the Senate Amendment’s list will also be
excluded from § 111 regulation because they’re on the
House Amendment’s list.
But there may exist situations, at least in theory,
when only the Senate Amendment does any work.
For example, consider a hazardous air pollutant
listed under § 112 but “emitted by sources that Section
[112] does not reach.”103 That pollutant is barred from
§ 111 regulation by the Senate Amendment (because
it’s a pollutant listed under § 112), but it is arguably
not barred by the House Amendment (because it’s
emitted from a source not regulated under § 112). In

103

Majority Op. at 119–20 n.19.

196a
that scenario, it’s possible only the
Amendment would bar § 111 regulation.104

Senate

In other words, these § 111 exclusions might form a
Venn diagram: Some air pollutants are excluded from
§ 111 regulation only because of the House
Amendment (like carbon from coal-fired power
plants), some pollutants are only excluded because of
the Senate Amendment (as in the hypothetical I just
described), and some pollutants are excluded because
of both amendments (like mercury from coal-fired
power plants). Recognizing both amendments as
operative gives “maximum possible effect” to each.105
The EPA says Chevron applies to this question.
Even so, the outcome is the same. At Chevron step one,
the plain text of the Senate Amendment takes nothing
away from the plain text of the House Amendment and
vice versa. And because the House Amendment
expressly precludes the regulation of coal-fired power
plants under § 111, the plain text precludes the 2015
Rule and the 2019 Rule—both of which depended on
§ 111 to regulate coal-fired power plants.
In American Electric Power Co. v. Connecticut, the
Supreme Court agreed with this reading. It said the
“EPA may not employ § [111(d)] if existing stationary
104 As another theoretical example, consider a source that emits
a pollutant on § 112’s list and assume the EPA is required to
regulate that source based on § 112’s parameters. But now
imagine that, notwithstanding that requirement, the EPA has
not yet regulated the source. After all, sometimes these things
take time. In that situation too, the Senate Amendment might
exclude from § 111 regulation pollutants that the House
Amendment might not (yet).

Citizens to Save Spencer County v. EPA, 600 F.2d 844, 870
(D.C. Cir. 1979).

105

197a
sources of the pollutant in question are regulated
under the national ambient air quality standard
program . . . or the ‘hazardous air pollutants’
program, § [112].”106
The EPA adopts a different approach to the House
Amendment. In “any air pollutant . . . emitted from a
source category which is regulated under section 112,”
the EPA reads the phrase “which is regulated under
section 112” to modify “air pollutant,” rather than
“source category.” So it would exclude from § 111’s
scope only an “air pollutant . . . which is regulated
under § 112”:
The
Administrator
shall
prescribe
regulations . . . under which each State shall
submit to the Administrator a plan which (A)
establishes standards of performance for any
existing source for any air pollutant (i) for
which air quality criteria have not been issued or
which is not included on a list published under
American Electric Power Co. v. Connecticut, 564 U.S. 410, 424
n.7 (2011) (citing § 7411(d)(1)). The EPA notes that this footnote
was dicta and that it conflicted with national ambient air quality
standard regulations at the time. But the EPA can’t have it both
ways: It can’t dismiss an inconvenient part of American Electric
Power that is directly on point and then rely on other parts of that
case where the precise meaning and contours of § 111(d) were not
at issue.
106

As for American Electric Power’s holding, it depended on the
Supreme Court’s understanding that § 111(d) “speaks directly” to
carbon emissions from fossil-fuel plants. Id. at 424. I agree that
§ 111(d) “speaks directly” to whether the EPA can or cannot
regulate carbon from coal-fired power plants: The provision
directly says that the EPA can regulate pollutants from existing
sources unless the EPA already regulates those sources under
§ 112. Compare id. with id. at 424 n.7.

198a
section 108(a) or emitted from a source category
which is regulated under section 112 . . . .
To get to the EPA’s preferred reading—to make
“which is regulated by section 112” modify “air
pollutant”—the
EPA
needs
to
read
into
107
§ 111(d)(1)(A)(i) a triplet of three whiches:
The
Administrator
shall
prescribe
regulations . . . under which each State shall
submit to the Administrator a plan which (A)
establishes standards of performance for any
existing source for any air pollutant [1] for which
air quality criteria have not been issued or [2]
which is not included on a list published under
§ 108(a) or emitted from a source category [3]
which is [not] regulated under § 112 . . . .
My alterations—including [1], [2], [3], and [not]—
reflect the tripartite division implied by the EPA. But
of course the alterations were not in the original. If
they were, the EPA’s grammatically unconventional
reading might work. They’re not, so it doesn’t.
For four reasons, the EPA’s approach is not
persuasive.
First, “ordinarily, and within reason, modifiers and
qualifying phrases attach to the terms that are
nearest.”108 Under that canon, a modifying phrase,
such as “which is regulated under section 112,” should

107

Cf. WILLIAM SHAKESPEARE, MACBETH act 1, sc. 1.

Grecian Magnesite Mining, Industrial & Shipping Co., SA v.
Commissioner, 926 F.3d 819, 824 (D.C. Cir. 2019); see also
Lockhart v. United States, 136 S. Ct. 958, 962 (2016); ANTONIN
SCALIA & BRYAN A. GARNER, Reading Law: The Interpretation of
Legal Texts 144–46 (2012).
108

199a
apply to the closest noun possible—“source category,”
not “air pollutant.”
Second, the EPA all but reads out of § 111 the
following words: “emitted from a source category.” To
be sure, Congress will sometimes “include words that
add nothing of substance,” so the canon against
surplusage has limits.109 That’s why “a court may well
prefer ordinary meaning to an unusual meaning that
will avoid surplusage.”110 But amputating the words
“emitted from a source category” does not clarify
§ 111’s “ordinary meaning.” Instead, doing so
transforms that meaning.
Third, and most importantly, Congress put a
conjunction (“or”) between parts one and two of the
imagined triplet, but not between parts two and three.
If the EPA’s triplet exists, Congress’s approach to
English was, to put it kindly, novel.
In formal English, you usually separate a triplet
with a conjunction between the second and third
parts. (Life, liberty, or property.) Informal English
sometimes puts a conjunction between the first and
second, and between the second and third. (Life or
liberty or property.) Sometimes you see a triplet with
no conjunction. (Life, liberty, property.) But you rarely
if ever see a triplet’s conjunction separate the first and
second parts without also separating the second and
third parts. (Life or liberty property). That’s why it’s
not:


Stop and drop roll; or

ANTONIN SCALIA & BRYAN A. GARNER, Reading Law: The
Interpretation of Legal Texts 176 (2012).
109

110

Id.

200a


Red and white blue; or



Reduce and reuse recycle; or



Blood and sweat tears; or



Huey and Dewey Louie.

Thus, the EPA would require us to read into § 111 a
triplet written in a way no one writes.111
Fourth and finally, the EPA says a plain-text
reading of the House Amendment would leave § 111
almost no work to do. But if so, that was a choice for
Congress. After all, the 1990 Clean Air Act
Amendments added more than one hundred
pollutants to § 112’s scope, with a mechanism for the
EPA to add even more later.112 Maybe Congress
thought § 111(d) shouldn’t be much more than a rarely
Whatever else the savings clause in § 112(d)(7) might save, it
can’t save that. Cf. 42 U.S.C. § 7412(d)(7) (“No emission standard
or other requirement promulgated under this section shall be
interpreted, construed or applied to diminish or replace the
requirements of a more stringent emission limitation or other
applicable requirement established pursuant to section 7411 of
this title, part C or D, or other authority of this chapter or a
standard issued under State authority.”).
111

Note that § 112(d)(7) applies only to requirements “established
pursuant to” § 111. And even the EPA says regulations cannot be
established pursuant to § 111 if they target pollutants already
regulated under § 112. See also American Electric Power, 564
U.S. at 424 n.7. So everyone agrees the § 111 amendments
exclude something from § 111 based on § 112. And § 112(d)(7)
does not cover whatever is excluded.
What’s more, § 111(d)’s exclusion is more specific than
§ 112(d)(7)’s generalities, and the specific usually controls the
general. See ANTONIN SCALIA & BRYAN A. GARNER, Reading Law:
The Interpretation of Legal Texts 183 (2012).
112

Pub. L. No. 101-549, § 301, 104 Stat. 2399, 2532–37 (1990).

201a
used gap-filler in light of a beefed up § 112—at least
until Congress passed another law saying otherwise.
Of course, in the end, it doesn’t matter what
Congress was thinking.113 “It is the law that governs,
not the intent of the lawgiver.”114 That’s because,
among other reasons, “it is simply incompatible with
democratic government, or indeed, even with fair
government, to have the meaning of a law determined
by what the lawgiver meant, rather than by what the
lawgiver promulgated.”115
Thus, an oddity of timing doesn’t trigger Chevron
deference.116 Nor does ambiguity arise every time an
agency wishes a statutory provision did more work
than it does. When statutory text informed by
structure and context is clear, “that is the end of the
matter.”117
***
This case touches on some of administrative law’s
most consequential, unresolved issues. What is the
reach of Massachusetts v. EPA? What is the meaning

Cf. Gutierrez-Brizuela, 834 F.3d at 1153 (Gorsuch, J.,
concurring) (“Trying to infer the intentions of an institution
composed of 535 members is a notoriously doubtful business
under the best of circumstances.”).

113

Antonin Scalia, Common-Law Courts in a Civil-Law System:
The Role of United States Federal Courts in Interpreting the
Constitution and Laws, in A MATTER OF INTERPRETATION:
FEDERAL COURTS AND THE LAW 3, 17 (Amy Gutmann ed., 1997).
114

115

Id.

Cf. Public Health & Environmental Respondent-Intervenors’
Br. at 10–11.
116

117

Chevron, 467 U.S. at 842.

202a
of a major question? What are the limits of
congressional delegation?
Each of those issues—and a dozen or two more—
might have mattered if the EPA had relied on a section
of the Clean Air Act other than § 111 to promulgate
both rules at issue in this case. But a 1990 amendment
to § 111 excluded a category of regulations from
§ 111’s scope. And because that category covers the
regulations challenged today, those other legal
questions are academic.
Both houses of Congress voted that amendment—
the House Amendment—into law. And as explained
above, if it conflicts with the Senate-proposed
amendment to § 111, the Senate Amendment was a
drafter’s error.
On the other hand, if the House and Senate
Amendments can coexist, the House Amendment
simply excludes from § 111’s scope a category of
regulations in addition to the regulations excluded by
the Senate Amendment.
Either way, the law precludes what the House
Amendment precludes. And the House Amendment
precludes § 111 regulations of coal-fired power plants
already covered by § 112.
Therefore, the EPA correctly repealed the 2015
Rule, but its replacement rule improperly applied
§ 111 to coal-fired power plants already regulated
under § 112.

203a
Those conclusions lead to this respectful
concurrence in part, concurrence in the judgment in
part, and dissent in part.118

The majority’s thoughtful opinion (I) describes this case’s
regulatory and procedural history; (II) vacates the 2019 Rule;
(III.A) rejects most of the Coal Petitioners’ arguments, including
their contention that the EPA cannot use § 111 to regulate carbon
emissions from power plants already regulated under § 112;
(III.B) dismisses the Robinson Petitioners’ challenge for lack of
standing; (IV) vacates the EPA’s implementing regulations for
emission guidelines promulgated under § 111(d); (V) describes
the remedy; and (VI) concludes. I concur in part of the judgment
with respect to Part II, concur with respect to Part III.B, and
concur in the judgment with respect to Part IV.

118

204a

APPENDIX B

42 U.S.C. § 7411
Standards of performance for
new stationary sources
(a) Definitions
For purposes of this section:
(1) The term “standard of performance” means a
standard for emissions of air pollutants which
reflects the degree of emission limitation achievable
through the application of the best system of
emission reduction which (taking into account the
cost of achieving such reduction and any nonair
quality health and environmental impact and
energy requirements) the Administrator determines
has been adequately demonstrated.
(2) The term “new source” means any stationary
source, the construction or modification of which is
commenced after the publication of regulations (or,
if earlier, proposed regulations) prescribing a
standard of performance under this section which
will be applicable to such source.
(3) The term “stationary source” means any
building, structure, facility, or installation which
emits or may emit any air pollutant. Nothing in
subchapter II of this chapter relating to nonroad
engines shall be construed to apply to stationary
internal combustion engines.
(4) The term “modification” means any physical
change in, or change in the method of operation of,

205a
a stationary source which increases the amount of
any air pollutant emitted by such source or which
results in the emission of any air pollutant not
previously emitted.
(5) The term “owner or operator” means any
person who owns, leases, operates, controls, or
supervises a stationary source.
(6) The term “existing source” means
stationary source other than a new source.

any

(7) The term “technological system of continuous
emission reduction” means—
(A) a technological process for production or
operation by any source which is inherently lowpolluting or nonpolluting, or
(B) a technological system for continuous
reduction of the pollution generated by a source
before such pollution is emitted into the ambient
air, including precombustion cleaning or
treatment of fuels.
(8) A conversion to coal (A) by reason of an order
under section 2(a) of the Energy Supply and
Environmental Coordination Act of 1974 or any
amendment thereto, or any subsequent enactment
which supersedes such Act, or (B) which qualifies
under section 7413(d)(5)(A)(ii) of this title, shall not
be deemed to be a modification for purposes of
paragraphs (2) and (4) of this subsection.
(b) List of categories of stationary sources;
standards of performance; information on
pollution control techniques; sources owned or
operated by United States; particular systems;
revised standards

206a
(1)(A) The Administrator shall, within 90 days after
December 31, 1970, publish (and from time to time
thereafter shall revise) a list of categories of stationary
sources. He shall include a category of sources in such
list if in his judgment it causes, or contributes
significantly to, air pollution which may reasonably be
anticipated to endanger public health or welfare.
(B) Within one year after the inclusion of a category
of stationary sources in a list under subparagraph (A),
the Administrator shall publish proposed regulations,
establishing Federal standards of performance for new
sources within such category. The Administrator shall
afford interested persons an opportunity for written
comment on such proposed regulations. After
considering such comments, he shall promulgate,
within one year after such publication, such standards
with such modifications as he deems appropriate. The
Administrator shall, at least every 8 years, review
and, if appropriate, revise such standards following
the procedure required by this subsection for
promulgation of such standards. Notwithstanding the
requirements of the previous sentence, the
Administrator need not review any such standard if
the Administrator determines that such review is not
appropriate in light of readily available information on
the efficacy of such standard. Standards of
performance or revisions thereof shall become
effective upon promulgation. When implementation
and enforcement of any requirement of this chapter
indicate that emission limitations and percent
reductions beyond those required by the standards
promulgated under this section are achieved in
practice, the Administrator shall, when revising
standards promulgated under this section, consider

207a
the emission limitations and percent reductions
achieved in practice.
(2) The Administrator may distinguish among
classes, types, and sizes within categories of new
sources for the purpose of establishing such standards.
(3) The Administrator shall, from time to time, issue
information on pollution control techniques for
categories of new sources and air pollutants subject to
the provisions of this section.
(4) The provisions of this section shall apply to any
new source owned or operated by the United States.
(5) Except as otherwise authorized under subsection
(h), nothing in this section shall be construed to
require, or to authorize the Administrator to require,
any new or modified source to install and operate any
particular technological system of continuous
emission reduction to comply with any new source
standard of performance.
(6) The revised standards of performance required by
enactment of subsection (a)(1)(A)(i) and (ii) shall be
promulgated not later than one year after August 7,
1977. Any new or modified fossil fuel fired stationary
source which commences construction prior to the date
of publication of the proposed revised standards shall
not be required to comply with such revised standards.
(c) State implementation and enforcement of
standards of performance
(1) Each State may develop and submit to the
Administrator a procedure for implementing and
enforcing standards of performance for new sources
located in such State. If the Administrator finds the
State procedure is adequate, he shall delegate to such

208a
State any authority he has under this chapter to
implement and enforce such standards.
(2) Nothing in this subsection shall prohibit the
Administrator from enforcing any applicable standard
of performance under this section.
(d) Standards of performance for existing
sources; remaining useful life of source
(1) The Administrator shall prescribe regulations
which shall establish a procedure similar to that
provided by section 7410 of this title under which each
State shall submit to the Administrator a plan which
(A) establishes standards of performance for any
existing source for any air pollutant (i) for which air
quality criteria have not been issued or which is not
included on a list published under section 7408(a) of
this title or emitted from a source category which is
regulated under section 7412 of this title but (ii) to
which a standard of performance under this section
would apply if such existing source were a new source,
and (B) provides for the implementation and
enforcement of such standards of performance.
Regulations of the Administrator under this
paragraph shall permit the State in applying a
standard of performance to any particular source
under a plan submitted under this paragraph to take
into consideration, among other factors, the remaining
useful life of the existing source to which such
standard applies.
(2) The Administrator
authority—

shall

have

the

same

(A) to prescribe a plan for a State in cases where
the State fails to submit a satisfactory plan as he
would have under section 7410(c) of this title in the

209a
case of failure to submit an implementation plan,
and
(B) to enforce the provisions of such plan in cases
where the State fails to enforce them as he would
have under sections 7413 and 7414 of this title with
respect to an implementation plan.
In promulgating a standard of performance under a
plan prescribed under this paragraph, the
Administrator shall take into consideration, among
other factors, remaining useful lives of the sources in
the category of sources to which such standard applies.
***

